<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2005</title>
<body><pre>[Senate Hearing 108-]
[From the U.S. Government Printing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2005

                              ----------                              


                        WEDNESDAY, MAY 12, 2004

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 9:03 a.m., in room SH-216, Hart 
Senate Office Building, Hon. Ted Stevens (chairman) presiding.
    Present: Senators Stevens, Cochran, Specter, Domenici, 
Bond, McConnell, Shelby, Gregg, Hutchison, Burns, Inouye, 
Hollings, Byrd, Leahy, Harkin, Dorgan, Durbin, Reid, and 
Feinstein.

                         DEPARTMENT OF DEFENSE

                        Office of the Secretary

STATEMENTS OF:
        HON. DONALD H. RUMSFELD, SECRETARY
        GENERAL RICHARD B. MYERS, CHAIRMAN, JOINT CHIEF OF STAFF
        DR. DAVID S. CHU, UNDER SECRETARY OF DEFENSE (PERSONNEL AND 
            READINESS)
ACCOMPANIED BY LAWRENCE LANZILLOTTA, COMPTROLLER

                OPENING STATEMENT OF SENATOR TED STEVENS

    Senator Stevens. Good morning, Secretary Rumsfeld, General 
Myers. We welcome you back before our subcommittee at this 
important time for our Nation and for the Department of 
Defense. We also welcome the acting Comptroller, Larry 
Lanzillotta.
    The focus of our hearing today is the fiscal year 2005 
Defense budget. This is our normally scheduled hearing, where 
we ask the Secretary of Defense and the Chairman of the Joint 
Chiefs of Staff to testify at the end of our hearing cycle and 
provide their important perspectives on the budget and answer 
questions that have come up in connection with the other 
subcommittee hearings.
    Last week, we learned a fiscal year 2005 request totaling 
$25 billion is forthcoming. We plan to hold a separate hearing 
on that request when more details are available. If it comes to 
this committee, I urge members to defer their questions 
concerning that request until we have it.
    Sadly, we also have learned a lot over the past week about 
the abuse of Iraqi inmates at the Abu Ghraib prison. These 
actions were absolutely appalling and an embarrassment to our 
great country, as you have said, Mr. Secretary. Congress must, 
and we shall, investigate the matter thoroughly. It is our 
view, however, that the primary jurisdiction of this issue lies 
with the Senate Armed Services Committee and the Senate 
Intelligence Committee, not the Appropriations Committee. This 
committee needs to focus attention on funding required to train 
and equip our men and women in uniform throughout the world.
    Our military remains engaged in critical missions in Iraq, 
Afghanistan, and other areas around the world. It's imperative 
for us to exercise our due diligence in reviewing the $401.7 
billion in Defense spending requests that's already before us. 
We're committed to ensuring the Defense Department is properly 
resourced to win our global war on terrorism. Failure in this 
endeavor is not an option for us, as you have stated, Mr. 
Secretary.
    Mr. Secretary and General Myers, we look forward to this 
hearing today about your priorities in the current budget 
request, as well as any other operational update you may wish 
to provide. I understand you may have a time problem, Mr. 
Secretary. Please keep us informed on that.
    We will make--your full statements are already a part of 
our record.
    Each Member, without objection, will be limited to 5 
minutes in the opening round of questions. Time permitting, we 
will proceed with a second round of questioning.
    Before you begin your opening statements, I'll ask my 
colleague, my co-chairman from Hawaii, if he has comments.

                 STATEMENT OF SENATOR DANIEL K. INOUYE

    Senator Inouye. Mr. Chairman, I thank you very much. And 
good morning, Mr. Secretary and General Myers. And I join my 
Chairman and welcome you to our Subcommittee.
    During our hearings this year, we received testimony from 
the military departments, the Guard and Reserves, Missile 
Defense Agency, and the Surgeons General. As we have examined 
the testimony of these officials, it is very clear that most 
are very supportive of your budget request. In our review, we 
learned that, at the same time as our forces are fighting 
overseas, your Department is engaged in many major and somewhat 
controversial changes. The Navy and Marines are looking at 
swapping crews overseas to save money and time for deploying 
ships, a policy which could impact how many ships we need. The 
Army is adding forces by reconstructing brigades, but there's 
no agreement to permanently provide the end strength to achieve 
this. The Air Force is preparing to introduce the F-22 to its 
force structure, which dramatically increases combat 
capability. And there are some who still question whether the 
system is required. All the services are examining their forces 
overseas to alter the global footprint while we prepare for 
base closures domestically. And we are now aware that a budget 
amendment will be forthcoming to help pay for the rising cost 
of war in Iraq when for months we thought we could defer any 
increase until next year.
    So, Mr. Secretary and General Myers, we know these are very 
challenging and critical times for the Defense Department. The 
challenges have been heightened by the events coming to light 
in recent weeks, and I'm sure I don't have to tell you that it 
has been very difficult for all Americans to witness scenes of 
torture and human-rights abuses.
    Mr. Chairman, I know that many are likely to want to 
discuss this today, but we should remember that our primary 
jurisdiction is the budget of the Defense Department, not 
investigating criminal acts. It is, nonetheless, very important 
that the Congress and the administration continue to 
investigate these incidents, and I'm certain they will.
    Mr. Secretary, General Myers, I know you recognize the 
gravity of this matter and the serious impact it is having on 
our Nation's prestige and influence. I, for one, am very 
concerned about the long-term effect it will have on our 
military recruiting and retention. It is equally important that 
we realize we're all in it together. I'm one of the few on this 
committee that voted against going to war in Iraq. But now that 
we are engaged in this policy, we must simply find a way to see 
it through to a successful and swift conclusion.
    And I thank you, Mr. Chairman.
    Senator Stevens. Without objection, we're going to postpone 
opening statements of other members and go right to the 
Secretary's statement. As I said, it's printed in the record.
    Mr. Secretary, we're happy to have you here with us today.
    Secretary Rumsfeld. Thank you, Mr. Chairman, Senator 
Inouye, members of the committee. I'd like to make a brief 
statement, and I certainly thank you for this opportunity to 
meet on the President's proposed budget.
    First, I want to commend the men and women in uniform and 
the civilians in the Department of Defense who support them. 
It's important, in times like this, that we publicly indicate 
that we value their service, we value their sacrifice. They are 
doing a superb job for this country.

                       ACCOMPLISHMENTS SINCE 2001

    When this administration took office 3 years ago, the 
President charged us to try to prepare the Department to meet 
the new threats that our Nation will face in the 21st century. 
To meet that charge, we fashioned a new defense strategy, a new 
force-sizing construct. We've issued a new unified command 
plan, instituted more realistic budgeting so that the 
Department now looks to emergency supplementals for the unknown 
cost of fighting wars and not simply to sustain readiness. We 
transformed the way the Department prepares its war plans, and 
adopted a new lessons-learned approach during Operation Iraqi 
Freedom. And we have undertaken a comprehensive review of our 
global force structure.
    The scope and scale of what has been accomplished is 
substantial. Our challenge is to build on these activities even 
as we fight the global war on terror. One effect of the global 
war on terror has been a significant increase in the 
operational tempo and an increased demand on the force. To 
manage the demand, we must first be clear about the problems so 
that we can work together to fashion appropriate solutions. We 
hope the increased demand on the force we're experiencing today 
will prove to be a spike driven by the deployment of some 
138,000 troops in Iraq.

                      MANAGING DEMAND ON THE FORCE

    For the moment, the increased demand is real, and we have 
taken a number of immediate actions. We're working to increase 
international military participation in Iraq, and have had good 
success. More recently, we've lost two or three countries from 
that coalition, which was unfortunate. We've accelerated the 
training of Iraqi security forces, and we now have something 
like 206,000 strong, heading toward 265,000. And our forces are 
working to hunt down those who threaten Iraq's stability and 
Iraq's transition to self reliance.
    Another way to deal with the increased demand on the force 
is to add more people, and we've already done so, a fact that 
seems not to be fully recognized. Using the emergency powers 
granted by Congress, we have already increased the active duty 
force levels by something in the neighborhood of 30,000 to 
35,000 above the pre-emergency authorized end strength. We've 
done this over the past 2 years. If the war on terror demands 
it, we will not hesitate to increase force levels still more 
using the same emergency authority. But it should give us pause 
that even a temporary increase in our force levels was and 
remains necessary.
    Think about it. At this moment, we have a pool of about 2.6 
million men and women in the Active, Reserve, and Guard, 
including the Individual Ready Reserve, yet the deployment of 
135,000 out of a pool of 2.6 million has required that we 
temporarily increase the size of the force by some 35,000. That 
suggests that the real problem is not the size of the force, 
per se, but rather the way the force has been organized over 
the years and the mix of capabilities at our disposal. And it 
suggests that our challenge is considerably more complex than 
simply adding more troops.
    General Pete Schoomaker, the Army Chief of Staff, compares 
the problem to a barrel of water on which the spigot is placed 
near the top of the barrel, and you open the spigot and very 
little comes out because all you can access is the top of the 
barrel. The answer, at least from the taxpayer's standpoint, it 
seems to me, is not to get a bigger barrel or more barrels; 
it's to move the spigot down on the barrel so we can access all 
of, in this case, the 2.6 million men and women that we should 
have access to, and take full advantage of their skills and 
their talents and the fact that every one of them is a 
volunteer.
    We have too few Active and Guard and Reserve forces with 
the skill sets that are in high demand, and we have too many 
Guard and Reserve with skills that are in too little demand. 
Therefore, we urgently need to re-balance the skill sets within 
the Reserve components, and also between the Active and the 
Reserve components, so that we have enough of the right kinds 
of forces available to accomplish the missions. And we need to 
focus on transforming the forces for the future, making sure we 
continue to increase the capability of the force and, thus, our 
ability to do more with those forces. The services are working 
to do just that.
    In looking at our global force posture, some observers have 
focused on the number of things--troops, tanks, ships--that we 
might add or remove to one portion of the world or another. I 
would submit that that may very well not be the best measure 
for today. For example, the Army has put forward a plan that, 
by using its emergency powers, we will increase force levels by 
roughly 6 percent. But because of the way they will do it, 
General Schoomaker estimates that the Army will add, not 6 
percent, but up to 30 percent more combat power--that is to 
say, go from 33 brigades up to 43 brigades, with a possibility 
of going to 48 brigades. Instead of adding more divisions, the 
Army is focusing on creating a 21st century modular army made 
up of self-contained, more self-sustaining brigades that are 
available to work for any division commander. As a result, 75 
percent of the Army's brigade structure should always be ready 
in the event of a crisis. The Army's plan will increase the 
number of active brigades significantly. But because we will be 
using emergency powers, we will have the flexibility to reduce 
the number of active troops if the security situation permits.

                 SUPPORTING THE GLOBAL WAR ON TERRORISM

    Before highlighting the 2005 budget request, let me talk 
briefly about the funding for the global war on terror. As the 
year has unfolded, not surprisingly the security situation and 
the requirements in Iraq have changed. As a result, General 
Abizaid has requested additional combat capability for the 
period ahead, and the President has approved that request. We 
regret having to extend those individuals necessary to provide 
that capability. They had anticipated serving in Iraq, or in 
theater, for up to 365 days, and this extension will extend 
their time in Iraq by up to 90 days. We have recently 
identified, and are now preparing to deploy, other forces to 
replace them.
    Because our Nation is at war, we need to provide combat 
forces with the resources they need to complete their missions. 
While we do not yet know the exact cost of operations in 2005, 
we do need to plan for contingencies so that there's no 
disruption in the resources for the troops. The cost of 
supporting these operations increases the chance that certain 
accounts, such as Army operations and maintenance, 
particularly, will experience funding shortfalls beyond 
February or March 2005.
    As Senator Inouye mentioned, the President has, therefore, 
asked Congress for a $25 billion contingency reserve fund that 
can be used for operations in Afghanistan and Iraq until we can 
get a clearer picture of what will be necessary for a fiscal 
year 2005 supplemental. This fund would be used primarily for 
operation and maintenance requirements, such as personnel 
support costs, combat operations, supplies, force protection, 
and transportation.
    I want to emphasize that this $25 billion proposed reserve 
fund would not be all that would be needed in 2005. We are 
anticipating submitting a full 2005 supplemental appropriation 
request early next year, when we can better estimate the exact 
cost.

             HIGHLIGHTS OF FISCAL YEAR 2005 BUDGET REQUEST

    Returning now to the 2005 budget request, we have requested 
additional funds to strengthen intelligence, including 
increases in human intelligence, persistent surveillance, as 
well as technical analysis and information-sharing. We have 
also strong funding for transformation and other acquisition 
needs. The President's budget requests funds for pay and 
quality-of-life improvements for the troops. These funds 
properly focus on the men serving--men and women serving in the 
Armed Forces. In recent years, Congress has, from time to time, 
added entitlement-like changes beyond recommendations such as 
these that have been, for the most part, concentrated on those 
who have already served. We certainly applaud the desire to 
honor that service. But I should point out that the effects of 
these decisions, cumulatively, are important. They're 
increasing substantially the permanent cost of running the 
Department of Defense (DOD). By fiscal year 2009, they, 
cumulatively, will add over $20 billion a year to the Defense 
budget, with only modest effect on recruiting and retaining the 
current active force.
    I recognize there are legitimate questions and legitimate 
differences about the best way to compensate the forces. For 
this reason, I'm appointing an Advisory Committee on Military 
Compensation to conduct a comprehensive review of military 
compensation and benefits, with a view towards simplifying and 
improving them. Before making further changes, I hope that you 
will allow us to first develop a comprehensive and integrated 
set of compensation proposals, which we would submit to you 
next year.

                          SPECIAL LEGISLATION

    One of the most important ways in which Congress can 
support the global war on terror is to support three special 
authorities that we have requested. First is $500 million to 
train and equip military and security forces in Iraq, 
Afghanistan, and friendly nearby regional nations to enhance 
their capability to combat terrorism and to support U.S. 
operations in Iraq and Afghanistan. It is a great deal cheaper 
for the taxpayer if we are able to train and equip forces in 
Iraq and Afghanistan than it is to maintain U.S. forces in 
those countries.
    Second, the Commander's Emergency Response Program, $300 
million, to enable military leaders in Iraq and Afghanistan--
U.S. military leaders--to respond to urgent humanitarian relief 
and reconstruction needs. This has been a remarkably successful 
program, with quick turnaround projects averaging in the 
neighborhood of $5,000 to $10,000 each. Commanders not only 
help people in their operations area, but they also gain 
support in defeating terrorists and building themselves a 
better future.
    And third is increased drawdown authority--we're requesting 
$200 million under the Afghan Freedom Support Act--to provide 
additional help for the Afghan National Army. The President's 
2005 budget does not request specific authorization for these 
three authorities. Therefore, the Department would need to 
reprogram funding to use them. This underscores the importance 
of Congress increasing the Department's general transfer 
authority to $4 billion, which would represent slightly under 1 
percent of total DOD funding. Higher general transfer authority 
would give us a needed ability to shift funds from less 
pressing needs to fund must-pay bills and emerging requirements 
as the circumstances on the ground change over time. As we've 
seen in the last three years, such requirements have been a 
constant feature of our military programs.

                           PREPARED STATEMENT

    Mr. Chairman, the President has asked Congress $401.7 
billion for fiscal year 2005. That is a very, very large amount 
of money, the taxpayers' hard-earned money. Such investments 
will likely be required for some years, because our Nation is 
engaged in a struggle that could very likely go on for a number 
of years. Our objective is to ensure that the Armed Forces 
remain the best-trained, the best-equipped fighting force in 
the world, and that we treat volunteers who make up that force 
with the respect equal to their sacrifice and their dedication.
    Thank you, Mr. Chairman.
    Senator Stevens. Thank you very much, Mr. Secretary.
    [The statement follows:]
                Prepared Statement of Donald H. Rumsfeld
                              introduction
    Mr. Chairman, members of the Committee, I am pleased to be here to 
discuss the progress in the global war on terrorism, our transformation 
efforts, and to discuss the President's 2005 budget request for the 
Department of Defense.
    First, I want to commend the courageous men and women in uniform 
and the Department civilians who support them. They are remarkable--and 
what they have accomplished since our country was attacked 30 months 
ago is impressive. In 2\1/2\ years, they have helped to: Overthrow two 
terrorist regimes, rescued two nations, and liberated some 50 million 
people; capture or kill 46 of the 55 most wanted in Iraq--including 
Iraq's deposed dictator, Saddam Hussein; hunt down thousands of 
terrorists and regime remnants in Iraq and Afghanistan; capture or kill 
close to two-thirds of known senior al-Qaeda operatives; disrupt 
terrorist cells on most continents; and likely prevent a number of 
planned terrorist attacks.
    Our forces are steadfast and determined. We value their service and 
sacrifice, and the sacrifice of their families.
    With your support, we have the finest Armed Forces on the face of 
the Earth.
    We have a challenge: to support the troops and to make sure they 
have what they will need to defend the nation in the years ahead.
    We are working to do that in a number of ways: By giving them the 
tools they need to win the global war on terror; by transforming for 
the 21st century, so they will have the training and tools they need to 
prevail in the next wars our nation may have to fight--wars which could 
be notably different from today's challenges; and by working to ensure 
that we manage the force properly--so we can continue to attract and 
retain the best and brightest, and sustain the quality of the all-
volunteer force.
    Each represents a significant challenge in its own right. Yet we 
must accomplish all of these critical tasks at once.
    When this Administration took office three years ago, the President 
charged us with a mission--to challenge the status quo, and prepare the 
Department of Defense to meet the new threats our nation will face as 
the 21st century unfolds.
    We have done a good deal to meet that charge. Consider just some of 
what has been accomplished:
  --We have fashioned a new defense strategy and a new force sizing 
        construct.
  --We have moved from a ``threat-based'' to a ``capabilities-based'' 
        approach to defense planning, focusing not only on who might 
        threaten us, or where, or when--but more on how we might be 
        threatened, and what portfolio of capabilities we will need to 
        deter and defend against those new threats.
  --We have fashioned a new Unified Command Plan, with a new Northern 
        Command, that became fully operational last September, to 
        better defend the homeland; the Joint Forces Command focused on 
        transformation; and a new Strategic Command responsible for 
        early warning of, and defense against, missile attack and the 
        conduct of long-range attacks.
  --We have transformed the Special Operations Command, expanding its 
        capabilities and its missions, so that it cannot only support 
        missions directed by the regional combatant commanders, but 
        also plan and execute its own missions in the global war on 
        terror, supported by other combatant commands.
  --We have taken critical steps to attract and retain talent in our 
        Armed Forces--including targeted pay raises and quality of life 
        improvements for the troops and their families.
  --We have instituted realistic budgeting, so the Department now looks 
        to emergency supplementals for the unknown costs of fighting 
        wars, not to sustain readiness.
  --We have reorganized the Department to better focus our space 
        activities.
  --Congress has established a new Under Secretary of Defense for 
        Intelligence and an Assistant Secretary of Defense for Homeland 
        Defense.
  --We have completed the Nuclear Posture Review, and adopted a new 
        approach to deterrence that will enhance our security, while 
        permitting historic deep reductions in offensive nuclear 
        weapons.
  --We have pursued a new approach to developing military capabilities. 
        Instead of developing a picture of the perfect system, and then 
        building the system to meet that vision of perfection--however 
        long it takes or costs--the new approach is to start with the 
        basics, roll out early models faster, and then add capabilities 
        to the basic system as they become available.
  --We have reorganized and revitalized the missile defense research, 
        development and testing program--and are on track to begin 
        deployment of our nation's first rudimentary ballistic missile 
        defenses later this year.
  --We have established new strategic relationships, that would have 
        been unimaginable just a decade ago, with nations in Central 
        Asia, the Caucasus, and other critical areas of the world.
  --We transformed the way the Department prepares its war plans--
        reducing the time it takes to develop those plans, increasing 
        the frequency with which they are updated, and structuring our 
        plans to be flexible and adaptable to changes in the security 
        environment.
  --We adopted a new ``Lessons Learned'' approach during Operation 
        Iraqi Freedom, embedding a team with U.S. Central Command that 
        not only studied lessons for future military campaigns, but 
        provided real-time feedback that had an immediate impact on our 
        success in Iraq.
  --We made a number of key program decisions that are already having a 
        favorable impact on the capability of the force. Among others:
    --We are converting 4 Trident nuclear SSBN subs into conventional 
            SSGN subs capable of delivering special forces and cruise 
            missiles into denied areas.
    --The Army has deployed its first Stryker brigade to Iraq, is 
            completing conversion of the second, and is replacing the 
            Crusader with a new family of precision artillery that is 
            being developed for the Future Combat System.
    --We have revitalized the B-1 bomber fleet by reducing its size and 
            using the savings to modernize the remaining aircraft with 
            precision weapons and other critical upgrades.
  --We have also undertaken a comprehensive review of our global force 
        posture, so we can transform U.S. global capabilities from a 
        structure driven by where the wars of the 20th century ended, 
        to one that positions us to deal with the new threats of the 
        21st century security environment.
  --We have established a new Joint National Training Capability, that 
        will help us push joint operational concepts throughout the 
        Department, so our forces train and prepare for war the way 
        they will fight it--jointly.
  --We have worked with our Allies to bring NATO into the 21st 
        century--standing up a new NATO Response Force that can deploy 
        in days and weeks instead of months or years, and transforming 
        the NATO Command Structure--including the creation of a new 
        NATO command to drive Alliance transformation.
  --With the help of Congress last year, we are establishing a new 
        National Security Personnel System that should help us better 
        manage our 746,000 civilian employees, and we are using the new 
        authorities granted us last year to preserve military training 
        ranges while keeping our commitment to responsible stewardship 
        of the environment.
    The scope and scale of what has been accomplished is remarkable. It 
will have an impact on the capability of our Armed Forces for many 
years to come.
    We will need your continued support as we go into the critical year 
ahead.
    Our challenge is to build on these successes, and continue the 
transformation efforts that are now underway. In 2004, our objectives 
are to:
  --Successfully prosecute the global war on terror;
  --Further strengthen our combined and joint war fighting 
        capabilities;
  --Continue transforming the joint force, making it lighter, more 
        agile and more easily deployable, and instilling a culture that 
        rewards innovation and intelligent risk-taking;
  --Strengthen our intelligence capabilities, and refocus our 
        intelligence efforts to support the new defense strategy and 
        our contingency plans;
  --Reverse the existing WMD capabilities of unfriendly states and non-
        state actors, and stop the global spread of WMD;
  --Improve our management of the force;
  --Refocus our overseas presence, further strengthen key alliances, 
        and improve our security cooperation with nations that are 
        likely partners in future contingencies;
  --Continue improving and refining DOD's role in homeland security and 
        homeland defense; and
  --Further streamline DOD processes, continuing financial management 
        reform and shortening acquisition cycle times.
    So, we have an ambitious agenda. But none of these tasks can be put 
off.
    Our task is to prepare now for the tomorrow's challenges, even as 
we fight today's war on terror.
                           managing the force
    One effect of the global war on terror has been a significant 
increase in operational tempo, which has resulted in an increased 
demand on the force. Managing the demand on the force is one of our top 
priorities. But to do so, we must be clear about the problem--so we can 
work together to fashion the appropriate solutions.
    We hope the increased demand on the force we are experiencing today 
will prove to be a ``spike,'' driven by the deployment of nearly 
135,000 troops in Iraq. We hope and anticipate that that spike will be 
temporary. We do not expect to have 135,000 troops permanently deployed 
in any one campaign.
    But for the moment, the increased demand is real--and we are taking 
a number of immediate actions. Among other things:
  --We are working to increase international military participation in 
        Iraq.
  --Japan began deploying its Self-Defense Forces to Iraq in January--
        the first time Japanese forces have been deployed outside their 
        country since the end of World War II.
  --As more international forces deploy, we have accelerated the 
        training of Iraqi security forces--now some 200,000 strong--to 
        hasten the day when the Iraqis themselves will be able to take 
        responsibility for the security and stability of their country, 
        and all foreign forces can leave.
  --And as we increase Iraq's capability to defend itself, our forces 
        are dealing aggressively with the threat--hunting down those 
        who threaten Iraq's stability and transition to self-reliance.
    Another way to deal with the increased demand on the force is to 
add more people. We have already done so. Using the emergency powers 
granted by Congress, we have increased force levels by more than 35,000 
above the pre-emergency authorized end strength.
  --The Army is up roughly 11,400 above authorized end strength;
  --The Navy is up roughly 3,600;
  --The Marine Corps is up some 600, and
  --The Air Force is up about 19,800.
    If the war on terror demands it, we will not hesitate to increase 
force levels still more using the emergency authorities. And because of 
the emergency powers, we have the flexibility to increase or reduce 
force levels in the period ahead, as the security situation permits, 
and as the transformation efficiencies bear fruit.
    But it should give us pause that even a temporary increase in our 
force levels was, and remains, necessary. Think about it: At this 
moment we have a force of 2.6 million people, both active and reserve: 
1.4 million active forces; 869,000 in the Selected Reserve--that is the 
guard and reserve forces in units; and an additional 286,000 in the 
Individual Ready Reserves.
    Yet, despite these large numbers, the deployment of 135,000 troops 
in Iraq has required that we temporarily increase the size of the force 
by some 35,000.
    That should tell us a good deal about how our forces are organized.
    It suggests that the real problem is not the size of the force, per 
se, but rather the way the force has been organized over the years, and 
the mix of capabilities at our disposal. And it suggests that our 
challenge is considerably more complex than simply adding more troops.
    General Pete Schoomaker, the Army Chief of Staff, compares the 
problem to a barrel of water, on which the spigot is placed too high 
up. When you turn it on, it only draws water off the top, while the 
water at the bottom can't be accessed. The answer to that problem is 
not a bigger barrel; rather, the answer is to move the spigot down, so 
that more of the water is accessible and can be used.
    In other words, our challenge today is not simply one of increasing 
the size of the force. Rather, we must better manage the force we 
have--to make sure we have enough people in the right skill sets and so 
that we take full advantage of the skills and talents of everyone who 
steps forward and volunteers to serve.
    We have too few Guard and Reserve forces with certain skill sets 
that are high demand--and too many Guard and Reserve with skills that 
are in little demand.
    Therefore, we urgently need to rebalance the skill sets within the 
reserve component, and between the active and reserve components, so we 
have enough of the right kinds of forces available to accomplish our 
missions.
    And we need to do a far better job of managing the force. That 
requires that we focus not just on the number of troops available 
today--though that is of course important--but on transforming the 
forces for the future, making sure we continue to increase the 
capability of the force, and thus our ability to do more with fewer 
forces.
    And the Services are working to do just that.
                          mass vs. capability
    One thing we have learned in the global war on terror is that, in 
the 21st century, what is critical to success in military conflict is 
not necessarily mass as much as it is capability.
    In Operation Iraqi Freedom, Coalition forces defeated a larger 
adversary. They did it not by bringing more troops to the fight, which 
we were ready to do, but by overmatching the enemy with superior speed, 
power, precision and agility.
    To win the wars of the 21st century, the task is to make certain 
our forces are arranged in a way to ensure we can defeat any 
adversary--and conduct all of the operations necessary to achieve our 
strategic objectives.
    In looking at our global force posture review, some observers have 
focused on the number of troops, tanks, or ships that we might add or 
remove in a given part of the world. I would submit that that may well 
not be the best measure.
    If you have 10 of something--say ships, for the sake of argument--
and you reduce the number by two, you end up with fewer of them. But if 
you replace the remaining ships with ships that have double the 
capability of those removed, then obviously you have not reduced 
capability even though the numbers have been reduced.
    The same is true as we look at the overall size of the force. What 
is critical is the capability of the Armed Forces to project power 
quickly, precisely, and effectively anywhere in the world.
    For example, today the Navy is reducing force levels. Yet because 
of the way they are arranging themselves, they will have more combat 
power available than they did when they had more people.
    In Operation Iraqi Freedom, the Navy surged more than half the 
fleet to the Persian Gulf region for the fight. With the end of major 
combat operations, instead of keeping two or three carrier strike 
groups forward deployed, as has been traditional Navy practice, they 
quickly redeployed all their carrier strike groups to home base. By 
doing so, they are resetting their force in a way that will allow them 
to surge over 50 percent more combat power on short notice to deal with 
future contingencies.
    The result? Today, six aircraft carrier strike groups are available 
to respond immediately to any crisis that might confront us. That 
capability, coupled with the application of new technologies, gives the 
Navy growing combat power and greater flexibility to deal with global 
crises--all while the Navy is moderately reducing the size of its 
active force.
    The Army, by contrast, has put forward a plan that, by using 
emergency powers, will increase the size of its active force by roughly 
6 percent or up to 30,000 troops above authorized end strength. But 
because of the way they will do it, General Schoomaker estimates the 
Army will be adding not 6 percent, but up to 30 percent more combat 
power.
    This is possible because, instead of adding more divisions, the 
Army is moving away from the Napoleonic division structure designed in 
the 19th century, focusing on creating a 21st century ``Modular Army'' 
made up of self-contained, more self-sustaining brigades that are 
available to work for any division commander.
    So, for example, in the event of a crisis, the 4th Infantry 
Division commander could gather two of his own brigades, and combine 
them with available brigades from, say, the 1st Armored Division and 
the National Guard, and deploy them together. The result of this 
approach is jointness within the service, as well as between the 
services. And that jointness--combined with other measures--means that 
75 percent of the Army's brigade structure should always be ready in 
the event of a crisis.
    The Army's plan would increase the number of active brigades 
significantly over the next four years. But because we will be using 
emergency powers, we will have the flexibility to reduce the number of 
troops if the security situation permits--so the Army would not be 
faced with the substantial cost of supporting a larger force as the 
security situation and the efficiencies permit.
    Yet even if the security situation, and progress in transformation, 
were to permit the Army eventually to draw down the force, the new way 
they are arranging their forces will ensure the United States still has 
more ground combat power--more capability.
    So we have two different approaches:
  --In one case, the Navy is reducing force levels while increasing 
        capability;
  --In the other, the Army is increasing troop levels--but doing so in 
        a way that will significantly increase its capability;
  --And in both cases, the increase in capability of each service will 
        be significant.
    The point is: our focus needs to be on more than just numbers of 
troops. It should be on finding ways to better manage the forces we 
have, and by increasing the speed, agility, modularity, capability, and 
usability of those forces.
                            dod initiatives
    Today, using authorities and flexibility Congress has provided, DOD 
has several dozen initiatives underway to improve management of the 
force, and increase its capability.
    Among other things:
  --We are investing in new information age technologies, precision 
        weapons, unmanned air and sea vehicles, and other less 
        manpower-intensive platforms and technologies.
  --We are working to increase the jointness of our forces, creating 
        power that exceeds the sum of individual services.
  --We are using new flexibility under the fiscal year 2004 National 
        Defense Authorization Act to take civilian tasks currently done 
        by uniformed personnel and convert them into civilian jobs--
        freeing military personnel for military tasks.
    --This year, we will begin to move 10,000 military personnel out of 
            civilian tasks and return them to the operational force--
            effectively increasing force levels by an additional 10,000 
            service members in 2004. An additional 10,000 conversions 
            are planned for 2005.
  --We have begun consultations with allies and friends about ways to 
        transform our global force posture to further increase 
        capability.
    We are already working to rebalance the active and reserve 
components. We are taking skills that are now found almost exclusively 
in reserve components and moving them into the active force, so that we 
are not completely reliant on the Guard and Reserve for those needed 
skills. And in both the active and reserve components, we are moving 
forces out of low demand specialties, such as heavy artillery, and into 
high-demand capabilities such as military police, civil affairs, and 
special operations forces.
    Already, in 2003, the services have rebalanced some 10,000 
positions within and between the active and reserve components. For 
example, the Army is already transforming 18 Reserve field artillery 
batteries into military police. We intend to expand those efforts this 
year, with the Services rebalancing an additional 20,000 positions in 
2004, and 20,000 more in 2005--for a total of 50,000 rebalanced 
positions by the end of next year.
    We are also working to establish a new approach to military force 
management called ``Continuum of Service.'' The idea is to create a 
bridge between the Active and Reserve Components--allowing both active 
and reserve forces greater flexibility to move back and forth between 
full-time and part-time status, and facilitating different levels of 
participation along that continuum.
    Under this approach, a Reservist who normally trains 38 days a year 
could volunteer to move to full time service for a period of time--or 
some increased level of service between full-time and his normal 
reserve commitment, offering options for expanded service that do not 
require abandoning civilian life. Similarly, an active service member 
could request transfer into the Reserve component for a period of time, 
or some status in between, without jeopardizing his or her career and 
opportunity for promotion. And it would give military retirees with 
needed skills an opportunity to return to the service on a flexible 
basis--and create opportunities for others with specialized skills to 
serve, so we can take advantage of their experience when the country 
needs it.
    For example, Coalition forces in Iraq need skilled linguists--so 
under the Continuum of Service approach we have recruited 200 Iraqi-
Americans into a special Individual Ready Reserve program, and are 
deploying the first program graduates to Iraq.
    The ``Continuum of Service'' would allow the Armed Forces to better 
take advantage of the high-tech skills many Reservists have developed 
by virtue of their private sector experience--while at the same time 
creating opportunities for those in the Active force to acquire those 
kinds of skills and experiences. It encourages volunteerism, and 
improves our capability to manage the military workforce in a flexible 
manner, with options that currently exist only in the private sector.
    We have also been working to fix the mobilization process. We have 
worked hard over the past year to add more refined planning tools to 
the process, and make it more respectful of the troops, their families, 
and their employers. Among other things:
  --We have tried to provide earlier notifications, giving troops as 
        much notice as possible before they are mobilized, so they can 
        prepare and arrange their lives before being called up;
  --We have worked to ensure that when they are called up, it is for 
        something important and needed--and not to replace someone in 
        task that could wait until a contingency is over;
  --We have tried to limit tours, and give the troops some certainty 
        about the maximum length of their mobilization and when they 
        can expect to resume civilian life. We are doing better, but in 
        my opinion, the process is still not good enough.
    And we are working each day to make the process better, and more 
respectful of the brave men and women who make up the Guard and 
Reserve.
    As you can see, we have a number of initiatives underway that we 
are confident will improve the management and treatment of the Guard 
and Reserve forces.
    The men and women who make up the Guard and Reserve are all 
volunteers. They signed up because they love their country, and want to 
serve when the country needs them.
    A number of you on this Committee have served in the Guard and 
Reserve, as have I. Each of us knew when we signed up, it was not to 
serve one weekend a month and two weeks active duty. We signed up so 
that if war were visited upon our country, we would be ready to leave 
our work and family, and become part of the active duty force.
    Well, on September 11th, war was visited on our country. Our nation 
was attacked--more than 3,000 innocent men, women, and children were 
killed in an instant. And at this moment, in caves and underground 
bunkers half-a-world away, dangerous adversaries are planning new 
attacks--attacks they hope will be even more deadly than the one on 
September 11th.
    We are a nation at war. If we were not to call up the Guard and 
Reserves today, then why would we want to have them at all? Why were we 
asking them to sacrifice time with their families every month to train? 
And why are the taxpayers paying for postservice benefits, including 
healthcare and retirement pay, that add up to between $250,000 and 
$500,000 per reservist?
    Availability for service is the purpose of the Guard and Reserve. 
It is what they signed up for. And I know that a large number of them 
have stepped forward and volunteered to be mobilized for service in 
Iraq.
    Our challenge--our responsibility--is to do everything we can to 
see that they are treated respectfully, managed effectively, and that 
they have the tools they need to win today's war, and to deter future 
wars.
    We are working to do just that--to better manage the force, and to 
transform the force to make it more capable for the 21st century.
    Today, with authority granted by Congress, DOD has the flexibility 
to adjust troop levels as the security situation requires.
  --We have authority to increase or decrease, as need arises.
  --We are using that authority; and
  --We are working on a number of new initiatives that will allow us to 
        better manage and transform the force.
    However, we believe that a statutory end strength increase would 
take away the current flexibility to manage the force:
  --First, if the current increased demand turns out to be a spike and 
        if we are successful in the transformation and rebalancing 
        initiatives underway, the Department would face the substantial 
        cost of supporting a larger force when it may no longer be 
        needed--pay and benefits, such as lifetime healthcare, for each 
        service member added, not to mention the additional costs in 
        equipment, facilities, and force protection.
  --Second, if Congress permanently increases the statutory end 
        strength, instead of using the already available emergency 
        powers, we would have to take the cost out of our top line. 
        That would require cuts in other parts of the defense budget--
        crowding out investments in the very programs that will allow 
        us to manage the force and make it more capable.
    None of us has a crystal ball to see into the future. You have 
given us the authority to adjust the size of the force, and the 
flexibility to deal with unknowns. We have been using that authority 
over the past two plus years, even as we work to implement 
comprehensive measures to better manage the force. I urge Congress to 
not lock us into a force size and structure that may or may not be 
appropriate in the period ahead.
    Instead, help us to support the Armed Services with the 
transformational initiatives they now have underway; help us rebalance 
the active and reserve force, and give the troops more options to 
contribute along an expanded continuum of service; help us add 
capability, and transform the force for the future.
                              2005 budget
    The President's 2005 budget requests the funds to do that.
    Before highlighting the 2005 request, let me talk briefly about 
funding the Global War on Terrorism.
    As the year has unfolded, the security situation and requirements 
in Iraq have evolved. General Abizaid has requested additional combat 
capability for the period ahead, and I have approved his request.
    We regret having to extend those individuals necessary to provide 
that capability; they had anticipated being in country or in theater 
for up to 365 days and this will extend their time there. We are 
currently identifying and preparing to deploy other forces to replace 
them.
    We have been using emergency powers granted by Congress to increase 
the overall number of U.S. military forces above statutory end strength 
and will continue to use those authorities to adjust force levels as 
necessary.
    Because our nation is at war, we must provide our warfighters all 
the resources they need to conduct operations and complete their 
missions. While we do not yet know the exact costs for operations in 
2005, we need to plan for contingencies so there is no disruption in 
resources for our troops. The costs of supporting these operations 
increase the chance that certain accounts, such as Army operations and 
maintenance, will experience funding shortfalls beyond February or 
March of 2005.
    The President has therefore asked Congress for a $25 billion 
contingency reserve fund that can be used for operations in Afghanistan 
and Iraq until we can get a clearer picture on what will be necessary 
for the fiscal year 2005 supplemental. This reserve fund would be used 
primarily for operation and maintenance requirements such as personnel 
support costs, combat operations, supplies, force protection, and 
transportation. Specifics include:
  --Fuel for helicopters, tanks, and other vehicles.
  --Transportation costs for movement of personnel and equipment in and 
        out of the theater of operations.
  --Equipment maintenance (such as lubricants, repair parts) and 
        logistics supplies.
  --Clothing and individual equipment.
  --Operation and maintenance of troop billeting, base camps, dining 
        facilities, airfields, and other logistics activities.
  --Communications, such as leased telecommunications lines.
    This $25 billion reserve fund will not be all that is needed for 
2005. We are anticipating submitting a full fiscal year 2005 
supplemental appropriation request early next year when we can better 
estimate exact costs.
    Returning now to the 2005 request, the President's first defense 
budgets were designed while our defense strategy review was still 
taking place. It was last year's budget--the 2004 request--that was the 
first to fully reflect the new defense strategies and policies.
    One of the key budget reforms we implemented last year is the 
establishment of a 2-year budgeting process in the Department of 
Defense--so that the hundreds of people who invest time and energy to 
rebuild major programs every year can be freed up and not be required 
to do so on an annual basis, and can focus more effectively on 
implementation.
    The 2005 budget before you is, in a real sense, a request for the 
second installment of funding for the priorities set out in the 
President's 2004 request.
    We did not rebuild every program. We made changes to just 5 percent 
of the Department's planned 2005 budget, and then only on high-interest 
and must-fix issues--and then only when the costs incurred to mitigate 
risks could be matched by savings elsewhere in the budget.
    The President's 2005 budget requests continued investments to 
support the six transformational goals we identified in our 2001 
defense review:
  --First, we must be able to defend the U.S. homeland and bases of 
        operation overseas;
  --Second, we must be able to project and sustain forces in distant 
        theaters;
  --Third, we must be able to deny enemies sanctuary;
  --Fourth, we must improve our space capabilities and maintain 
        unhindered access to space;
  --Fifth, we must harness our advantages in information technology to 
        link up different kinds of U.S. forces, so they can fight 
        jointly; and
  --Sixth, we must be able to protect U.S. information networks from 
        attack--and to disable the information networks of our 
        adversaries.
    In all, in 2005, we have requested $29 billion for investments in 
transforming military capabilities that will support each of these 
critical objectives.
    A critical priority in the President's 2005 budget is the $10.3 
billion for missile defense, including: $9.2 billion for the Missile 
Defense Agency--an increase of $1.5 billion above the President's 2004 
request; and $1 billion for Patriot Advanced Capability-3, the Medium 
Extended Air Defense System, and other short and medium range 
capabilities.
    The budget also includes $239 million in funding for accelerated 
development of Cruise Missile Defense, with the goal of fielding an 
initial capability in 2008.
    The 2005 budget request includes critical funds for Army 
Transformation, including: $3.2 billion to support continued 
development of the Future Combat Systems--an increase of $1.5 billion 
over the 2004 budget; and $1.0 billion to fund continued deployment of 
the new Stryker Brigade Combat Teams, such as the one now serving in 
Iraq.
    We have also requested additional funds to strengthen intelligence, 
including increases for DOD human intelligence (HUMINT) capabilities, 
persistent surveillance, as well as technical analysis and information 
sharing to help us better ``connect the dots.''
    To enhance our communications and intelligence activities, we are 
requesting:
  --$408 million to continue development of the Space Based Radar (SBR) 
        which will bring potent and transformational capabilities to 
        joint warfighting--the ability to monitor both fixed and mobile 
        targets, deep behind enemy lines and over denied areas, in any 
        kind of weather. SBR is the only system that can provide such 
        capability.
  --$775 million for the Transformational Communications Satellite 
        (TSAT) which will provide the joint warfighter with 
        unprecedented communication capability. To give you an idea of 
        the speed and situational awareness the TSAT will provide, 
        consider: transmitting a Global Hawk image over a current 
        Milstar II, as we do today, takes over 12 minutes--with TSAT it 
        will take less than a second.
  --$600 million for the Joint Tactical Radio System, to provide 
        wireless internet capability to enable information exchange 
        among joint warfighters.
    The budget also requests $700 million for Joint Unmanned Combat Air 
Systems (J-UCAS)--a program that consolidates all the various unmanned 
combat air vehicle programs, and focuses on developing a common 
operating system.
    The budget requests $14.1 billion for major tactical aircraft 
programs, including: $4.6 billion for the restructured Joint Strike 
Fighter (JSF) program; $4.7 billion to continue acquisition of the F/A-
22; $3.1 billion to continue procurement of the F/A-18E/F; and $1.7 
billion to support development and procurement of 11 V-22 aircraft.
    The budget requests funds for Navy fleet transformation, including 
$1 billion to continue funding the new CVN-21 aircraft carrier, and 
$1.6 billion to continue development of a family of 21st century 
surface combatants including the DDX destroyer, the littoral combat 
ship, and the CG(X) cruiser.
    We have requested $11.1 billion to support procurement of 9 ships 
in 2005. Fiscal 2005 begins a period of transition and transformation 
for shipbuilding as the last DDG 51 destroyers are built, and the first 
DD(X) destroyer and Littoral Combat Ship are procured. This increased 
commitment is further shown in the average shipbuilding rate for fiscal 
2005-2009 of 9.6 ships per year. This will sustain the current force 
level and significantly add to Navy capabilities.
    In all, the President has requested $75 billion for procurement in 
2005 and $69 billion for Research, Development, Testing and 
Evaluation--funds that are vital to our transformation efforts.
    Another area critical to transformation is joint training. Last 
year, Congress approved funding to establish a new Joint National 
Training Capability (JNTC), an important initiative that will 
fundamentally change the way our Armed Forces train for 21st century 
combat.
    We saw the power of joint war fighting in Operation Iraqi Freedom. 
Our challenge is to bring that kind of joint war fighting experience to 
the rest of the forces, through both live and virtual joint training 
and exercises. Thanks to the funds authorized in the 2004 budget, the 
JNTC's initial operating capability is scheduled to come online in 
October of this year. We have requested $191 million to continue and 
expand the JNTC in 2005.
    With your help, we have put a stop to the past practice of raiding 
investment accounts to pay for the immediate operation and maintenance 
needs. The 2005 request continues that practice. We have requested full 
funding for the military's readiness accounts, providing $140.6 billion 
for Operation and Maintenance (O&M) including $43 billion for training 
and operations. These funds are critical to transformation--because 
they allow us to pay today's urgent bills without robbing the future to 
do so.
    We have also requested funds to support pay and quality of life 
improvements for the troops--including a 3.5 percent military base pay 
raise. We have requested funds in the 2005 budget that will also help 
the Department keep its commitment to eliminate 90 percent of 
inadequate military family housing units by 2007, with complete 
elimination projected for 2009. And we have requested funds to complete 
the elimination of out-of-pocket housing costs for military personnel 
living in private housing. Before 2001, the average service member had 
to absorb over 18 percent of these costs. By the end of fiscal year 
2005, it will be zero. These investments are important to the troops, 
and also to their families, who also serve--and deserve to live in 
decent and affordable housing.
    These improvements properly focus on the serving men and women of 
the armed forces. The recommendations are based on what is believed 
necessary to attract, retain, and motivate the fine young Americans who 
make up our All-Volunteer Force.
    But in recent years, Congress has often added entitlement-like 
changes beyond recommendations such as these, concentrated on those who 
have already served. I applaud the desire to honor this service, but at 
the same time I must point out the fiscal effects of these decisions. 
They are increasing substantially the permanent costs of running the 
Department of Defense. By fiscal year 2009, they cumulatively add over 
$20 billion a year to the defense budget, with only modest effect on 
recruiting and retaining the present generation of personnel. Put 
another way, against a fixed topline for Defense, these decisions will 
affect the Department's future ability to compensate properly those 
then serving, and to procure the new systems and capabilities that are 
so essential to our continued effectiveness.
    I recognize there are legitimate questions, and legitimate 
differences of opinion, about the best way to compensate our forces. 
For this reason, I am appointing an Advisory Committee on Military 
Compensation, to conduct a comprehensive review of military 
compensation and benefits, with a view toward simplifying and improving 
them. Today, we have too many pay categories that serve overlapping 
purposes, or do not provide incentives where they are most needed. 
Before making further major changes, I urge you to allow the Department 
to first develop a comprehensive and integrated set of compensation 
proposals, which we will submit to you next year.
    We are also making progress in getting our facilities replacement 
and recapitalization rate in proper alignment. When we arrived in 2001, 
the Department was replacing its buildings at a totally unacceptable 
average of once every 192 years. Today, we have moved the rate down for 
the third straight year, though it is still too high--to an average of 
107 years. The 2005 budget requests $4.3 billion for facilities 
recapitalization, keeping us on track toward reaching our target rate 
of 67 years by 2008. And we have funded 95 percent of facilities 
maintenance requirements--up from 93 percent in fiscal year 2004.
    The budget also supports our continuing efforts to transform the 
way DOD does business. With the passage of the National Defense 
Authorization Act last year, we now have the needed authority to 
establish a new National Security Personnel System, so we can better 
manage DOD's civilian personnel. Initial implementation will begin next 
year.
    Yet, while progress has been made, the Defense Department still 
remains bogged down by bureaucratic processes of the industrial age, 
not the information age. We are working to change that. To help us do 
so, we have requested funds for a Business Management Modernization 
Program that will help us overhaul DOD management processes and the 
information technology systems that support them.
    One of the most important ways in which Congress can support the 
global war on terrorism is to support three special authorities we have 
requested:
  --(1) $500 million to train and equip military and security forces in 
        Iraq, Afghanistan, and friendly nearby regional nations to 
        enhance their capability to combat terrorism and support U.S. 
        operations in Iraq and Afghanistan. It is critical that this 
        authority include security forces because the terrorism threat 
        in Iraq is inside its borders. Security forces--not the New 
        Iraqi Army--play the primary role in confronting this threat.
  --(2) The Commanders Emergency Response Program ($300 million) to 
        enable military leaders in Iraq and Afghanistan to respond to 
        urgent humanitarian relief and reconstruction needs. This has 
        been a remarkably successful program. With quick turnaround 
        projects averaging about $7,000 each, commanders not only help 
        people in their operations area, but also gain their support in 
        defeating terrorists and building themselves a better future.
  --(3) Increased drawdown authority ($200 million) under the 
        Afghanistan Freedom Support Act, to provide additional help for 
        the Afghan National Army. During this pivotal year, this 
        authority is critical for advancing democracy and stability in 
        Afghanistan.
    The President's fiscal year 2005 budget does not request specific 
appropriations for these three authorities, and therefore the 
Department would need to reprogram funding to use them. This 
underscores the importance of Congress increasing the Department's 
General Transfer Authority (GTA) to $4 billion--which would still 
represent just one percent of total DOD funding. Higher General 
Transfer Authority also would give us a greater ability to shift funds 
from less pressing needs to fund must-pay bills and emerging 
requirements. As we have seen in the past three years, such 
requirements have become a constant feature of our military programs.
    In an age when terrorists move information at the speed of an 
email, money at the speed of a wire transfer, and people at the speed 
of a commercial jetliner, it is critical that we have the ability to 
shift funds between priorities.
    We also need your continuing support for two initiatives that are 
critical to 21st century transformation: the Global Posture Review, and 
the Base Realignment and Closure (BRAC) Commission round scheduled for 
2005.
    We need BRAC to rationalize our infrastructure with the new defense 
strategy, and to eliminate unneeded bases and facilities that are 
costing the taxpayers billions of dollars to support.
    And we need the global posture review to reposition our forces 
around the world--so they are stationed not simply where the wars of 
the 20th century ended, but are arranged in a way that will allow them 
to deter, and as necessary, defeat potential adversaries that might 
threaten our security in the 21st century.
    These two efforts are inextricably linked.
    It is critical that we move forward with both BRAC and the Global 
Posture Review--so we can rationalize our foreign and domestic force 
posture. We appreciate Congress' decision to authorize a BRAC round in 
2005--and will continue to consult with you as we proceed with the 
global posture review.
                               conclusion
    Mr. Chairman, the President has asked Congress for a total of 
$401.7 billion for fiscal year 2005--an increase over last year's 
budget. Let there be no doubt: it is a large amount of the taxpayer's 
hard-earned money. Such investments will likely be required for some 
years--because our nation is engaged in a struggle that could well go 
on for a number of years to come.
    Our objective is to ensure that our Armed Forces remain the best 
trained, best equipped fighting force in the world--and that we treat 
the volunteers who make up the force with respect commensurate with 
their service, their sacrifice, and their dedication.
    Their task is not easy: they must fight and win a global war on 
terror that is different from any our nation as fought before. And they 
must do it, while at the same time preparing to fight the wars of 2010 
and beyond--wars which may be as different from today's conflict, as 
the global war on terror is from the conflicts of the 20th century.
    So much is at stake.
    Opportunity and prosperity are not possible without the security 
and stability that our Armed Forces provide.
    The United States can afford whatever is necessary to provide for 
the security of our people and stability in the world. We can continue 
to live as free people because the industriousness and ingenuity of the 
American people have provided the resources to build the most powerful 
and capable Armed Forces in human history--and because we have been 
blessed with the finest young men and women in uniform--volunteers 
all--that the world has known.
    They are courageous, they are selfless, and they are determined. 
They stand between this nation and our adversaries, those who wish to 
visit still further violence on our cities, our homes and our places of 
work. The men and women of the Armed Forces are hunting the enemies of 
freedom down--capturing or killing them in the far corners of the 
world, so they will not kill still more innocent men, women, and 
children here at home.
    We are grateful to them and proud of them. We stand ready to work 
with you to ensure they are treated with the dignity they deserve, and 
the respect they earn every day.
    Thank you, Mr. Chairman. I'd be pleased to respond to questions.

                 STATEMENT OF GENERAL RICHARD B. MYERS

    Senator Stevens. Do you have a statement, General Myers?
    General Myers. Mr. Chairman, I do have a short statement.
    Senator Stevens. Would you pull that mic a little closer to 
you, please?
    General Myers. Mr. Chairman, I do have a short statement.
    Thank you, Mr. Chairman, Senator Inouye, Senator Byrd, 
members of the committee. Once again I thank you for your 
unwavering support of our Armed Forces, and, more specifically, 
our men and women in uniform as they fight this all-important 
war on terrorism.
    Recently, the world's attention has been focused, 
understandably, on the horrendous incidents of detainee abuse 
at Abu Ghraib prison. Let me, once more, restate that these 
acts are absolutely unacceptable, and I assure you that 
commanders at every level are taking prompt and decisive action 
to ensure that the accused receive due process and that the 
guilty are punished.
    One of the United States (U.S.) military's greatest 
strengths comes from the fact that we hold our servicemen and 
women accountable for their actions. I am confident in our 
military justice system, and I'm confident that our commanders 
are doing the right things to prevent further compromise of 
military standards and American values.
    I can also assure you today we are as firm as ever in our 
resolve to help create a free, prosperous, and democratic Iraq. 
We are dealing deliberately and aggressively with the anti-
coalition forces in Fallujah, as well as Sadr's band of thugs, 
to ensure they do not derail the progress that we're making.
    The truth is, the majority of the Iraqi people want 
democracy in Iraq to succeed, and they're positive about what 
the future holds, thanks, in large part, to the efforts of our 
servicemen and women. And I know our servicemen and women are 
all suffering unfairly with a collective sense of shame over 
what happened at Abu Ghraib.
    I would like to quote a letter from a soldier in the 1st 
Armor Division. He said that every time he eats in the dining 
hall, he sees the prison abuse story on TV, and he says, quote, 
``Everyone is so angry. It's as if those soldiers hurt us more 
than the enemies here in Iraq have. My battalion has caught car 
bombers, weapons smugglers, and those laying mines to kill us. 
And, every time, we treated them with respect.''
    This is the type of soldier who accurately, in my view, 
represents the values of our military and our Nation. The 
credibility of our troops will be restored day by day as they 
interact with the Iraqi people, and I'm confident that our 
servicemen and women will continue to prove worthy of the trust 
and respect of our Nation and of the world. They are so 
tremendously dedicated. They understand their mission very 
well. And they understand what a huge difference they are 
making. They've seen the enemy unload weapons from ambulances, 
use mosques as operating bases, deliberately put children in 
the line of fire as human shields, and attack innocent 
civilians indiscriminately by firing mortars and grenades at 
marketplaces, yet our servicemen and women are going to 
extraordinary lengths to conduct the most humane operation they 
possibly can. That means at times that we accept greater risk 
in order to avoid civilian casualties.
    I see the same kind of professionalism and compassion in 
Afghanistan, as well. There are now 13 provincial 
reconstruction teams working on security and civil affairs for 
the Afghan people.
    We are making great progress in the war on terrorism with 
the help of more than 90 other nations. Despite Spain and three 
other countries' decisions to depart Iraq, the coalition 
remains very strong.
    Recent events in Fallujah, Najaf, and other parts of 
central Iraq have resulted in the decision to extend some 
20,000 U.S. troops beyond their expected rotation date. We are 
now working to backfill these troops. It's not 100 percent 
clear what the security environment will be after 30 June and 
beyond, but we will continue to support General Abizaid with 
the number of forces that he needs.
    What is clear is that we have not finished our task of 
reviewing all our options for making better use of our 
authorized forces. As Secretary Rumsfeld said, we're looking at 
the stress on our forces from every possible angle. A cold war 
approach to simply counting divisions or ships or fighter wings 
will not help us refine our capabilities to meet the national 
security environment of the future. All solutions need to be 
flexible and, most importantly, transformational.
    As the Secretary said, General Schoomaker's review of how 
the Army structures their combat units, and Admiral Clark's new 
approach to carrier strike group deployments, are two very 
visible examples of this transformation.
    We don't have time today to list all the significant 
transformational issues we're working on, but these initiatives 
span from Guard and Reserve mobilization, to our planning 
processes, to deployable command and control systems. And with 
your support, we will continue to transform our warfighting 
capability.
    Despite the significant stresses on our Armed Forces today, 
readiness remains good. We are keeping a close eye on 
recruiting and retention, and we can say that so far it's going 
very, very well. We have the trained personnel and resources to 
accomplish the military objectives outlined in the Department's 
strategic planning guidance.
    I support the President's request for a $25 billion 
contingency reserve fund to support ongoing operations in the 
war on terrorism. This money is vital to ensuring our troops 
continue to be trained and resourced for the missions they are 
assigned, and to avoid any decrease in readiness or capability 
while they're deployed.

                           PREPARED STATEMENT

    We still have a long way to go in this war, beyond the 
transfer of sovereignty in Iraq and elections in Afghanistan, 
but our troops are making a huge difference every day, and they 
know it. We are truly blessed with amazing men and women to do 
this very, very important work. I thank all of you for your 
continued strong support of our men and women in the Armed 
Forces.
    [The statement follows:]
             Prepared Statement of General Richard B. Myers
    I am privileged to report to Congress on the state of the United 
States Armed Forces.
    As they were a year ago, our Nation's Soldiers, Sailors, Airmen, 
Marines and Coastguardsmen are currently operating within our borders 
and around the globe with dedication, courage and professionalism, 
alongside our Coalition partners, to accomplish a variety of very 
demanding missions. Global terrorism remains a serious threat, and the 
stakes in the Global War on Terrorism remain high.
    Over the past year, I have told you that with the patience, will, 
and commitment of our Nation we would win the War on Terrorism. The 
support we have received from the Congress has been superb. From 
Congressional visits to deployed personnel, to support for 
transformational warfighting programs, to funding for security and 
stability operations, to improved pay and benefits for our troops, your 
support for our servicemen and women has enabled us to make significant 
progress in the War on Terrorism.
     In spite of the difficulties in Fallujah and the radical Sadr 
militants, we are making progress in Iraq. Saddam Hussein no longer 
terrorizes the Iraqi people or his neighbors; he is in custody awaiting 
justice. The Iraqi people are on their way to establishing a prosperous 
and peaceful future. It won't come easy. Freedom never does, and events 
over the last month have been challenging. The list of important 
accomplishments in every sector--education, medical care, business, 
agriculture, energy, and government, to name a few--is long and 
growing. We have made substantial progress in Afghanistan as well. The 
Constitutional Loya Jirga is an encouraging example of democracy in 
action. In both countries, as in the Horn of Africa and other areas, 
United States and Coalition personnel work together to capture or kill 
terrorists, while at the same time improving infrastructure and 
economic conditions so that peace and freedom can take hold.
    Despite the operational demands on our forces, we remain ready to 
support the President's National Security Strategy and Secretary of 
Defense's draft National Defense Strategy to assure our allies, while 
we dissuade, deter and defeat any adversary. The draft National 
Military Strategy (NMS), developed in consultation with the Service 
Chiefs and Combatant Commanders describes the ways we will conduct 
military operations to protect the United States against external 
attack and aggression, and how we will prevent conflict and surprise 
attack and prevail against adversaries. The strategy requires that we 
possess the forces to defend the U.S. homeland and deter forward in 
four critical regions. If required, we will swiftly defeat the efforts 
of two adversaries in an overlapping timeframe, while having the 
ability to ``win decisively'' in one theater. In addition, because we 
live in a world marked by uncertainty, our forces must also be prepared 
to conduct a limited number of lesser contingencies while maintaining 
sufficient force generation capabilities as a hedge against future 
challenges.
    We appreciate your continued support giving our dedicated personnel 
the warfighting systems and quality of life they deserve. Our challenge 
for the coming year and beyond is to stay the course in the War on 
Terrorism as we continue to transform our Armed Forces to conduct 
future joint operations. We cannot afford to let our recent successes 
cause us to lose focus or lull us into satisfaction with our current 
capabilities. The war is not over, and there is still dangerous work to 
do. To meet this challenge, we continue to focus on three priorities: 
winning the War on Terrorism, enhancing joint warfighting, and 
transforming for the future.
                            war on terrorism
    Thirty-two months after the terrorist attacks on September 11, 
defeating global terrorism remains our military's number one priority. 
We will continue to fight this war on many different fronts, because 
terrorism comes in many different forms. The stakes remain high, but 
our resolve remains firm.
    The more experience we gain in this fight, the more we recognize 
that success is dependent on a well-integrated military, interagency 
and coalition effort. This means the coordinated commitment of the 
military, diplomatic, informational, economic, financial, law 
enforcement, and intelligence resources of our Nation--all instruments 
of our national power. On the international level, Coalition military 
and interagency cooperation has been remarkable. In Iraq, Coalition 
forces from over 30 nations are working hard to bring peace and 
stability to a country brutalized for 3 decades. In Afghanistan, 41 
nations are working to secure a democratic government and defeat al 
Qaida and remnants of the Taliban regime, with NATO assuming an 
increasing role in stability and reconstruction efforts.
    We have made significant strides coordinating U.S. Government 
efforts within the interagency and with our Coalition partners. One of 
the ways we have been successful at coordinating interagency efforts is 
through venues such as the Strategy Working Group, the Senior 
Leadership Review Board and the Regional Combating Terrorism 
Strategies. Continued success in this war will depend largely on our 
ability to organize for a sustained effort and coordinate seamlessly 
among all government agencies. An even more demanding task is 
coordinating the efforts of our Coalition partners, now numbering more 
than 90 nations. Coalition contributions have been significant, ranging 
from combat forces, to intelligence, logistics and medical units. They 
have complemented our existing capabilities and eased the requirement 
for current U.S. forces in Iraq and Afghanistan. Coordinating the 
efforts of our Coalition partners is critical to combating the 
remaining terrorist threat.
    The al Qaida network, though damaged, remains resilient, adaptable 
and capable of planning and executing more terrorist acts, such as the 
attacks in Saudi Arabia, Turkey and most recently in Spain. Al Qaida 
continues to receive support and recruit operatives from sympathizers 
around the world. Al Qaida will increasingly focus on Iraq as today's 
jihad. As the network consolidates its efforts in Iraq, the threats of 
attacks will grow. In fact, four al Qaida audiotapes released in 2003 
prominently mentioned Iraq, demonstrating Usama Bin Ladin's emphasis on 
staging attacks there. Ansar al-Islam also remains a formidable threat 
in Iraq, despite damage inflicted by Coalition forces during OIF. Its 
key leadership remains at large and continues to plot attacks against 
US and Coalition interests.
    The ceasefire with anti-Coalition militants in and around Fallujah 
is fragile. The Coalition is responding to attacks by militants who 
frequently fire upon Coalition forces and hide among the populace, and 
who fire from mosques and hospitals. The combatants in this area 
apparently are a combination of former regime elements, Islamic 
extremists, terrorists, foreigners, and other disenchanted Sunnis who 
oppose Coalition efforts to reconstruct Iraq. Delegations of Iraqi 
leaders continue efforts to mediate surrender and the turn-in of 
weapons.
    In the South, Muqtada al-Sadr's armed backers largely have been 
forced by Coalition military pressure to coalesce within the city of An 
Najaf. They continue to engage Coalition forces with mortars and small 
arms, likely from inside or nearby shrines sacred to Shia. Al Sadr 
continues to intimidate the citizens of An Najaf, the majority of whom 
want to see this situation resolved and the shrines protected. Sadr has 
convinced some impressionable Shia youth to fight to legitimize his 
influence in Iraq. However, senior Shia intervention may push Sadr to 
concede to a political settlement.
    Other terrorist groups also pose significant threats to U.S. 
interests, and we believe that some of these terrorist groups have 
developed contingency plans for terrorist attacks against U.S. 
interests abroad. The Revolutionary Armed Forces of Colombia continue 
to conduct terrorist attacks throughout Colombia. They currently hold 
three U.S. hostages captured in early 2003, and directly threaten 
efforts to bring peace, stability and an end to the drug trade in 
Colombia. Jemaah Islamiyah in Southeast Asia is another terrorist group 
that shares al Qaida's goals and methods, adding to the transnational 
terrorist threat. The intelligence that led to recent heightened alert 
levels during the holidays in December show that the threat of a major 
terrorist attack against the U.S. homeland remains very real.
    Disturbingly, terrorist groups continue to show interest in 
developing and using Chemical, Biological, Radiological and Nuclear 
(CBRN) weapons in terrorist attacks. Terrorists have attempted to 
acquire military-grade materials, and interest in CBRN weapons and 
materials by several groups is well documented.
    The Coalition's efforts in the War on Terrorism (WOT) represent the 
significant first step in curtailing WMD proliferation. Our strategy 
for combating WMD calls for the Combatant Commanders to detect, deter, 
deny, counter, and if necessary, interdict WMD and its means of 
delivery. Combating WMD relies on a continuum of interrelated 
activities, employing both defensive and offensive measures, and 
confronting the threat through mutually reinforcing approaches of 
nonproliferation, counterproliferation, and consequence management. 
This multi-tiered and integrated effort will greatly reduce the threat 
of WMD falling into the hands of terrorists. Following the liberation 
of Iraq and the collapse of Saddam Hussein's brutal regime, the 
countries of Iran, and most recently, Libya have been more forthcoming 
about their illegal WMD programs to the international community. This 
should also help to apply international pressure on North Korea and its 
nuclear declarations.
    To counter the potential threat of the proliferation of WMD, the 
President's Proliferation Security Initiative (PSI) is the most far-
reaching attempt to expand our efforts to impede and interdict the flow 
of weapons of mass destruction, their means of delivery, and related 
materials, between state and non-state actors of proliferation concern. 
It is part of a larger effort to counter proliferation of weapons of 
mass destruction and missile-related technology by interdicting 
shipments of these materials by air, land, and sea. To date, there are 
14 partner nations actively participating in PSI operations and 
exercises. Our goal is to expand PSI participation in order to be 
postured to respond quickly to assist in the interdiction of the 
proliferation trade. United Nations Security Council Resolution 1540, 
adopted by a vote of 15-0 on April 28, 2004, underscores the 
international importance of this issue and enhances the legal basis for 
PSI and related efforts to combat proliferation of WMD, related 
materials, and their delivery systems.
                         oif and oef operations
    U.S. Central Command (CENTCOM) is still center-stage in the WOT, 
and doing a magnificent job under difficult circumstances. The Iraqi 
Governing Council unanimously approved its Transitional Administrative 
Law (TAL) on March 8, providing the framework for elections and 
transition to a permanent constitution and an elected, democratic 
government in 2005. On June 30, a fully sovereign Iraqi interim 
government will take office in Iraq. Iraqis recognized the need for a 
security partnership with the Multinational Force (MNF), under unified 
MNF command, in the TAL. The TAL provides that ``consistent with Iraq's 
status as a sovereign state--the Iraqi Armed Forces will be a principle 
partner in the MNF operating in Iraq under unified command'' and that 
this arrangement will last ``until the ratification of a permanent 
constitution and the election of a new government.'' Furthermore, 
United Nations Security Council Resolution 1511 acknowledges the 
responsibility and authority of the MNF for the security of Iraq.
    Since the end of major combat operations, we have made steady 
progress towards meeting our objectives. Essential services are being 
restored, and a political transformation is already underway in Iraq. 
We continue to train and equip Iraqi security forces. It is important 
for the Iraqis to see Iraqi faces on their security forces, with the 
Coalition forces remaining in the background. Although a few countries 
are withdrawing their troops from Iraq, our Coalition remains strong, 
with over 30 other countries directly supporting stability and security 
in Iraq.
    Today, Coalition forces continue to rout out remnants of the former 
regime attempting a desperate last stand. Using intelligence provided 
by Iraqi citizens, we are conducting thousands of raids and patrols per 
week alongside Iraqi security forces. We have seized massive amounts of 
ammunition, and captured or killed 46 of the 55 most wanted former 
Iraqi leaders, as well as thousands of other Saddam loyalists, 
terrorists and criminals. We have captured or killed all of the top 5, 
most notably Saddam Hussein and his sons, Uday and Qusay.
    The Iraq Survey Group is continuing its examination of Saddam's WMD 
programs by interviewing Iraqi citizens, examining physical evidence, 
and analyzing records of the old regime. We know that this process will 
take time and patience, and must be able to stand up to world scrutiny.
    Our Soldiers, Sailors, Airmen, Marines and Coastguardsmen in Iraq 
are now supporting over 203,000 Iraqi security forces. The Iraqi police 
continue to expand their training pipelines in Jordan and Iraq, 
producing hundreds of trained officers each month. We are well on track 
to meet our goal of 31,000 trained Iraqi police by August 2004, and a 
fully trained force of 75,000 by June 2005. The Facilities Protective 
Service has fewer training requirements and has already reached its 
goal of 50,000 members. They have taken over security from Coalition 
Forces at most fixed site locations, such as power lines and parts of 
the oil infrastructure--key targets for sabotage. Our goal for the 
Border Enforcement Force is to have 20,400 members by May 2005. They 
will relieve Coalition forces guarding checkpoints along Iraq's border. 
U.S. military forces continue to vet former members of the Iraqi 
military and other security services for employment in the new Iraqi 
security services, but Iraqis are formally in charge of de-
Ba'athification efforts and have established guidelines for that 
process. The Emergency Supplemental Appropriations Act for Defense and 
for the Reconstruction of Iraq and Afghanistan 2004 that Congress 
approved last year was instrumental in enabling our planned accelerated 
development of these security forces, and we are grateful for that 
support.
    The New Iraqi Army continues to train additional battalions. Iraq's 
Army needs more than just military skills. They must have a deep-rooted 
sense of professionalism, focused on protecting all Iraqis while 
operating firmly under civilian control. The new army will reflect 
Iraq's religious, regional, and ethnic mix, will be apolitical, and 
indoctrinated in their role of defense and security. We will spend the 
time and resources necessary to ensure the Iraqi Army is a well-trained 
and highly capable force.
    The linchpin of our security efforts during this transition period 
is the Iraqi Civil Defense Corps (ICDC), currently planned to be a 
fully trained force of 40,000 by September 2004. The ICDC is a light 
military force, created to deal with the current stability issues in 
Iraq. As we have done from the beginning, we continue to reassess the 
security environment in Iraq. These security assessments could change 
force goals for the various components of Iraqi security forces. ICDC 
units' performance in recent counter-insurgency operations was mixed. 
In almost every case, the units that performed effectively had 
completed the prescribed training programs, were fully equipped, had a 
history of close integration with Coalition forces, served under 
effective chains of command, and had developed a high level of unit 
cohesion from having worked together for some time. The units that 
failed to perform well generally lacked several of these 
characteristics.
    CJTF-7, the Coalition Police Advisory Training Team and the 
Coalition Military Advisory Training Teams, are all re-evaluating the 
security force training programs in light of the mixed performance over 
the last three weeks, and have identified a number of key enablers that 
should produce a cadre of trained and capable forces. These include 
acceleration of academy training programs, increasing the number of 
coalition advisors embedded into units, increasing the involvement of 
Iraqi security forces in Coalition operations and introducing former 
Iraqi officers as liaison officers to coalition units.
    Equipment shortages remain one of the greatest obstacles to 
establishing capable security forces, but our recent efforts to 
energize the equipment procurement process are beginning to pay off. We 
should see the acceleration of equipment deliveries beginning in May. 
Because of losses associated with operations in early April, we will 
have to establish additional contracts for equipment above those 
already in place to get the Iraqi Security Forces up to the 100 percent 
equipped mark. If the additional contracts are awarded this month, we 
expect most of the forces can cross the 50 percent required equipment 
threshold in July, and 100 percent by September.
    Fiscal year 2004 supplemental funds provided commanders with one of 
the most successful tools in winning the hearts and minds of the Iraqi 
and Afghan people, the Commander's Emergency Response Program (CERP). 
These funds provide commanders and the resourceful young troops they 
lead with the means to respond to urgent humanitarian and stabilization 
and reconstruction needs such as water and sanitation projects, 
irrigation and small-scale agriculture assistance, school house repairs 
and civic cleanup projects. This program is an invaluable tool for 
establishing relationships with the Iraqi and Afghan people, assisting 
in economic development, and creating a safer environment.
    The United Nations and the international community are also playing 
vital roles in the political and economic transformation of Iraq. Over 
70 countries and international organizations including the United 
States, pledged $33 billion at the Madrid Donors Conference. U.N. 
Security Council Resolution 1511 called upon Iraqis, initially through 
the Iraqi Governing Council, to determine the course and speed of their 
political reformation. In response, the Iraqi Governing Council has 
submitted its plan and timetable for selecting a transitional National 
Assembly and interim government, drafting a constitution and holding 
elections. It is an ambitious schedule, but one that they can 
accomplish with our help.
    In addition to security and political progress, we continue to help 
Iraq rebuild the infrastructure required for economic progress and a 
stable democracy. The Coalition Provisional Authority (CPA) and Gulf 
Region Division-Restore Iraqi Electricity (GRD-RIE) are managing a 
comprehensive maintenance and upgrade program designed to improve power 
generation, transmission, efficiency and capacity to meet the future 
needs of the Iraqi people. Through the coordinated efforts of the Army 
Corps of Engineers and the Iraqi Ministry of Electricity, we met the 
initial October 2003 goal of 4,400 MW of peak power generation. The 
next goal is 6,000 MW of power by June 1, 2004. In order to meet this 
goal the CPA developed the Power Increase Plan to offset recent system 
failures from severe weather and continuing sabotage and looting. This 
plan increases electrical power generation through an increase of 
generator rehabilitation and maintenance projects, the increase of new 
power generators to the national power grid, increasing electrical 
power imports from other nations, and improving system-wide power 
transmission and distribution. Other progress continues throughout Iraq 
in potable drinking water projects, supplying hospitals with medical 
supplies, providing school supplies for Iraqi school children and 
rebuilding classrooms. Living conditions are improving everyday in 
Iraq, as many of you have seen for yourselves on recent trips to Iraq.
    In Afghanistan, our military strategy combines both combat and 
stability operations. U.S. and Coalition forces are conducting combat 
operations to rid Afghanistan of al Qaida and Taliban remnants, and 
stability operations to assist in building Afghan security 
institutions, governing bodies, and economic prosperity. In January, 
the interim Afghan government held their first Constitutional Loya 
Jirga, approving a new constitution for Afghanistan. In September, 
Afghanistan will hold its first presidential and parliamentary 
elections in over three decades. This is extraordinary progress, by any 
measure.
    Security and stability operations are being conducted by 13 
Provincial Reconstruction Teams (PRTs) operating throughout 
Afghanistan, with at least 5 more PRTs planned for this year. Coalition 
and NATO PRT representatives are making great strides improving the 
quality of life for the Afghan people by building schools, clinics, 
wells, roads and other community infrastructure projects. Reopening the 
Kabul-to-Kandahar road was a major success. Our efforts have increased 
security and stability in Afghanistan.
    In August 2003, NATO assumed responsibility for the International 
Security Assistance Force (ISAF) in Afghanistan. In October 2003 the 
United Nations Security Council passed a resolution extending ISAF's 
mission in Afghanistan for one year, and authorizing ISAF to operate 
outside Kabul and its environs. In February 2004, a Canadian officer 
assumed command of the NATO ISAF headquarters from the German 
commander. NATO's role in Afghanistan is expanding. Germany now leads 
the NATO PRT at Konduz. NATO is planning future ISAF expansion across 
northern and western Afghanistan.
    The Afghan National Army (ANA), now numbering over 8,000 trained 
personnel, is at the forefront of efforts to improve security and 
stability and establish a strong national identity among the Afghan 
people. To date the ANA has performed well, fighting side-by-side with 
United States and Coalition forces during recent successful combat 
operations to capture or kill Taliban, Hezb-I-Islami-Gulbiddin, and al 
Qaida elements. In January 2004 training capacity was increased to 
graduate 10,800 ANA trained personnel per year. Most of the funding 
provided in the Afghanistan portion of the fiscal year 2004 Emergency 
Supplemental has strengthened ANA efforts, including the acceleration 
of training and improved retention and recruitment.
    Congress has demonstrated its commitment to the future of 
Afghanistan, but there is still much more the international community 
could and should contribute to the reconstruction of Afghanistan. The 
Berlin Donor's Conference was a significant success with $4.5 billion 
pledged for this fiscal year and $8.2 billion for the next 3 years. The 
Afghan government, with the help of the U.S. government, is seeking 
more donations for several infrastructure projects such as a new 
Ministry of Defense headquarters, a hospital in Kabul, and a military 
academy, as well as donations of certain equipment, weapons and 
ammunition.
    In neighboring Pakistan, working closely with President Musharraf, 
we have been able to increase coordination among United States, 
Coalition, Afghan and Pakistani forces along the Pakistan-Afghanistan 
border. The Pakistani government has taken some initiatives to increase 
their military presence on the border, such as manned outposts, regular 
patrols and security barriers. From time to time they have aggressively 
confronted Taliban and al Qaida supporters in the areas of the Pakistan 
Federally Administered Tribal Areas and suffered casualties in the 
process. The Tripartite Commission consisting of United States, Afghan 
and Pakistan representatives concluded its seventh session in mid-
April. Among the many accomplishments of the Tripartite Commission has 
been the establishment of a sub-committee to investigate means to 
prevent cross-border conflict. United States/Pakistani military 
cooperation continues to improve, and we are helping Pakistan identify 
equipment requirements for their counter-terrorism efforts.
    Operations in the Horn of Africa remain an essential part of the 
WOT. The Joint Task Force Horn of Africa at Camp Lemonier, Djibouti is 
conducting counter-terrorist and civil affairs operations in Eastern 
Africa. Although these operations have impacted al Qaida's influence in 
the region, a continued military presence is essential to stop the 
movement of transnational terrorists and demonstrating to the region 
our resolve to wage the WOT in Africa.
    In support of OEF--Philippines, U.S. Pacific Command (PACOM) used 
congressionally approved funds this past year to continue counter-
terrorism training for the Armed Forces of the Philippines. A small 
contingent of U.S. military personnel remains in the southern 
Philippines managing these efforts and other humanitarian assistance 
projects.
                       other overseas operations
    U.S. European Command (EUCOM), in accordance with SECDEF guidance, 
has developed a concept for the reduction of U.S. forces supporting 
U.S. Stability Forces in Bosnia-Herzegovina. USEUCOM is closely 
monitoring the stability of the Province of Kosovo, given recent 
violence, to determine required U.S. force levels to support the U.S. 
Kosovo Force. Any force reductions will be done in concert with the 
North Atlantic Council's Periodic Mission Review recommendation for the 
Balkans.
    When EUCOM concludes the Georgia Train and Equip Program in May 
2004, they will meet their objective of improving Georgia's ability to 
confront transnational terrorism operating within Georgia. Training is 
being provided for two staffs, four battalions and one mechanized/armor 
company team. To build on this success and momentum, EUCOM is reviewing 
a possible follow-on Georgia Capabilities Enhancement Program to 
sustain and improve the Georgian military's newly acquired 
capabilities, and demonstrate a continued U.S. commitment to the 
Georgian Armed Forces' development.
    Maritime Interdiction Operations took on a new global focus last 
year, beyond the historical CENTCOM and EUCOM missions, when the 
President approved Expanded Maritime Interception Operations to 
interdict terrorists and their resources globally. Expanded Maritime 
Interception Operations are now significant mission areas for every 
deployed battle group, especially along maritime transit lanes and 
choke points. Results from these maritime operations, such as in the 
Mediterranean Sea, have produced lower insurance premiums in the 
shipping industry, considerably less illegal immigration in countries 
such as Spain, Italy, and Greece, and a reduction in crime at sea. 
Maritime Interdiction Operations are a truly international effort. 
German and Spanish led multi-national naval forces patrol the CENTCOM 
area of responsibility, and this past year Coalition naval forces have 
been responsible for boarding over thirty ships within EUCOM's area of 
responsibility.
    U.S. Southern Command (SOUTHCOM) continues to support counter-
narcotics trafficking and counter-terrorism efforts in the Caribbean 
and Central and South America. They are assisting the Colombian 
military in its fight against designated terrorist organizations by 
providing military advice, training, and equipment with an emphasis on 
the pursuit of narco-terrorist leadership, counter-narcotics tactics, 
and security for major infrastructure such as the Cano Limon pipeline. 
SOUTHCOM supported the formation of the Colombian Army Special 
Operations Command and is continuing its efforts to train the Commando 
Battalion, and a Ranger-type unit. Training was successfully completed 
for the first Colombian Commando Battalion, and training has begun for 
the second battalion. The Colombian military has been very successful 
over the past year in their fight against narco-terrorism. The Tri-
Border Area between Argentina, Brazil and Paraguay is another focal 
point for drug and arms trafficking, money laundering, document fraud 
and Islamic terrorist-supported activities in South America. U.S.-
sponsored multilateral exercises are promoting security, improving 
effective border control, and denying terrorist groups such as 
Hizballah, Hamas and other Middle Eastern terrorist safe havens, 
restricting their ability to operate.
    SOUTHCOM is also providing nearly 2,000 military personnel to 
manage detainee operations at Guantanamo Bay, Cuba. We operate in close 
coordination with several U.S. agencies. We are constantly reviewing 
the status of each detainee, and to date have transferred 128 of the 
detainees who were determined to be of no intelligence or law 
enforcement value, or no threat to the United States or its interests, 
back to their countries of origin for release. 18 detainees have been 
transferred back to their country of origin, under an agreement for 
continued detention by that country. More await similar agreements to 
allow for transfer or continued detention. A number of detainees have 
been assessed as high intelligence and or law enforcement value, or 
pose a significant threat to U.S. interests. These detainees will 
remain for further exploitation. Other cases are being considered for 
referral to the Military Commission, although no one has been referred 
to date. Information gleaned from detainees, many of whom continue to 
make threats against Americans, has already helped prevent further 
terrorist attacks against the United States and our allies. 
Furthermore, continued detention of those who pose a threat to U.S. 
interests prevents those enemy combatants from returning to the 
battlefield.
    SOUTHCOM is also conducting security and stability operations in 
Haiti following the departure of President Aristide, with a 
Multinational Interim Force (MIF) of nearly 4,000 personnel. The 
presence of the MIF has improved the security and humanitarian 
situation in Haiti. The MIF is composed of approximately 2,000 U.S. 
military personnel with the remainder from Canada, Chile and France. 
Under U.N. Security Council Resolution 1542, adopted unanimously on 
April 30, SOUTHCOM and the Multinational Force will transition the 
current Haiti operation to a new United Nations Stabilization Mission 
in Haiti on or about June 1, 2004. The United Nations has authorized a 
force of 6,700 troops and 1,600 police.
    In accordance with the Unified Command Plan 2002 Change 2, on 
January 1, 2004 U.S. Strategic Command (STRATCOM) reported significant 
progress in all of their new mission areas: global strike; missile 
defense; DOD information operations; and command, control, 
communications, computers, intelligence, surveillance and 
reconnaissance missions. Further, they are on schedule to achieve full 
operational capability in each of the newly assigned mission areas this 
year. SECDEF has already approved the Information Operations Roadmap, 
which has 57 wide-ranging recommendations that aid Combatant Commanders 
in planning and executing fully integrated information operations.
    As we become more reliant upon information to conduct operations, 
the defense of our network is paramount. This requires properly trained 
people, common operating standards, and a well-stocked arsenal of 
Information Assurance tools. We are working diligently to centralize 
network operations and defense, and to formalize information sharing 
policy, guidance and procedures. These steps, along with our 
cryptographic modernization plan, will safeguard our vital information.
    We are formalizing the role of U.S. Special Operations Command 
(SOCOM) in the War on Terrorism. In the near future, we will be 
recommending a change to the Unified Command Plan assigning SOCOM 
specific responsibility to coordinate DOD actions against terrorist 
networks. In March, SOCOM's trans-regional psychological operations 
program was approved to unify existing programs, streamline approval 
authorities and synchronize psychological operations across regional 
boundaries in support of the War on Terrorism. These changes will 
provide SOCOM and all of DOD improved focus in our global effort to 
combat terrorism.
                  current homeland defense operations
    Last year, U.S. Northern Command (NORTHCOM) reached full 
operational capability in their mission to deter, prevent and defeat 
threats and aggression aimed at the United States and its territories. 
Upon SECDEF approval, NORTHCOM can now deploy Quick Response Forces 
(company-sized units) and Rapid Response Forces (battalion-sized 
forces) to support time-sensitive missions such as defense of critical 
infrastructures or consequence management in support of the Department 
of Homeland Security (DHS). To improve interagency collaboration, DOD 
has been working with DHS to develop and implement the National 
Response Plan, a national-level, all-hazards plan that will integrate 
the current family of Federal Domestic Emergency Response Plans into a 
single plan.
    The Joint Staff has developed a CONPLAN for consequence management 
operations, and NORTHCOM and PACOM have developed supporting plans. 
NORTHCOM's Joint Task Force Civil Support maintains strong interagency 
relationships to integrate command and control of DOD forces with 
federal agencies to manage the mitigation of Chemical, Biological, 
Radiological and Nuclear and High-Yield Explosive (CBRNE) incidents. 
This past summer, DOD, Nevada National Guard and Reserve units, FEMA, 
27 other Federal agencies, and Nevada State and local agencies 
participated in a consequence management exercise in Nevada called 
DETERMINED PROMISE 2003. I was thoroughly impressed by the coordination 
and cooperation among active and reserve component forces, and Federal, 
State and local authorities. We are conducting similar exercises across 
the country.
    In regards to anti-terrorism and force protection measures, the 
Joint Staff is working to ensure that Combatant Commanders at home and 
abroad have the resources to mitigate threats and respond to emergent 
requirements through the Combating Terrorism Readiness Initiatives 
Fund. My staff is involved in developing and updating anti-terrorism 
standards and policies to reflect current worldwide operations and 
lessons learned so that we can address any vulnerabilities. We 
coordinate with various agencies in the areas of training, planning, 
operations and intelligence sharing, all essential for developing sound 
anti-terrorism policies.
    In an effort to improve the security of U.S. military installations 
and personnel around the world, the Joint Staff has created the 
Antiterrorism Enterprise Portal, an evolving web-based portal that 
aggregates the resources and programs required to support the DOD 
Antiterrorism Program. This portal is fast becoming DOD's one-stop 
location for antiterrorism/force protection information.
    A program that complements this portal capability is the Joint 
Protection Enterprise Network (JPEN). Operated by NORTHCOM, this 
network provides the means to share unclassified force protection 
information rapidly between military installations in the Continental 
United States, increasing their situational awareness and security 
significantly. Although currently operating only on military 
installations, JPEN has the potential to be expanded to share terrorist 
information with Federal, State and local agencies as well.
    The WOT requires collecting relevant data and turning it into 
knowledge that will enable us to detect and preempt the plans of an 
elusive, skilled enemy dispersed across the globe. Although many 
obstacles remain, we are making significant progress in the area of 
information sharing. The Joint Intelligence Task Force for Combating 
Terrorism (JITF-CT) at DIA is a prime example of effective intelligence 
cooperation in the WOT. In the area of counterterrorism, we are making 
significant progress toward transparency and full information sharing. 
JITF-CT has experts from 12 intelligence and law enforcement 
organizations, and JITF-CT personnel are embedded in 15 other 
organizations, including some forward deployed personnel.
                    readiness for future operations
    Our Nation's number one military asset remains the brave men and 
women serving in our Armed Forces. This past year, they demonstrated to 
the world their dedication, perseverance and compassion as they 
liberated the Iraqi people and worked to bring peace and prosperity to 
the region. The Administration, Congress and DOD have made raising our 
military's standard of living a top priority. The 2004 budget provided 
an average military pay raise of 4.15 percent and targeted increases of 
up to 6.5 percent for some enlisted personnel. The 2005 budget's 
proposed reduction of out-of-pocket housing expenses from 3.5 percent 
to 0 is a sound investment, as are future pay increases based on the 
Employment Cost Index plus .5 percent.
    DOD has a focus group that continues to look at programs to enhance 
the combat effectiveness and morale of service and family members 
associated with OIF and OEF. Areas where we have made significant 
progress are Rest and Recuperation Leave, danger area benefits to 
include incentive options for extended tours of duty in Iraq and 
Afghanistan, exchanges, childcare and communications initiatives.
    All Services generally met or exceeded active duty and reserve 
component recruiting and retention goals in both fiscal years 2002 and 
2003 and are currently on target to meet fiscal year 2004 goals. 
However, recruiting and retention of both active and reserve personnel 
will continue to require attention and continued investment as we face 
the challenges of an improving economy and the high operations tempo 
associated with the war. I view all of the Quality of Life issues as 
inseparable from overall combat readiness, and we greatly appreciate 
Congressional support for all of these initiatives.
    The overall readiness of our armed forces--whether forward 
deployed, operating in support of contingency operations, or employed 
in homeland defense--remains good. Our forces are the world's best 
trained and, possess the requisite personnel, equipment, and resources 
necessary to accomplish the military objectives outlined in the 
Strategic Planning Guidance. Challenges do exist, especially with 
regard to ground forces in Iraq. By mid-May, we will have completed the 
movement of personnel and equipment to Iraq that rivals any such 
military deployment in history. Coincident with this deployment of 
forces is a corresponding redeployment back to home bases of our 
service personnel after one year of service in Iraq. Some 20,000 
personnel, mostly members of two Brigades of the 1st Armored Division, 
the 2nd Light Cavalry Regiment and associated Combat Support and Combat 
Service Support units, have been retained in theater past 365 days 
because of the present security situation in central Iraq. We will 
continue to examine force levels and size our combat forces 
appropriately as the security situation dictates in both Iraq and 
Afghanistan.
    We continue to rely heavily on our Reserve and Guard personnel, who 
are playing critical roles in Homeland Defense, and serving with 
distinction around the world in the War on Terrorism. Some missions 
like the ones in Bosnia-Herzegovina and Kosovo are almost exclusively 
made up of Reserve and Guard units, and they are doing a magnificent 
job. We are well aware of the strains on members, their families, and 
their employers, and continuously seek better ways to support them.
    There are several initiatives underway, collectively by DOD, the 
Services, Combatant Commands, and the Joint Staff to reform the 
mobilization process and to relieve the stress on the force. USJFCOM, 
in conjunction with the Services, is leading the mobilization reform 
effort by evaluating policy changes and identifying other solutions to 
streamline the mobilization/demobilization process, and preliminary 
recommendations are expected in early 2004. Two Operational 
Availability sub-studies were conducted last year and identified the 
Active Component/Reserve Component Mix and Low Density/High Demand 
assets as two areas of immediate concern to relieve stress on the 
Reserve Component forces. As an example, the Army has already begun 
converting some Reserve Component artillery forces into Military Police 
forces to meet one of the expected high demand roles of the foreseeable 
future. This, and other ongoing rebalancing efforts will ensure that 
active and reserve forces continue to complement each other. The 
Services are actively engaged in reviewing how much of a given 
capability they need for this new security environment, and which 
capabilities belong in each component. Other key DOD areas of concern 
are reducing the need for involuntary mobilization of the Reserve 
Component early on in rapid response operations, establishing a more 
rigorous process for reviewing joint force requirements, and ensuring 
efficient use of mobilized Reserve Component personnel. A comprehensive 
Rebalancing the Force Report by ASD (RA) will summarize these efforts, 
while a study by ASD (HD) will define Reserve Component requirements 
for Homeland Defense.
    U.S. Armed Forces are capable of achieving all assigned objectives 
in the draft National Military Strategy. However, current stresses on 
the force remain considerable. The increased demands of the War on 
Terrorism, sustaining post-conflict operations in Iraq and Afghanistan, 
and other global commitments are unlikely to change significantly in 
the near-term. Moreover, while committed globally, our Armed Forces 
must continue to defend the homeland, reconstitute forces returning 
from contingency operations, transform to meet future challenges, 
strengthen joint and combined warfighting capabilities, and maintain 
readiness. Today, given these commitments and requirements, we are 
carefully managing the risk in executing an additional major combat 
operation.
    When units return home from combat operations, they must undergo a 
reconstitution process, which generally means a drop in their 
readiness. However, this does not necessarily indicate that a unit is 
either unavailable for or incapable of executing part or all of their 
assigned wartime missions. We have initiated new measures in the 
current readiness reporting system to identify Service and combatant 
command requirements, determine the scope of required reset actions, 
and develop appropriate solutions to mitigate shortfalls and manage 
risk. Our workload remains high, but we remain prepared to accomplish 
those missions assigned to us.
    Army units returning from OIF I/OEF require focused maintenance 
efforts to return them to pre-hostility readiness levels, while 
continuing to meet Combatant Commanders' maintenance requirements. The 
Army's goal is to return OIF I/OEF active duty units to pre-deployment 
readiness within 6 months and reserves within 1 year after return to 
home station. However, some critical aviation systems may require 
additional time in order to complete depot level repairs. Funding was 
programmed from the 2004 Supplemental for these organizational and 
depot level maintenance requirements. Army Materiel Command is the lead 
agency for developing a plan to repair major equipment items from OIF 
I/OEF. The Army has developed repair estimates for all OIF I units. The 
workload consists of approximately 1,000 aviation systems, 124,400 
communications & electronics systems, 5,700 combat/tracked vehicles, 
45,700 wheeled vehicles, 1,400 missile systems, 6 Patriot battalions, 
and 232,200 various other systems are included in this repair plan. As 
OIF II and beyond maintenance requirements are further defined, DOD 
will refine estimates and update costs.
    Combatant Commanders and the Services identified preferred 
munitions as one of their risk areas of concern via periodic readiness 
reporting. Supplemental funding, as well as augmented annual budget 
requests, has allowed us to meet our requirement for Joint Direct 
Attack Munitions and laser-guided bomb kit production. In the near 
term, we are focused on improving how we determine our munitions 
requirements. Over the long-term, we plan to field improved guided 
munitions systems that build on our already superb precision-delivery 
capabilities.
    Our military training areas are facing competition from population 
growth, environmental laws, and civilian demands for land, sea, and 
airspace. The Services are proud of their success in protecting the 
environment, endangered species and cultural resources. We are grateful 
to Congress for their assistance in the fiscal year 2004 Defense 
Authorization Act, which precluded designating certain DOD lands as 
critical habitat, and preserved valuable Navy training while ensuring 
protection of marine mammal species. Having the world's most 
sophisticated weapons systems and simulators cannot substitute for our 
most important military training activities, air, land and sea maneuver 
and live-fire training. Some installations, ranges, and training areas 
are losing critical military value because encroachment is impairing 
their capability to provide useful readiness and operational support. 
We will continue to seek Congressional support that balances 
environmental concerns and readiness.
    Our Nuclear Readiness continues to evolve. In December 2001, the 
Nuclear Posture Review established a New Triad composed of Offensive 
Strike capabilities (both nuclear and non-nuclear), Defenses (active 
and passive) and Responsive Infrastructure in order to respond to a 
wide range of contingencies. DOD is in the midst of a Strategic 
Capabilities Assessment to assess the progress in fielding the New 
Triad and determine the number and types of forces to meet the Moscow 
Treaty commitment of reductions of 1,700 to 2,200 operationally 
deployed strategic nuclear warheads by 2012.
    We continue our efforts to ensure we can operate effectively in a 
CBRN environment, since our potential adversaries, both nation states 
and terrorists, seek to acquire and develop weapons of mass 
destruction, including biological warfare agents. Vaccinations 
represent an important countermeasure against biological threats and 
provide our military personnel with the best available protective 
measures. To date, approximately 695,000 military personnel have been 
vaccinated against anthrax and more than 520,000 military personnel 
have received smallpox vaccinations. The anthrax and smallpox 
vaccination programs are very successful, and it is imperative to 
develop effective countermeasures against other biological threats to 
protect our warfighters.
    While our warfighting team has always included contractors, their 
involvement is increasing. The Joint Staff is leading a joint group to 
develop overarching DOD policy and procedures for management of 
contractor personnel during contingency operations.
    We must also reexamine our ability to get to the fight. The 
Mobility Requirements Study 2005, completed in 2000, is the current 
baseline mobility requirements document. DOD is actively engaged in 
conducting a new full-scale mobility study that reflects our current 
defense strategy and incorporates lessons learned from OEF and OIF to 
further clarify strategic lift requirements. The goal is to complete a 
new Mobility Capabilities Study by March 2005, in time to influence 
preparation of POM-08 and the Quadrennial Defense Review.
    Sustaining our overseas presence, responding to complex 
emergencies, prosecuting the global war on terrorism, and conducting 
operations far from our shores are only possible if our ships and 
aircraft are able to make unencumbered use of the sea and air lines of 
communication. Our naval and air forces must be able to take advantage 
of the customary, established navigational rights that the Law of the 
Sea Convention codifies. We strongly support U.S. accession to the 
Convention.
    Although C-17 production is not planned to terminate until fiscal 
year 2008, portions of C-17 production lines will begin to close in 
fiscal year 2006. The Air Force and DOD are studying the benefits and 
risks (including financial and war fighting) of continuing or 
terminating the C-17 production lines, and plan to complete this 
assessment in time to inform the fiscal year 2006 POM.
    The significant age of our KC-135 fleet and the importance of air-
refueling capabilities dictate modernization of our aerial-refueling 
fleet. Based on the results of ongoing investigations and studies, the 
Air Force will recommend a cost-effective strategy for acquiring a 
suitable replacement for the KC-135 fleet to meet joint warfighting 
requirements to support our National Security Strategy.
    The F-35 Joint Strike Fighter (JSF) will be a giant leap over 
existing attack/fighter capabilities. JSF is in the third year of an 
11-year development program, and we have seen some design challenges. 
The current design challenge for all three variants is weight, which 
impacts performance requirements, particularly for the Short Takeoff 
and Vertical Landing variant. Design teams are working diligently to 
solve this issue, and we have moved the first planned production 
procurement to the right one year, and added extra money to the 
development. The weight issue is within normal parameters of design 
fluctuation, and this issue will be worked out through the development 
and design process.
    Protection of our troops remains a top priority. Interceptor Body 
Armor (IBA) was in the initial fielding phase at the start of OIF. The 
DOD has been aggressively managing this critical item, and accelerated 
fielding and production rates when CENTCOM identified the need due to 
the threat situation. IBA consists of an Outer Tactical Vest (OTV) and 
a set of Small Arms Protective Inserts (SAPI). Currently, there is 
enough IBA (with SAPI) in theater to meet the CENTCOM military and 
civilian requirements, for their entire area of operations, including 
Iraq, Kuwait, Afghanistan and the Horn of Africa. We will continue to 
work diligently to provide the best protective equipment for our 
servicemen and women and DOD civilians.
    The Up Armored version of the High Mobility Multi-Purpose Wheeled 
Vehicle (HMMVV) has proven to be effective at protecting our soldiers 
against mines, improvised explosive devices (IED) and direct fire 
weapons. Currently there is a shortfall in Iraq and worldwide. To fill 
this shortfall, in the near term, the Joint Staff, the Services and the 
Combatant Commanders are conducting an aggressive campaign to 
redistribute worldwide inventories of UP Armored HMMVVs to Iraq. In the 
longer-term, Congress' Emergency Supplemental and reprogramming have 
provided funding to accelerate production of Up Armored HMMVVs to meet 
CENTCOM requirements by October 2004.
    OIF reaffirmed how critical the deployment and distribution process 
is to joint warfare. The Joint Staff is working with DOD and the 
Service logistics experts to develop an integrated end-to-end 
deployment and distribution process that is responsive to rapid 
projection of forces, the delivery and handoff of joint forces, and 
worldwide sustainment in support of the Joint Forces Commander.
    During the fiscal year 2004 budget cycle, Congress voiced concern 
over the Department's overseas basing plans. Since then, our global 
posture strategy has matured. We are now in the process of detailed 
consultation with our allies and members of Congress. The overseas 
portion of the fiscal year 2005 Military Construction budget submission 
includes projects at enduring locations. These projects reflect our 
Combatant Commanders' most pressing base and infrastructure needs. I 
urge Congress to support our Combatant Commanders and fund the overseas 
MILCON projects submitted in the fiscal year 2005 budget request. These 
projects contribute directly to our readiness and the quality of life 
our personnel deserve.
                           joint warfighting
    Protecting the United States, preventing future conflicts, and 
prevailing against adversaries require our military to sustain and 
extend its qualitative advantage against a very diverse set of threats 
and adversary capabilities. Maintaining our qualitative advantage 
begins with improving education programs across the Services. We must 
also adapt and transform organizations and functions to eliminate gaps 
and seams within and between combatant commands, agencies at all levels 
of government, and potential coalition partners. Information sharing is 
at the forefront of this effort.
    Recent operations in Afghanistan, Iraq, the Philippines, and Africa 
have demonstrated the impact timely sharing of intelligence has on 
planning and executing military operations. Since this is a global war 
requiring an international effort, we must also improve coalition 
command and control capabilities, and consolidate the numerous networks 
that exist today. These disparate networks hinder our ability to plan 
in a collaborative environment and exercise timely and effective 
command and control with our multinational partners.
    We must also review policies and implement technology that 
safeguard our vital sensitive information while ensuring critical 
operational information is shared with all those who fight beside us. 
JFCOM has been tasked to take the lead in identifying specific 
multinational information sharing requirements and recommending policy 
changes. Our goal is to establish a multinational family of systems 
with common standards as part of the Global Information Grid enterprise 
services. I view this as a top priority and ask for Congressional 
support--information sharing with our allies is critical to winning the 
War on Terrorism.
    During OIF, our military forces benefited from unprecedented 
situational awareness through a common operational picture. In 
particular, one new system, Blue Force Tracker, was critical to the 
success of our forces as they sped towards Baghdad. Some of the 3rd 
Infantry Division, V Corps, and I MEF vehicles were equipped with 
transponders that automatically reported their positions as they 
maneuvered across the battlefield--greatly improving situational 
awareness for our battlefield commanders, and reducing the potential 
for blue-on-blue engagements. Despite significant improvements in joint 
combat identification, challenges remain to reduce incidents of 
friendly fire, and maximize the synergy of combined arms to provide all 
front-line tactical units with friendly and threat information during 
decisive engagements. To address these challenges, JFCOM has the lead 
in the comprehensive effort to improve Joint Battle Management Command 
and Control, which includes the integration of Common Operational and 
Tactical Pictures, Combat Identification, and Situational Awareness 
across the force.
    We are taking command and control lessons learned from OIF like the 
capability to track Blue Forces, and running them through the Joint 
Capabilities Integration and Development System process to help shape 
future systems requirements. The objective is to ensure all of the 
critical considerations of Doctrine, Organization, Training, Material, 
Leadership and Education, Personnel, and Facilities (DOTMLPF) are 
employed in an approach that synchronizes material and non-material 
solutions.
    We are also improving our military war planning process. The Joint 
Staff has developed an Adaptive Planning process--whose key concepts 
are agility and speed--to reduce the time to develop and update war 
plans, while adding flexibility and adaptability to respond to the 
rapid changes in the global strategic security environment. The goal is 
to provide the President and SECDEF the best options possible. We have 
also been developing a collaborative campaign-planning tool for crisis 
action planning and execution. These tools should allow commanders the 
ability to assess multiple courses of action, rapidly compressing plan 
development time while increasing plan flexibility.
    Our warfighting effectiveness is also enhanced by our Joint 
Exercise Program, which provides Combatant Commanders with the means to 
train battle staffs and forces in joint and combined operations, 
evaluate their war plans, and execute security cooperation plans with 
our allies and Coalition partners. In order to improve joint training 
opportunities, JFCOM is developing a Joint National Training Capability 
(JNTC), which will achieve Initial Operational Capability in October 
2004. JNTC will combine live and virtual play at multiple locations. 
The goal is to provide realistic joint combat training against an 
adaptive and credible opposing force, with common ground truths, and 
high quality exercise feedback.
    Strategic airlift is available to exercises only on an as-available 
basis, since it is prioritized for operational needs first. Providing 
the personnel and assets to accomplish meaningful joint training during 
this period of high OPTEMPO has also been challenging. To balance these 
competing requirements, the Combatant Commanders are reviewing their 
fiscal year 2004 exercise programs with a view to canceling, downsizing 
or postponing exercises. We must continue to balance operational and 
exercise requirements against OP/PERSTEMPO and available lift.
    Prior to combat operations in Iraq, we established a process for 
adapting OIF lessons learned for future operations as rapidly as 
possible. JFCOM has the lead role in turning identified operational 
level lessons learned into required capabilities through the Joint 
Capabilities Integration and Development System. After completing the 
OIF Strategic and Operational Lessons Learned reports, we are following 
up with a specific report to the Congressional Defense Committees, the 
Select Committee on Intelligence of the Senate, and the Permanent 
Select Committee on Intelligence of the House of Representatives. OIF 
Strategic Lessons Learned require additional commitment at the 
national-strategic level, including an improved deployment process, 
redistributing specialties between the Active and Reserve Components, 
Reserve Component readiness and mobilization, and improving the 
planning and transition to post conflict operations.
    Planning and transition to post conflict stability operations 
require significant adjustments in how we plan, train, organize, and 
equip our forces. We can expect future adversaries to attempt to offset 
U.S. military strengths through asymmetric means, to include terrorist 
insurgency, as combat operations transition to post conflict 
operations. The lessons learned process continues during stability 
operations in Afghanistan and Iraq.
      considerations and recommendations for goldwater-nichols act
    For the past 18 years, joint operations have been improving under 
the provisions of the Goldwater-Nichols Act. The act strengthened 
civilian control of the military and facilitated better military advice 
to the President, SECDEF, NSC and Congress. Today, the Armed Forces are 
involved in a worldwide fight against terrorism, well beyond anything 
envisioned by the framers of Goldwater-Nichols. Now, it is time to 
consider new ideas for improving the effectiveness and efficiency of 
the military instrument of power in today's new security environment.
    The WOT and other recent military operations have demonstrated the 
need for improved interagency cooperation, integration and execution of 
National Security Council decisions. We also need to improve how we 
coordinate the efforts of international, regional and non-governmental 
organizations. I fully support initiatives to formalize a mechanism 
that creates effective lines of authority and provides adequate 
resources to execute interagency operations. For example, designating 
the Chairman of the Joint Chiefs of Staff as the principal military 
advisor to the Homeland Security Council would improve homeland defense 
and prosecution of the WOT beyond our borders.
    As new defense reform initiatives are considered, the Chairman must 
retain a dedicated Joint Staff, with expertise across the full range of 
military issues, to assist in formulating quality, independent military 
advice to the President, the National Security Council, and the 
Secretary of Defense.
    Joint Officer Management codified in the 1986 Goldwater-Nichols 
legislation was based on the threats and force structure evident late 
in the Cold War. We are developing a strategic plan to shape joint 
officer management based on the type and quantity of officers needed to 
perform current and future joint missions, and the education, training, 
and experience joint officers require. This strategic approach will 
ensure future joint officers meet the needs of joint commanders.
    We are already taking some initiatives to improve our Joint 
Professional Military Education system, with the goal of educating and 
training the right person for the right task at the right time. 
Historically, we waited until officers became majors and lieutenant 
colonels before we provided them with joint education. We are finding 
that the War on Terrorism requires noncommissioned officers and junior 
officers from all Services to work in the joint environment more often 
than they have before. We are developing courses tailored to the needs 
of our younger troops that expose them to joint warfighting far earlier 
in their careers. To improve joint officer management and education, 
and prepare officers for joint duty earlier in their professional 
careers, I request consideration to allow the Service War Colleges to 
teach Joint Professional Military Education (JPME) Phase Two and the 
authority to determine the appropriate length of the Joint Forces Staff 
College's JPME Phase II course. We also have pilot programs providing 
joint education to Senior Noncommissioned Officers and our Reserve and 
Guard component members. Additionally, we are reviewing our joint 
general and flag officer training programs to ensure our senior 
officers are prepared to command joint task forces and work effectively 
with interagency and coalition partners.
    Today, the Chairman remains well positioned to assist in providing 
strategic direction to the Armed Forces, assess impacts on the long-
term readiness of the force, and evaluate current and potential levels 
of risk associated with global military activities. Already, we are in 
the process of transforming our internal processes to make them more 
responsive in the current dynamic environment. In a similar vein, I 
request we also reevaluate and streamline our current reporting 
requirements to Congress, many of which seem of questionable utility. I 
propose the formulation of a working group composed of members from the 
HASC, SASC, HAC, SAC, OSD, OMB and Joint Staff to identify the best 
means and frequency of communications to meet Congressional oversight 
needs.
                transformation of the u.s. armed forces
    We cannot focus solely on the threats we face today and assume 
there are not other, perhaps even more challenging threats on the 
horizon. Maintaining our unchallenged military superiority requires 
investment to ensure the current readiness of deployed forces while 
continuing to transform military capabilities for the future. Our 
adversaries will learn new lessons, adapt their capabilities, and seek 
to exploit perceived vulnerabilities. Therefore our military must 
transform, and must remain ready, even while we are engaged in war.
    Before the events of September 11th, transforming the force was 
viewed as DOD's greatest near-term challenge. Since then, we have had 
to fight battles in the mountains of Afghanistan, in the cities of 
Iraq, and around the world for the security of America. Putting 
transformation on the back burner and focusing solely on the fight at 
hand is simply not an option. We are fighting a war unlike any we have 
fought before--it demands new ways of thinking about military force, 
new processes to improve strategic agility, and new technologies to 
take the fight to the enemy. DOD continues to invest heavily in 
transformation, both intellectually and materially.
    The draft National Military Strategy adopts an ``in-stride'' 
approach to transformation that balances transformation, modernization 
and recapitalization to maximize our military advantages against future 
challengers. In addition to describing how the Joint Force will achieve 
military objectives in the near term, the strategy identifies force 
employment concepts, attributes and capabilities that provide the 
foundation for the force of the future. The goal is full spectrum 
dominance--the ability to control any situation or defeat any adversary 
across the range of military operations. We must ensure our military 
forces possess the capabilities to rapidly conduct globally dispersed, 
simultaneous operations; foreclose adversary options; and if required, 
generate the desired effects necessary to decisively defeat 
adversaries.
    We recently published the Joint Operations Concepts document that 
describes a suite of concepts of how the joint commander will fight in 
2015 and beyond. Joint Operations Concepts provide a framework for 
developing capabilities and defining concepts to achieve full spectrum 
dominance. Using this document as a foundation, the Joint Staff 
completed development of five joint functional concepts to define how 
joint warfighting will be conducted across the range of military 
operations. These functions include force application, protection, 
command and control, battlespace awareness, and logistics. Meanwhile, 
the Combatant Commands have been working on four high-level operating 
concepts that include strategic deterrence, stability operations, 
homeland defense, and major combat operations.
    Collectively, functional and operating concepts define how we want 
to fight in the future, and will help us transform from the threat-
based force of the Cold War to a capabilities-based force postured to 
respond to a wide variety of threats, some of which we cannot 
confidently predict today. To aid the Joint Requirements Oversight 
Council in determining warfighting needs with a capabilities-based 
approach, we are developing joint integrating concepts. These concepts 
are far more focused than functional and operating concepts, and define 
specific tasks to be conducted. They are designed to bridge the gap 
between how we want to fight and the capabilities we need. Examples 
include urban operations, global strike operations, and forcible entry 
operations. The functional, operating and integrating concepts will 
continue to evolve over time. The first round of this very important 
concept work should be done within the year.
    For each functional concept area we have established a Functional 
Capability Board to integrate the views of the Combatant Commands, 
Services, Defense Agencies, Joint Staff, and OSD. These boards comprise 
functional experts from across DOD who will provide the best advice 
possible for our planning, programming, and acquisition processes. 
Functional Capability Boards also support a new process called the 
Joint Capabilities Integration and Development System, which replaces 
the previous Cold War-era Requirements Generation System. The new 
system recognizes that less expensive programs can have a significant 
impact on joint operations. Virtually all programs are reviewed through 
the JROC process for potential joint impact before they get a green 
light, ensuring all Service future systems are born joint.
    Based on the recommendations of the Joint Defense Capabilities 
Study--the Aldridge Study--we established the Strategic Planning 
Council chaired by SECDEF, and composed of the Service Secretaries, the 
Joint Chiefs, Principal Under Secretaries and the Combatant Commanders. 
The first meeting was held January 28, 2004. To capture and disseminate 
this top-down strategic direction, we will produce a new Strategic 
Planning Guidance document as the mechanism to provide subordinates 
with this strategic guidance. The first Strategic Planning Guidance 
document was completed in March 2004.
    We are also developing an Enhanced Planning Process that integrates 
DOD-wide lessons learned, experimentation, concept development, study 
results, capability gap analysis, and technology development into a 
collaborative capabilities planning function. The goal is to offer 
distinct and viable alternatives to senior leadership rather than a 
consensus driven, single point solution, and implement their decisions 
into the Joint Programming Guidance document, the first of which will 
be issued in May 2004.
    These three transformational process initiatives--Functional 
Capability Boards, Joint Capabilities Integration and Development 
System, and the Enhanced Planning Process--work together improving our 
planning and programming agility for future joint capabilities. JFCOM 
is working with the Functional Capability Boards to incorporate lessons 
learned from OEF and OIF into a list of materiel and non-materiel 
recommendations to the Joint Requirements Oversight Council to turn 
lessons learned into identified capabilities needs as quickly as 
possible.
    JFCOM is also coordinating with the Services, Combatant Commands, 
other U.S. agencies, and coalition partners to ensure experimentation 
efforts support the warfighter. One of JFCOM's key experimentation 
initiatives is the Standing Joint Force Headquarters, which will 
provide Combatant Commanders a rapidly deployable command and control 
team, along with supporting information systems and reachback 
capabilities, that will enable us to respond to regional conflicts with 
smaller and more effective joint operational headquarters. JFCOM is 
establishing the prototype Standing Joint Force Headquarters this year, 
and in fiscal year 2005 we will field the communications portion known 
as the Deployable Joint Command and Control System to CENTCOM and 
PACOM. EUCOM and SOUTHCOM receive follow on systems in fiscal year 2006 
and fiscal year 2007. The Deployable Joint Command and Control System 
will use state-of-the-art information technology to enhance Joint Force 
command and control.
    Communications systems are a prime target for transformational 
ideas. The Joint Tactical Radio System is a software programmable radio 
that will provide seamless, real-time, voice, data and video networked 
communications for joint forces. It will be scalable allowing 
additional capacity (bandwidth and channels) to be added, backwards-
compatible to communicate with legacy systems, able to communicate with 
multiple networks, and able to accommodate airborne, maritime and land 
based systems. It provides the tactical warfighter with net-centric 
capabilities and connectivity to the Global Information Grid, and is 
essential to meeting our 21st century joint communications warfighting 
requirements.
    Transformation also means developing multiple, persistent 
surveillance capabilities that will let us ``watch'' situations and 
targets by looking, smelling, feeling, and hearing with a variety of 
long-dwell sensors from space, air, ground, sea and underwater and 
integrating these capabilities into a ``system of systems.'' The 
exploitation of Measurement and Signature Intelligence (MASINT), holds 
great promise. MASINT collects information from many diverse sources to 
detect, characterize and track a target or activity by its distinctive 
properties, or ``signatures'' that are very difficult to conceal or 
suppress. Last year, DIA created its Directorate for MASINT and 
Technical Collection to develop new forms of technical collection and 
integrate MASINT into collection strategies and operations.
    Another example of the transformational technologies we have just 
fielded is the Army's Stryker Brigade, which is centered on a new, 
fast, and quiet vehicle that can deliver 11 troops to the fight. This 
effort is far more than simply fielding a new vehicle; it is also a new 
way to organize a brigade, and link that brigade to a networked command 
and control system that shares intelligence, surveillance, and 
reconnaissance information. Our Stryker Brigade Combat Teams (BCTs) are 
organized and trained to take advantage of this new technology. The 
first Stryker BCT is already proving its worth in Iraq.
    To reduce our vulnerability to weapons of mass destruction, we have 
made progress on providing missile defenses for our homeland, our 
deployed forces, and our friends and allies. In the coming year, we 
plan to deploy six ground-based interceptors in Alaska and four in 
California to provide an initial capability to defend the United States 
from ballistic missile attack. The PATRIOT missile defense system and 
the emerging AEGIS-based SM-3 system will provide short and medium 
range missile defenses, as well as critical surveillance and tracking 
essential to our Ballistic Missile Defense System. Coupled with an 
upgraded launch detection capability provided by the Space Based 
Infrared (SBIRS) Family of Systems, our ballistic missile defenses will 
continue to improve significantly over the next few years.
    The Global Positioning System (GPS) offers an excellent example of 
a system that transformed modern warfare. GPS delivers worldwide 
positioning, navigation and timing data that provide U.S. and allied 
forces an all-weather, precision engagement capability. Over the last 
decade, the success of combat operations was largely due to GPS-aided 
precision-guided munitions. We must continue to modernize GPS, improve 
capabilities, protect U.S. and allied access to reliable military 
positioning, navigation and timing information, and deny this 
information to our adversaries, while minimizing impacts to peaceful 
civil users. We are engaged with NATO and the European Union to resolve 
our concerns with the proposed Galileo system, a civil satellite system 
that puts at risk our programmed military enhancements to GPS. A U.S. 
interagency team has made significant headway with some tough technical 
issues over the past year, but continued negotiations are essential to 
address the remaining technical, and more importantly, the political 
issues. Once these issues are resolved, we can confidently move forward 
with our vision of space superiority to support future joint and 
coalition operations.
    As recent military operations have demonstrated, space is a 
critical dimension of the battlespace. Lessons learned from OEF and OIF 
highlight our increasing reliance on space communication assets and our 
demand for bandwidth. Our challenge is meeting future warfighter 
requirements in the face of an aging satellite constellation. Despite a 
planned 10-fold increase in capability through Advanced EHF and 
Wideband Gapfiller Systems, projected capacity may not meet the growing 
demand. This shortfall will potentially impact our ability to maintain 
a technological advantage over our adversaries. Work on 
Transformational Satellite Communications continues, which is designed 
to improve communications for mobile systems, particularly those that 
provide intelligence, surveillance, and reconnaissance. Our unmanned 
aerial vehicles and the Army's Future Combat System place heavy demands 
on bandwidth, particularly when real-time video feeds are required. The 
frequency spectrum is critical not only to joint warfighting, but to 
all federal, state and local agencies to ensure national security and 
public safety. Military and civilian technology is rapidly moving to a 
wireless medium. As pressures from commercial sources to free up more 
federal spectrum mount, we must ensure our long-term spectrum 
accessibility for our military forces.
    These are just a few examples our ongoing transformation efforts. 
We are working hard to integrate old systems with new, in innovative 
ways. Interoperating between our own legacy and transformational 
systems is a challenge for us, but it is an even greater challenge to 
our coalition partners, who must participate in key decisions on how 
transformation will enhance combined operations in the future.
    Over the past year, NATO has achieved great success in progressing 
toward a transformed military organization. The Alliance has developed, 
approved, and begun implementing a new, more streamlined command 
structure, which will make it viable in the 21st century global 
security environment. The catalyst for modernization will be the new 
Allied Command Transformation, which will maintain a close partnership 
with JFCOM. Also, on the forefront of transformation, NATO has created 
the NATO Response Force, a key enabler of NATO's new operational 
concept. This expeditionary force is designed to be a multinational, 
deployable, and lethal force intended for employment either within or 
outside of the European AOR. It will be NATO's first responders, able 
to react quickly to a crisis anywhere in the world. In a display of 
NATO's new focus, on August 11, 2003, NATO assumed command of ISAF in 
Afghanistan, the first out of area mission in the history of the 
Alliance. To be an effective joint force in the future, we must ensure 
that our allies keep pace with our transformation efforts.
                               conclusion
    Responding to today's dynamic threat environment requires our Armed 
Forces to be innovative, agile, and flexible. With Congress' strong 
support, our military has made significant progress combating 
terrorism, improving our joint warfighting capabilities, and 
transforming our military into a 21st Century fighting force. We 
appreciate your efforts to help us be responsive to a changing world, 
and make that world a safer and better place.

    Senator Stevens. Well, thank you very much.
    You're right, some of us up here were part of what they 
called ``The Greatest Generation.'' We now know that we have 
been replaced. This is the finest bunch of men and women I've 
ever seen in uniform.
    Ladies and gentlemen, I want you to know, because of a 
change in the Secretary's schedule, we moved this hearing up to 
9 o'clock. I do apologize. Some of you may not have gotten that 
word until late. But we have started off, Senator Inouye and I, 
with a couple of minutes. I will have a couple of questions, 
then Senator Inouye, then we'll recognize Senator Byrd, then 
we're going to go down on each side by the seniority on the 
committee. That's, I think, the fairest, under the 
circumstances because of the change in the time.

                     FISCAL YEAR 2004 FISCAL STATUS

    So let me ask just one question. Mr. Secretary, I am 
concerned about the statements that I have heard of--including, 
I think, some of yours, General Myers--that you may be some $4 
to $6 billion short in the fiscal year 2004 operating accounts. 
Now, if that is the case, you can move money, you can reprogram 
it back and forth to meet those shortfalls, I hope, in order to 
prevent us from having a supplemental for 2004. Can you give us 
an update on your 2004 fiscal status? Do you think that that 
kind of money will take you into the 2005 fiscal year, so that 
we can concentrate on the 2005 bill, Mr. Secretary? Maybe Larry 
could answer that.

                               SHORTFALL

    Secretary Rumsfeld. I'm not familiar with the statement 
that General Myers may have made. Do you want to respond?
    Mr. Lanzillotta. Yes, Senator. Mr. Chairman, we're in the 
process of finishing up our 2004 mid-year review, looking to do 
exactly what you asked us to do: to move money in between the 
accounts, because we are trying to move the money to where the 
bills are right now. Right now, we're in the process. We 
haven't quite finished it, but there's no indication of a 
requirement for a 2004 supplemental.
    What is a problem, or what will be a stress, is general 
transfer authority. We have $2.1 billion worth of general 
transfer authority, and we have approximately $500 million 
left. We need to do our annual omnibus reprogramming just to do 
exactly as you mentioned, move the money to the accounts. That 
will be as stress-point for us. Is it a problem yet? We haven't 
finished. I don't know. I can't give you a number at this time.
    Senator Stevens. Any comment, General Myers?
    General Myers. Senator Stevens, the comment I made was that 
there is a--in 2004, there's approximately a $4 billion 
shortfall, which I think is going to be close to what the 
shortfall will be. But then I'll defer to the mid-year review 
and acting Secretary Lanzillotta on how we might cover those 
bills. I didn't make any comment on that. I didn't say we 
wouldn't be able to cover them. But I would say that it will 
take some authorities that we're going to have to get to 
reprogram some of this money, and that there is likely to be 
some impact on some parts of our Armed Forces. We just have to 
hope it's not in the readiness areas and the training areas, 
the ones we worry about. So that review is ongoing, and it 
remains to be seen whether we can cover all of that.
    Secretary Rumsfeld. From the meetings I've been in, my 
impression is that the people who have accounts that are being 
overspent are the ones that express the concern, and those that 
have accounts that are being underspent are relatively quiet. 
And so until the process is completed that the Comptroller's 
Office and the Program Analysis and Evaluation (PA&E) office 
are engaged in, I think it's awfully hard to know precisely 
whether or not there will be a shortfall and even to know 
precisely how much money we will need to reprogram.
    Senator Stevens. We would be pleased to work with the Armed 
Services Committee to see if we need additional ad hoc transfer 
authority before the end of this fiscal year. Perhaps we can 
work that out on an ad hoc single-year basis to get it done 
without trying to handle a supplemental when we're going to be 
looking at the reserve account anyway. But I think the reserve 
account may come too late. We'll have to see.
    Senator Inouye, Co-chairman?
    Senator Inouye. I wish to yield to Senator Hollings. He has 
an emergency.
    Senator Stevens. Senator Hollings, you're recognized for 5 
minutes.
    Senator Hollings. I thank the chairman, and I thank Senator 
Inouye. I've got a friend who passed. I'm going to try to catch 
a plane to his funeral--General Harry Cordes, General Myers, 
who used to command the Strategic Air Command (SAC).
    Unfortunately, Mr. Secretary, you've already, in your 
opening statement, responded to my question. And my question 
was how in the world we're ever going to get the troops out 
unless we get more troops in. And you seem Shinseki-shy. You go 
into all kind of rope-a-dope here about you've got to re-
balance the skills, we've got to transform the forces for the 
future, we've got to not get a bigger barrel, but move the 
spigot, and all that kind of nonsense.
    I'll never forget when I visited General Westmoreland in 
Vietnam in 1966, and in a country of 16 million he had 535,000 
troops in there, and he spent until 2 o'clock in the morning 
that first night in Saigon saying how he needed 35,000 more. 
Now, in a country of 25 million, you're trying to secure it 
with 135,000. And don't put me off with ``about 200,000.'' 
They're not strong. You've got 200,000, but, as General Abizaid 
told Chairman Stevens and myself when we were over there just 1 
month ago, that they needed far, far more training. So what 
happens is that we all want to try to get the United Nations 
(U.N.) and get the North Atlantic Treaty Organization (NATO). 
Chairman Stevens and I listened to President Chirac, and he 
says, ``We've got to have Western solidarity, we've got to have 
solidarity in Iraq,'' and he says, ``When the United Nations 
passes a resolution, you'll find French troops side by side 
with you in Iraq,'' just like we have in Afghanistan, where 
they are working NATO troops now. Now, he cautioned, he said, 
about NATO, that the Arab countries weren't part of it, but, 
``With a U.N. resolution cover,'' he says, ``you can get 
there.'' My understanding is you all haven't even asked for the 
NATO troops, on the one hand, and you go into this long 
explanation about moving the spigot instead of having a bigger 
barrel and everything.
    You don't have security. In fact, we've bogged down. We're 
building and destroying. We're trying to win the hearts and 
minds as we're killing them and torturing them. And at least 
General Westmoreland didn't have to ask the Viet Cong general 
to take the town, like we have for Fallujah. We have asked the 
enemy general to take the town.
    We're in a mess there. And we keep hearing from the 
Pentagon, ``Sure, the troops are superb.'' But the question is, 
Are we superb back here in Washington?
    Secretary Rumsfeld. Senator, you've covered a lot of ground 
there, and I'd like to try to take a few of the pieces.

                           IRAQ TROOP LEVELS

    With respect to the number of troops, U.S. troops--there 
are also coalition troops and, as you point out, there are 
Iraqi forces--the number of U.S. troops that we have in that 
country is the exact number that General Abizaid requested. Is 
it possible he's wrong? Sure, it's possible anyone could be 
wrong. But he talks to his field commanders, the division 
commanders, every week or two, and asks that question. And 
every time I ask him, I say, ``Look, whatever you need, you 
will get.'' General Myers' advice is that the number he has 
requested is a number that's appropriate.
    Now, all I can say is that the division commanders are 
telling General Abizaid that's the right number. General 
Abizaid is telling General Myers it's the right number. General 
Myers is telling Rumsfeld and President Bush it's the right 
number. You could be right----
    Senator Hollings. Well, isn't it the case that----
    Secretary Rumsfeld [continuing]. But they all don't think 
so.
    Senator Hollings [continuing]. They're scared to death----
    Secretary Rumsfeld. No, they're not. These----
    Senator Hollings [continuing]. That they're going to get 
disciplined----
    Secretary Rumsfeld. Does he look scared to death?
    Senator Hollings [continuing]. If they ask for more.
    Secretary Rumsfeld. No, sir.
    Senator Hollings. They're gone if they ask for more.

                                  IRAQ

    Secretary Rumsfeld. Absolutely not. And you know that.
    General Myers. In fact, Senator Hollings, let me just say 
it's not just General Myers; it's the entire Joint Chiefs of 
Staff. This is something we review regularly. We were just on 
the video teleconference with General Abizaid the other day, 
with the Joint Chiefs, General Abizaid, talking about this very 
issue and looking at, you know, the pluses and minuses of more 
versus less. And it's still the wisdom of General Abizaid and 
his forces that more capability is not--there is no way to 
militarily lose in Iraq. There's also no way to militarily win 
in Iraq. This process has to be internationalized. The United 
Nations has to play the governance role. That's how we're, in 
my view, eventually going to win.
    General Abizaid thinks that handing more of this over to 
Iraqis, not doing the work for them, is what's key, and that's 
why yes, is there training that needs to be done for Iraqi 
forces? Absolutely. Are we slow in getting that going? You bet. 
Until the Department of Defense got the mission, and General 
Abizaid got the mission, for training the police and the rest 
of the security forces, we were way behind. We're moving that 
up very quickly right now. And their performance, while uneven, 
is to be expected when the going gets tough, because they 
just--some of them haven't been trained properly or equipped 
properly. We're trying to fix that as fast as we can. But 
that's certainly got to be part of the solution.
    But----
    Secretary Rumsfeld. I should add that----
    General Myers [continuing]. We don't put anything on 
General Abizaid's request going to the Secretary, I can tell 
you that. And if we have a separate view, as the Joint Chiefs, 
we would offer that, as well.
    Secretary Rumsfeld. The idea that the four members of the 
Joint Chiefs of Staff, four-star generals, and the division 
commanders, General Abizaid and General Myers and General Pace, 
are afraid to tell the truth is just plain wrong and 
unfortunate to even suggest, in my view.

                        UNITED NATIONS AND NATO

    Next, with respect to the United Nations and NATO, we went 
to the United Nations and got a resolution. The Department of 
State has been working with the United Nations to try to get 
another resolution. We want it, the coalition countries in 
there want it, and, you're exactly right, when we get it we 
have a crack at getting some additional countries, beyond the 
33 countries that are currently there.
    Next, you asked that we--said we've not even asked NATO. We 
asked NATO the first month of the war--went over to Brussels 
and requested NATO assistance. NATO is assisting in the sense 
that they have helped with the force generation for the Polish 
division that's currently deployed there. I think, out of the 
26 NATO countries, something like 17 have forces either in Iraq 
or Afghanistan, or both. NATO has the same problem--you might 
humor us about the spigot--the problem is that NATO has a worse 
spigot problem. They've got about 2.4 million people in 
uniform, and they can--they have trouble sustaining 50,000. 
We're sustaining--if you take Iraq, Afghanistan, and the entire 
U.S. Central Command (CENTCOM) area of responsibility--about 
250,000 to 275,000 forces on a base of 2.6 million. They've got 
about 2.4 or 2.5 or 2.6 million, and they're having trouble 
sustaining 50,000. So the idea that the United Nations is some 
sort of a solution to all this problem, or the idea that NATO 
is the solution to all these problems, I think, misunderstands 
the force capabilities of those countries.
    Once you get a U.N. resolution, however, you do reach 
beyond the NATO countries, and that's a big opportunity.
    Senator Hollings. Thank you very much.
    Senator Stevens. Please give the SAC General's family our 
condolences. We remember him, too.
    Senator Byrd.
    Senator Byrd. Secretary Rumsfeld, can you tell the 
committee how the $25 billion request will be structured, what 
appropriation accounts will be receiving increases.
    Senator Stevens. Senator, we do not have that request.
    Senator Byrd. I understand that. But do you have any idea 
how the $25 billion request will be structured, what 
appropriation accounts will be receiving increases in your 
amendment, and what specific activities and programs will be 
funded? Does the Defense Department intend to seek additional 
legislative authorities with this request? Do you intend to 
request additional flexibility in the use of allocation of 
these funds?
    Mr. Secretary?

                  STRUCTURING THE $25 BILLION RESERVE

    Secretary Rumsfeld. Yes, sir. As I mentioned earlier, the 
decisions as to how it ought to be structured and what it ought 
to be called is a matter that's being discussed between the 
White House, the Office of Management and Budget, and the 
Congress. They're trying to work out something that makes sense 
from your schedule and the flow of your legislation in both 
houses.
    The funds would be spent for operational costs and force-
protection costs. And I do not believe, at the moment, that 
anyone anticipates that there would be additional authorities. 
But it would be for personnel support costs, for combat 
operations, supplies, force protection, transportation, those 
types of things.
    Senator Byrd. What assurances do we have that these funds 
will be limited to operations in Iraq and Afghanistan only, and 
not be diverted into some kind of dual-use activities that 
could be used to prepare for another war?
    Secretary Rumsfeld. The request will specify what they're 
for. And, as always, the Department will see that the authority 
that is provided by the Congress is adhered to. And they're 
currently working out reporting procedures with the Congress 
that will be, I believe, explicit at that point where the 
request comes forward.
    Senator Byrd. Well, I'm sure that Congress would want to be 
sure that there's some limitations on these monies and that 
this will not be a slush fund. I'm also confident that it will 
not be limited to $25 billion. It'll probably be twice that 
amount, or three times that amount, before it's over. I would 
anticipate that.

                            STOP-LOSS POLICY

    Mr. Secretary, America's military forces are stretched thin 
throughout the world. Simply put, we have more military 
commitments than we have the personnel to cover them without 
taking extreme steps. The Army, for example, is dependent on 
the stop-loss policy to retain soldiers and meet its 
commitments in Iraq and elsewhere. How long has the stop-loss 
policy been in effect?
    Secretary Rumsfeld. It's my understanding that stop-loss 
has been a policy that's been in effect for years and years and 
years, and it's been used by all of the services over time, and 
it has a good military purpose. Possibly General Myers will 
want to comment on it. But at that point where a unit--everyone 
in the military, in the Guard, in the Reserve, is a volunteer. 
Each one volunteered knowing that they were going to go on 
active duty or they were going to go in the Guard and Reserve 
and, as needed, they would be called. When a unit is deployed--
it has trained together, it's worked together, it's ready to 
go, and suddenly it has to go--there are always some people in 
that unit who are due to get out or due to be transferred at 
any given moment. And so what the stop-loss does is, it assists 
with unit cohesion. And if people are due to be deployed, and 
they look at the unit, and they make a judgement at some cutoff 
point and say, ``Anyone who was scheduled to get out, can't.'' 
And, therefore, that's the stop-loss.
    Senator Byrd. So how many troops are currently affected by 
the stop-loss order?
    Secretary Rumsfeld. I can check with Dr. Chu, behind me, 
and I'll bet you he knows. About 20,000, he tells me, 
throughout the entire force.
    Senator Byrd. And when would you expect to lift the stop-
loss order?
    General Myers. Let me--as the Secretary said, Senator Byrd, 
this is essentially the way we do business when we deploy 
units, and it's not just stop-loss, it's also stop-moving, as 
the Secretary said, if they were moving to another post, camp, 
or station, or to school. And as units continue to deploy, 
stop-loss and stop-move will be used in that way.
    I would also say that if individuals are stop-loss'd that 
were planning on getting out of the service, if they--there is 
a process they can go through where they can appeal and say, 
``Listen, I had something set up that I've just got to do,'' 
and I think, for the most part, very few are turned down. Is 
that right, Dr. Chu?
    Dr. Chu. That's correct.
    General Myers. I mean, there's a--the percentage is very, 
very high of those appealing on stop-loss if they have 
something they just have to do. Their case is looked at, and 
their----
    Senator Byrd. General Myers----
    Secretary Rumsfeld. It also varies--excuse me--it varies 
from service to service. For example, at the present time, the 
Air Force is not using stop-loss; whereas, the Army and the 
Navy are.
    Senator Byrd. Mr. Secretary, do you have any concern that 
once you lift the stop-loss order, you will see a mass exodus 
of experienced troops? And do you have any plan to cope with 
such a contingency?
    Senator Stevens. That would be the Senator's last question, 
unfortunately, Senator Byrd.
    Senator Byrd. All right.
    Secretary Rumsfeld. Senator Byrd, I always worry about 
things, and that's a fair question. At the moment, the way the 
stop-loss works is, it's unlikely that it would lead to a mass 
exodus, because it's sequential, and it doesn't affect large 
numbers at a specific time point. It may affect, in the total 
at the present, 20,000 people. But so far the recruiting and 
retention in all of the services is, for all practical 
purposes, meeting their targets. So we're not, at the moment, 
seeing any adverse effect from the stop-loss, nor do people in 
the service, as I understand it, think of it as unusual, 
because it's been a policy that's been used for some time.
    Senator Stevens. Thank you very much.
    Senator Cochran, you're recognized for 5 minutes.
    Senator Cochran. Mr. Chairman, thank you.
    Mr. Secretary, you pointed out, in your opening statement, 
your interest in restructuring National Guard forces to try to 
get the most out of the forces that we have who are available 
to our country in this time of need in Iraq and Afghanistan and 
elsewhere. I applaud that, and I want to assure you that we'll 
be happy to work with you to guarantee that the funds are there 
to help you achieve this goal.
    I happened to notice, in my briefing papers here, that, in 
our State of Mississippi, National Guard and Air National Guard 
units have been deployed. We have more than 3,000 troops from 
our State that have been deployed since Operation Iraqi Freedom 
began. This weekend, we're welcoming home a combat engineer 
battalion, and that battalion, over 200 soldiers in the group, 
were sent in right after the Tikrit Airport was taken over. 
They built a perimeter around that airport, they built 
structures for the defense of our forces throughout northern 
Iraq. They haven't taken a single casualty. They're coming home 
safe and sound. Thirty-two bronze-star medals are being 
awarded, have been awarded, to the troops in that group. And it 
makes me very proud of those troops in particular, but others 
from throughout our State and across the country who have 
responded to the call, carried out their missions with a 
tremendous amount of professional skill and courage. And we owe 
them a great deal. And I know that an effort is going to be 
made to ensure that they are treated fairly. We have some that 
have just gotten back from Bosnia, for example, who are now 
being put on a list for possible deployment to Iraq. We have 
others who have been to Guantanamo Bay.
    So the National Guard and Reserve forces are really being 
stretched, and I worry a little bit about whether or not we 
have the incentives and the pay and benefits that are necessary 
to guarantee that we can retain and continue to recruit members 
of the Guard and Reserve in the future. There's a TRICARE 
program, as an example, a health benefit program that Congress 
has authorized, but it's not yet been implemented for National 
Guard forces. I bring that to your attention because it may be 
one example of what we can do to help make sure we're treating 
those forces fairly.
    What is your response to that general problem that we may 
face and what the Department of Defense is doing to address it?

                    STRESS ON THE GUARD AND RESERVE

    Secretary Rumsfeld. The problem you have mentioned is real. 
You have units, and we look at their deployments--it may be 
Bosnia, it may be Guantanamo, it may be Afghanistan or Iraq--
and then there are individuals that change in units. And so 
someone may be coming back, and go to another unit, and end up 
being deployed at some point. The planning tools in the Army 
are imperfect, and they are being refined and improved. And 
we're doing today, I believe, a vastly better job than we did a 
year ago in having visibility into the circumstance of 
individuals, as well as units.
    When I sign a deployment order, I look at each unit and the 
number of individuals, and how long since they've been 
deployed. You're right, the Guard and Reserve has stepped up 
and done a magnificent job. You're right, also, that the Guard 
and Reserve have been stressed. But the fact is, it isn't 
probably quite right to say the Guard and Reserve have been 
stressed. Significant portions have. And other portions have 
not, at all, been used. And that goes to the point you made at 
the outset, that we've got to find a way to re-balance these 
skill sets, both within the Guard and Reserve, and also with 
the Active force.

                       MOBILITY REQUIREMENT STUDY

    Senator Cochran. General Myers, one of the units in our 
State, an Air National Guard unit, has been the first Guard 
unit to have a C-17 fleet assigned for operation in Jackson, 
Mississippi, and we're very proud of that honor, and the forces 
there are working hard to do the training and maintain the 
facilities that are necessary to carry out their 
responsibilities. I noticed that a recent Congressional 
Research Service report concluded that there is a need for 
strategic lift capacity greater than that which we had earlier 
expected. Currently, there's a procurement strategy for C-17s 
of a total of 180 by 2007, and the Air Force is indicating now 
they may have a requirement for more than 200. I wonder if the 
aging of the C-17 fleet and the C-5 fleet, are causing you 
concerns. Do you believe the budget requests that are before 
the committee are sufficient to deal with the needs that we 
have for strategic airlift?
    General Myers. Senator Cochran, I believe that the request 
that you have right now is sufficient for fiscal year 2005. 
What we need to do, and what we are doing, is looking at our--
what we call our mobility requirements study. We do these, as 
you know, periodically. It looks, not only at airlift, but 
other modes of transportation. I think, coming out of that and 
getting ready for the 2006 budget, you will probably see the 
answer to the question on, Do we need more C-17s beyond what 
are currently programmed? And I don't want to prejudice the 
outcome of that. But the concerns you raise are serious 
concerns, and we need to look at it.
    By the way, the C-17 is performing magnificently. You can 
remember it was, at one time, a maligned program, almost cut. 
And it has been--it's kind of my primary mode of transportation 
when I go back and forth to the Middle East, and I've come to 
know it very well.
    Let me just make a comment on the Reserve component. I 
would like to echo what the Secretary says. You know, we're one 
Armed Forces. We're the total force. When I go to visit troops, 
you can't tell who the reservists are, who the Guard's people 
are, or who the Active duty are. Everybody's in there together, 
everybody is performing, in my view, magnificently.
    We've got to worry as much about Reserve component 
recruiting and retention as we do the Active piece, because 
we're a total force. We could not be doing this without the 
Reserve component, and they've really answered up.
    On medical, there are a couple of things that--I know we 
need help in medical--that don't break the bank. One is making 
sure they get TRICARE benefits prior--earlier than they do now 
when they are mobilized. They need that. They also need it 
longer on the other end, when they are demobilized. And they 
need transportability. Right now, if they have a private 
insurance company, they can go to TRICARE. But TRICARE may 
require they change providers. And when you have serious 
medical problems in a family, that's not the thing to do for a 
year or two, to change providers. We could mandate the same 
thing we mandate for Medicare; if you take TRICARE, you know, 
everybody's got to take it. And so there are some--I think, 
some relatively inexpensive, and things we could do today, to 
help our Reserve component mightily.
    The other thing we ought to do, for sure, is make sure that 
our Reserve component folks get annual physicals so we know 
what kind of medical shape they're in, because we've discovered 
a lot of problems. I mean, this sounds farfetched, but one 
person was mobilized, needed a liver transplant. Okay? So we 
ought to keep up with this on a yearly basis so we know what 
the health of our force is.
    Senator Stevens. Thank you very much, Senator.
    Senator Leahy is recognized for 5 minutes.
    Senator Leahy. Thank you, Mr. Chairman.
    Mr. Secretary, yesterday in Iraq an American citizen was 
brutally murdered by al Qaeda. Not long before that we saw the 
dismembered corpses of brutally murdered Americans left hanging 
from a bridge by jubilant Iraqis. Each of these brave Americans 
were there to rebuild that country, and these despicable acts 
illustrate, once again, the depravity, the determination of the 
enemy we face.
    I think we all agree on that, on this committee and on the 
other side. The question is how to stop it. Now, you have said 
you're sorry, and the President said he's sorry, everybody's 
said they're sorry about the Iraqi prison scandal. It's 
actually the first time in this long, protracted and rather 
strange policy I've heard any administration official express 
regret about any mistake.
    So let me tell you a few things I'm sorry about. I'm sorry 
that someone in the administration ``gave currency to a 
fraud,'' to quote George Will, by putting, in the President's 
State of the Union speech, that Iraq was trying to buy uranium 
in Africa.
    I'm sorry that this administration repeatedly, insistently, 
and unrelentingly justified preemptive war by insisting that 
Saddam Hussein not only had weapons of mass destruction, but he 
was hell bent on using them against us and our allies.
    And I'm sorry about administration officials, led by the 
Vice President, repeatedly trying to link Saddam Hussein to 9/
11, when there never was any link. None. They were doing it to 
build support for the war.
    And I'm sorry that truth-tellers in the administration, 
like General Shinseki and Lawrence Lindsey, were hounded out of 
their job because they had the temerity to suggest realistic 
numbers both for our troop level and for what this war is going 
to cost.
    I'm sorry there's no real plan, despite a year-long $5 
million effort by the State Department, to stop the looting 
that greeted our soldiers upon Saddam's fall, that set back 
reconstruction efforts by months or years, left the gates open 
to ammunition, weapons, and other things that are used against 
our brave soldiers today.
    I'm sorry that the President taunted Iraqi resistance 
fighters to ``bring it on'' while our troops were still in 
harm's way.
    I'm sorry that some of our closest allies and friends, like 
Mexico and Canada, even the countries that you dismissingly 
called ``Old Europe,'' were alienated because they disagreed 
with our strategy of preemptive war, countries whose diplomatic 
and military help we need desperately today.
    And I'm sorry that those that tried to find the truth about 
allegations of prison abuse in Iraq and in Afghanistan and in 
Guantanamo were ignored or brushed off for more than 1 year, 
until all of a sudden the press published the lurid 
photographs, and then we look at it and we have made apologies 
through the whole administration.
    Now, last October 13, in your memo entitled ``Global War on 
Terrorism,'' you asked--I'm quoting what you said--``Are we 
capturing, killing, or dissuading more terrorists every day 
than the madrases and radical clerics are recruiting, training, 
and deploying against us?'' Al Qaeda wasn't in Iraq when we 
started this war. They are there now.
    How do you answer the question you posed last October? Your 
question was, again, ``Are we capturing, killing, or dissuading 
more terrorists every day than the madrases and radical clerics 
are recruiting, training, and deploying against us?'' How would 
you answer that today?
    Secretary Rumsfeld. Well, first I'd like to, Senator, 
answer a few of the other comments you made.
    Senator Leahy. Well, could we answer that one first?
    Senator Stevens. Well, he has the full right to answer your 
question.
    Senator Leahy. I know, but could we answer the question, 
the specific question I asked? That's the only question I 
asked. Answer that, and then say all you want to say.
    Secretary Rumsfeld. I think it's fair that I be allowed to 
answer your statement.
    Senator Leahy. Well, I asked a question. You don't want to 
answer my question?
    Secretary Rumsfeld. I'd be happy to answer your question.
    Senator Leahy. Please do.
    Secretary Rumsfeld. I will.

                           IRAQ TROOP LEVELS

    Let me start this way. The statement that General Shinseki 
was hounded out of office is false. He served his entire term. 
Everyone who knows anything about the military knows that fact.
    Second, he had a different view, which is fair for anybody, 
as to how many forces would be appropriate. To my knowledge, he 
did not express it--well, I won't even say that. Forget that. 
That was a private meeting. But the fact of the matter is, 
every general there--on the ground, in the country, and on the 
Joint Chiefs currently--believed that we have the right number. 
If he disagrees, that's fair. He's a fine, honorable man, and 
he can have a difference of opinion. But the fact is that the 
number there is what the military believes is appropriate.
    General Myers I'd like to comment on the caches that you 
say were left unattended.

                     INVESTIGATING REPORTED ABUSES

    And I think your statement that allegations of abuse were 
``brushed off'' is unfair and inaccurate. There have been a lot 
of fine people----
    Senator Leahy. I'll show you the correspondence that I sent 
to your office asking about these abuses about 1 month ago that 
were never answered.
    Secretary Rumsfeld. If there was a letter that wasn't 
answered, I apologize. But the fact of the matter is that we 
get repeated reports from people, of problems, and they are 
checked, and they are worked on, and corrections are made, and 
most of the investigation reports indicate----
    Senator Leahy. Apparently not in Iraq----
    Secretary Rumsfeld [continuing]. That----
    Senator Leahy [continuing]. Or Afghanistan, according to 
the front page of papers this morning.
    Secretary Rumsfeld. The fact of the matter is that in Iraq 
there have been improvements made, and successive 
investigations have seen that improvements were made, and they 
were not brushed off. But I think saying that the military 
chain of command was ``brushing off'' legitimate comments about 
procedures being used with the detainees is just simply not 
consistent. We're trying to find out precisely what happened, 
and we're going to end up with six investigations going on, and 
we'll know the extent to which things were or were not brushed 
off.
    Last, I don't know the answer to your question. I wish I 
did. I posed it because it may be a question that's not 
answerable except over time. But I do worry about it, which is 
why I wrote the memo and why I sent it to General Myers. I 
think that the world is facing a very dangerous threat in 
international terrorism. They are capable--and, in fact, 
already have killed tens of thousands of people in various ways 
in different countries over time--3,000 in this country alone, 
and attacks in Saudi Arabia, attacks in Turkey, attacks in 
Indonesia. And we know these madrasa schools--not all madrases 
are bad, but a small fraction of them do, in fact, get funded 
for the specific purpose of training people to go out and kill 
innocent men, women, and children and to do the kinds of things 
you've cited in your opening statement. It is inhuman. It is 
against any law of war. And it's a dangerous thing. And I don't 
know of any way that one can calculate that. Our folks are 
doing the best job they can.

                               MARK BERG

    General Myers. Senator Leahy, let me just--let me talk a 
little bit about the gruesome murder of Mark Berg. The best we 
know--and I don't know that we know this for sure--but it looks 
like the perpetrator, the lead perpetrator, might have been 
this fellow, Zarqawi, who, while not al Qaeda, has been al 
Qaeda-affiliated for a long, long time. Well before the war in 
Iraq, he was in Iraq from time to time. If that's true, then 
this is not Iraqis killing Americans, this is a--in fact, he 
is, I think, a Jordanian citizen. But he's an extremist, most 
of all. And the Zarqawi letter tells us all we need to know 
about him. He will do anything to stop the progress in Iraq. 
He's the one that suggested, ``We're losing to the coalition. 
We have to do something dramatic, and maybe we need to start a 
civil war between Sunni and Shia.'' So this act, if it is, in 
fact, Zarqawi, as some allege, this is a further validation of 
what his tactics are. I just make that point on the Mark Berg 
thing.
    Senator Leahy. I appreciate that. Mr. Chairman, we'll be 
able to submit other questions----
    Senator Stevens. Yes, on appropriations. This is not about 
Iraq abuse.
    Senator Leahy. We haven't even been given the request yet, 
and we're having to----
    Senator Stevens. We have the request for----
    Senator Leahy. For $25 billion?
    Senator Stevens [continuing]. Four hundred and one billion 
dollars. That's what we're talking about this morning. We 
haven't received the reserve request, that's true, but that's--
you know, I have no cork to put in Senators' mouths or 
witnesses' mouths, but my hope----
    Senator Leahy. Appreciate that.
    Senator Stevens [continuing]. Is to pursue the information 
we've gotten so far, on which we still need a lot of 
information about the $401 billion.
    Senator Domenici is recognized for 5 minutes.
    Senator Domenici. Mr. Chairman, I will follow your 
admonition. But I wish I had a few moments to tell this 
committee what I'm sorry about. I'm sorry about 9/11, when 
3,000 Americans were killed by terrorists. I'm sorry that 
Saddam Hussein took over this country and killed thousands of 
people and established one of the worst regimes ever. And 
there's another long list of what we're sorry about, and 
they're completely different than what Senator Leahy's sorry 
about.
    Now, having said that, we are only 42 days away from 
turning over this country to the Iraqi leadership, whatever 
that is. Mr. Secretary and General, I am very worried about how 
prepared the Iraqis are to take over this responsibility, and, 
secondly, what we have done to prepare ourselves and them to 
work together to make this work.
    I can envision that this situation will not work, and that 
we won't have an organizational structure that will do anything 
other than have Americans fighting and us supplying those 
fighters with more and more money. Can you describe, as best 
you can, where we are, what we're going to do, and how 
confident you are that this turnover is going to be meaningful, 
in terms of maintaining the peace and moving ahead with 
America's commitment.

                     TRANSFER OF AUTHORITY IN IRAQ

    Secretary Rumsfeld. Thank you, Senator.
    It's a tough question. If you think back to Afghanistan, we 
didn't know how that was going to work. We went in, the Taliban 
was removed, the al Qaeda were put on the run, and what was 
left were a series of warlords with militias, and no government 
structure. And, lo and behold, out of the blue came something 
called a loya jirga, and out came agreements that a fellow 
named Karzai should be selected as interim president. And there 
he is. And it's been wobbly, and he's worked his way along, and 
he's made arrangements with other people, and, lo and behold, 
it's survived. No one in the world could have predicted how 
that would go. And now they're scheduled to have elections 
later this year, they're scheduled to endorse their 
constitution, and it might very well work. I've got confidence 
that it will work.
    Senator Domenici. Mr. Secretary----
    Secretary Rumsfeld. But it was an Afghan solution.
    Senator Domenici [continuing]. I have been fair, I think, 
in my question, and I have been fair with you all, all the 
time, but I don't want to hear about Afghanistan. It is 
completely different----
    Secretary Rumsfeld. It is.
    Senator Domenici [continuing]. In my opinion. It has 
nothing whatsoever to do with Iraq that has people like al Sadr 
around, gathering up people, that we have cities that we are 
abandoning to a bunch of thugs, and yet, at the same time, 
we're saying we're going to form a new government and turn over 
power to them. I believe that you have to be better prepared 
for this transition than I have heard. And it may be you can't 
tell us, but the transition is not something that's going to 
work unless you have planned it, and the military has planned 
it, and you're working with Iraqis. And, frankly, I think you 
ought to tell us.
    Secretary Rumsfeld. Well, I'll do my best. The United 
Nations representative, Brahimi, is--been working with us, with 
the Coalition Provisional Authority, and with the Iraqi people, 
the Iraqi Governing Council, and hundreds of others, Iraqis. 
And he has come up with a formula, which is now being tested in 
the marketplace there. People are describing it, talking about 
it, analyzing it, recommending changes. And it may not be 
exactly what he proposed, but it'll be something like that. My 
guess is, there'll be a conclave, something like a loya jirga, 
where governors and city councils and people like that will 
come together, and they'll end up working out something that is 
generally acceptable to the bulk of the people--not 
permanently, but between June 30, when sovereignty is accepted 
by the Iraqi government, whatever it looks like. The current 
theory is, there'll be a president, a couple of vice 
presidents, there'll be ministries, and they will assume that 
responsibility for a period, and the period would be ended 
after they have fashioned a constitution, voted on a 
constitution by the Iraqi people, and then elected other people 
to succeed that interim group.
    Will it happen right on time? I think so. I hope so. Will 
it be perfect? No. Will it be like Afghanistan? No. You're 
right. It'll be an Iraqi solution, just like Afghanistan was an 
Afghanistan solution. Is it possible it won't work? Yes. And is 
it possible they'll stumble and wobble? Everybody stumbles and 
wobbles.

                   RECONSTRUCTING IRAQ INFRASTRUCTURE

    Senator Domenici. Mr. Secretary, let me just, for instance, 
raise one question. It would appear to me that for this to 
work, somebody has to have a plan for serious long-term 
improvement of the infrastructure of that country. That's not 
going to fall on our shoulders. Somebody has to put it 
together. Somebody has to make sure that the monies coming into 
that country are used to leverage long-term loans of a lot of 
money, or there's no chance that the Iraqis are going to buy 
this based on upon ``things will work out years from now.'' 
They've got to work out from the very beginning. And I wonder 
who's working on that kind of infrastructure assurance, or are 
we just expecting it to happen?
    Senator Stevens. That's the Senator's last question. I'm 
sorry.
    Senator Domenici. I thank you.
    Secretary Rumsfeld. The conviction on the part of the 
United States and the coalition countries has been that you 
need to make progress on Iraqis taking over governance of their 
own country, simultaneously make progress on security, and 
simultaneously make progress on essential services, the 
infrastructure, that one can't go ahead of the other. You're 
not going to get infrastructure to proceed if, in fact, 
security isn't sufficient to protect it. You're not going to 
get the governance to go forward if there isn't some progress 
on infrastructure and essential services. So that understanding 
is there.
    My personal view is that the critical ones are governance 
and security, and that the infrastructure will be something 
that will probably lag behind somewhat, and they're going to 
have to pay for their improvements in their infrastructure. The 
Congress has voted some money, the international community's 
given some money. They've got oil revenues. They are going to 
have to do that. It's going to take them time. There isn't any 
reason that country can't be as prosperous as its neighboring 
countries--Kuwait and--but that isn't going to come from us; 
that's going to come from them. And these are intelligent 
people, they're industrious people, they've got resources, 
they've got water, they've got oil revenues, and they're going 
to have to do that themselves.
    What our task is, is to pass governance to them, have them 
accept it. Will they be good at it at first? No. They're not 
going to be good at it. They've been living under a 
dictatorship. They don't know how--they're not going to be 
instantaneously successful in negotiating, compromising, 
putting their fate in a piece of paper called the constitution 
that'll protect the rights of each religious group in there. 
But they'll get it eventually, just like the Afghans are 
getting it, it seems to me.

                        SECURITY FORCES IN IRAQ

    With respect to security, it's our job to see, as General 
Myers said, that we continue to invest in recruiting and 
training and deploying and developing a chain of command so 
that the Iraqis are able to take over security for themselves. 
People can be quite dismissive of the 206,000 Iraqi security 
forces. But 300 have been killed. They've not been killed 
because they're sitting in their barracks with their fingers in 
their ear; they've been killed because they've been out doing 
the job of helping to provide security in that country. And, by 
golly, we can help train 'em, we can help equip 'em, and we can 
give them more responsibility, and they're going to have to 
take it over, because the United States has no intention in 
staying there. We're not going to make a career out of that.
    Senator Domenici. Thank you very much.
    General Myers. Let me just----
    Senator Stevens. Senator Myers, did you wish to comment?
    General Myers. Yeah, just a--I've got a short comment, Mr. 
Chairman, thank you.
    Senator Stevens. General Myers. You're not a Senator yet.
    General Myers. Thank you. On the security front, first of 
all we're going to have 20,000 additional troops in there for 
some time to come, as I mentioned in my opening statement. We 
delayed some, and we're going to replace them. So we're going 
to have in the neighborhood of 135,000 to 136,000 troops there 
for the foreseeable future to deal with the security issues we 
think we need to deal with, and that's been General Abizaid's 
request.
    Second, we're going to stand up a brand new headquarters 
that'll deal, at the strategic level, with our chief of 
mission, with other chiefs of missions, and, most importantly--
most importantly--with Iraqis. We want to go from a coalition 
in that country to a partnership with Iraq, and this means 
developing the ministry of interior, the ministry of defense, 
and have Iraqis part of that whole chain. And we see it as a 
mentoring program for a while, but eventually, as the Secretary 
says, you've got to take the hand off the bicycle seat and see 
how far they get, and if they fall over and bruise themselves 
and get cut up, then you wipe 'em off, you dry, you put a Band-
aid on the knee, and off they go again.
    We think an awful lot about how we're going to do that on 
the security front, and the equip and training of the Iraqi 
forces I won't go into again. But there's been a lot of thought 
given to that structure that we're going to. We're going to try 
to stand up that headquarters as quickly as we can, matter of 
fact. We've been working that for a couple of months now.
    Senator Domenici. Thank you, Mr. Chairman.
    Senator Stevens. Thank you.
    Senator Harkin, you're recognized for 5 minutes.
    Senator Harkin. Thank you, Mr. Chairman.
    Senator Stevens. Let me inquire anybody wish a station-
break? Okay.
    You're recognized for 5 minutes.
    Senator Harkin. Thank you, Mr. Chairman.

                CONTROL OF PRIVATE MILITARY CONTRACTORS

    Mr. Secretary, on May 7, an Associated Press (AP) story 
came out, that said a year before the Iraq invasion, the then 
Army Secretary warned his Pentagon bosses that there was 
inadequate control of private military contractors. Retired 
Army Chief Thomas White said that, ``The recent events show the 
Pentagon has a long way to go to fix the problems he identified 
in March 2002. In a sign of continued problems with the 
tracking of contracts, Pentagon officials, on Thursday, 
acknowledged they have yet to identify which army entity 
manages the multimillion dollar contract for interrogators like 
the one accused in the Iraq prisoner abuse probe. I'm still 
reading from the AP release--``Defense Secretary Donald H. 
Rumsfeld also acknowledged his Department hasn't completed 
rules to govern the 20,000 or so private security guards 
watching over U.S. officials, installations, and private 
workers in Iraq.'' Now, that's just 20,000 private security 
guards. How many more, we don't know. This article goes on and 
says, ``No single Pentagon office tracks how many people--
Americans, Iraqis, or others--are on the Department's payroll 
in Iraq.''
    I just find this disturbing that we don't know how many 
people are on the payroll, or who they are. This says to me, we 
might have a bunch of Rambos over there running around, and no 
one's got control over them.
    In a March 2002 memo, White complained to three Pentagon 
Under Secretaries that, quote, ``Credible information on 
contract labor does not exist internal to the Army 
Department.'' The Army could not get rid of, quote, 
``unnecessary, costly, or unsuitable contracted work,'' closed 
quotes, without full details of all the contracts, White wrote.
    Secretary Rumsfeld. Is this referring to Iraq or 
Afghanistan, or what? Or just generally?
    Senator Harkin. The article is on Iraq. This is just 
basically on Iraq.
    Senator Stevens. Senator, did you----
    Senator Harkin. But then----
    Senator Stevens [continuing]. What source are you quoting?
    Senator Harkin. I've quoted from this AP article. It's an 
AP article that came out on May 7. That's all I'm quoting.
    So my question, again has to do with appropriations. How 
much money is going to private contractors? We can't seem to 
get an answer to that. In Iraq. How many people are we talking 
about under these private contractors? Who screens them? Who 
approves their contracts? I guess my bottom line is, Who's 
responsible? Who's responsible for all these people?
    Secretary Rumsfeld. The Coalition Provisional Authority in 
Iraq, headed up by Ambassador Bremer, tracks these people. We 
track DOD people that are there, but they've reported to 
Congress. The Army, the United States Army, is the executive 
agent for contracting for the Coalition Provisional Authority 
(CPA). And the CPA's--the Coalition Provisional Authority's 
Program Management Office works for the United States Army.
    Senator Harkin. So the Army's in charge.
    Secretary Rumsfeld. The Army is the----
    Senator Harkin. Contracting----
    Secretary Rumsfeld [continuing]. Program Management Office 
and executive agent. I would not say that the Army would be the 
one making the decisions as to what contracts ought to be let 
for what purposes. That would be the Coalition Provisional 
Authority. But then they delegate to an existing institution, 
the United States Army, to manage the contracting of it. In 
some cases, it's been the Corps of Engineers; in some cases, 
it's been the Agency for International Development (AID); in 
some cases--the way our Government is organized is that those 
responsibilities flow down different roads, and that's the way 
the executive branch of the Federal Government's organized, 
that's the way the Congress is organized. And there is not a 
single person, I wouldn't think. Because if--AID reports up in 
the Department of State area. Just a second here.
    Senator Harkin. Could we know, Mr. Secretary, what's under 
your jurisdiction? I mean, what is under--in terms of private 
contractors and the jobs that are being done over there----
    Secretary Rumsfeld. You bet. We can give you----
    Senator Harkin [continuing]. I'd like to----
    Secretary Rumsfeld [continuing]. A complete report of it.
    Senator Harkin. Huh?
    Secretary Rumsfeld. We could give you a complete report of 
who handles what types of contracts. Corps of Engineers handles 
a whole series of contracts. And military intelligence, when 
they hire contractors, for example--I think you mentioned 
this--for the purpose of interrogation or for the purpose of 
linguists to do translation, that would be through military 
intelligence. It depends on what it is that's needed at any 
given time.
    Senator Harkin. Well, again, I'm just quoting from the 
article, because I don't----
    Secretary Rumsfeld. I haven't seen the article, so----
    Senator Harkin. It says----
    Secretary Rumsfeld [continuing]. I apologize.
    Senator Harkin [continuing]. No single Pentagon office 
tracks how many people are on the Department's payroll in Iraq, 
the Department of Defense payroll. How many civilians are on 
your payroll over there? And I would be greatly----
    Secretary Rumsfeld. We could certainly give you----
    Senator Harkin [continuing]. Disturbed if this article is 
true.
    Secretary Rumsfeld. The reference--it wasn't a quote, but 
it was a comment about--allegedly indicating something I had 
said. I've never heard of that, what you've said the article 
said I said. But we'd be happy to tell you how many there are, 
and who they are hired by, and for what purposes.
    Senator Stevens. Senator----
    Senator Harkin. If you could provide for this committee how 
much----
    Senator Stevens [continuing]. Mr. Lanzillotta wished to 
answer that question, I think.

                         REPORTING ON CONTRACTS

    Mr. Lanzillotta. Senator, I may be able to help a bit. We 
submit a quarterly report--it's called a 2708 report--that has 
a lot of that information in there. As far as contracts go, for 
the funding and the number of people, we track that on a weekly 
basis. I get that information through CPA. It comes in an 
obligation report of how much has been apportioned, how much 
has been committed, how much has been obligated. And I see all 
the funding documents that go through--on every contract, with 
the number of people--that go through there, and I personally 
sign off on those.
    Senator Harkin. So you can provide to this committee how 
much money goes through the Department of Defense to private 
contractors, one. You could provide how many civilian people 
are working under those contracts in Iraq at this time, and you 
can provide also, to this committee, the chain of command who 
is responsible for overseeing those contractors. You can 
provide all that?
    Mr. Lanzillotta. I can--let me clarify your last----
    Senator Harkin. Well, I'm just----
    Mr. Lanzillotta [continuing]. The chain of command----
    Senator Harkin [continuing]. Citing, again, from this 
article; I don't know if it's true--no single Pentagon office, 
according to this writer, tracks how many people--Americans, 
Iraqis, or other civilians--are on the Department's payroll in 
Iraq.
    Mr. Lanzillotta. If you're asking who let the contract----
    Senator Harkin. Who tracks how many people there are there?
    Mr. Lanzillotta. I can give you, and we'll provide for the 
record, the obligation data, as of this hearing date, the 
number of people that we have in the various categories, 
working. And I will provide which office did the contract.
    [The information follows:]

    According to the CENTCOM Combatant Commander, on or about 
May 12, 2004 there were approximately 12,900 U.S. contract 
employees hired under DOD sponsored prime contracts in the 
CENTCOM Area of Responsibility. Approximately 7,050 of these 
contractors are deployed in Iraq. Please note that due to the 
nature of the contract--DOD contracts for a service to be 
performed--it is up to the contractor to provide the 
appropriate number of people to perform the work. Therefore, 
the numbers that are provided above are estimates of the number 
of people that process through military entry points. This 
number changes daily.

    Secretary Rumsfeld. Let me put it this way also.
    Senator Harkin. Fine.
    Secretary Rumsfeld. We can provide that data. You keep 
going back to the point, which is a fair point, Is there a 
single office? And the answer is, no. For one, the way the 
Congress is organized and the way the statutes that the 
Congress has passed has organized the Department of Defense, 
we've got Department of Army, Department of Navy--they do 
things there, Air Force does things there. Each of the services 
do--the Marines do, and other elements. So the only place that 
information gets aggregated, the way the Congress has organized 
the Department under Goldwater-Nichols, is through the 
Comptroller's shop, where they take all of the things that 
happen in the Department and try to pull them up, I think is 
the answer to your question.
    Senator Harkin. So there's no coordination?
    Secretary Rumsfeld. Of course there's coordination. You 
didn't ask that. You asked, Is there a single office? The 
coordination takes place in the Comptroller's shop.
    Mr. Lanzillotta. We coordinate--when a contract comes 
through, we coordinate with all affected offices, to include 
the general counsel, to ensure that there are no objections and 
it is a legitimate contract.

                              CONTRACTORS

    Senator Harkin. Mr. Chairman, I know my time is up, but my 
point is that we don't know how many civilian people are 
contracted. We don't know how much they're being paid. And it 
just seems that there's no real handle on all these civilians 
over there. I just don't know. We can't seem to get a handle on 
it.
    Senator Stevens. Senator, I think that--we had a suggestion 
from Mr. Lanzillotta they'll provide us with some information. 
I think the problem is that I don't think it's all in one place 
at any one time.
    General Myers, did you wish to comment?
    General Myers. Well, I have numbers, but I think I'll defer 
to----
    Mr. Lanzillotta. Well, I can----
    General Myers [continuing]. Mr. Lanzillotta. But I have the 
number of U.S. contractors, the number of--you remember it was 
in the 1990s when we started downsizing. We cut our military by 
one-third, roughly. And the cry then was, from many people, and 
from people in the business sector, How about outsourcing a lot 
of your work? So we did that, and you remember that. We saved 
money, because we don't need a lot of folks to do dining halls 
if we only need to do that during crisis. And so that's the 
situation we are in now. We are contracting out a lot because 
of previous decisions we made, encouraged, I think, for the 
right reasons at the time. And one of the things I've asked one 
of our staff entities to do is, let's take a look at 
contracting out and see if those decisions we've made in the 
last 10, 15 years are still right for this security 
environment, because of the contractor issues we're finding on 
the battlefield.
    But I've got the numbers. I can give you down to the number 
of host nation--Iraqi laborers. There's 17,834 that are----
    Senator Stevens. General, if we may--Mr. Lanzillotta's 
going to provide----
    Mr. Lanzillotta. Yeah, I have it----
    Senator Stevens [continuing]. That for the record.
    General Myers. We'll provide it for the record, but I'm 
just saying----
    Senator Stevens. We'll review that and then have comments 
later----
    General Myers [continuing]. That I've got some pretty good 
detail here.
    Senator Stevens [continuing]. If that's agreeable with the 
Senator.
    Senator Harkin. That would be fine.
    Senator Stevens. Thank you.
    [The information follows:]

    The Department of Defense (DOD) policy is to rely on the 
most effective mix of the Total Force, cost and other factors 
considered, including active, reserve, DOD civilian, host 
country and contract resources to fulfill peacetime and wartime 
missions. One of the reasons contracts are attractive is their 
flexibility and agility in meeting government requirements. The 
government is also relieved of the cost of maintaining 
permanent force structure while maintaining contract oversight 
after contract award.
    Generally, there are two types of DOD contractors currently 
operating in OIF; those supporting DOD military efforts and 
those supporting the Coalition Provisional Authority (CPA) 
efforts. There is no single office responsible for contractor 
visibility. Instead, each individual government organization 
with a requirement that can be satisfied by contract is 
responsible for providing a contract statement of work/
objectives; funding; appropriate contract clauses, terms and 
conditions; legal review at various stages of the acquisition 
process; and contract oversight after award. This process 
provides flexibility and an adequate level of review while also 
meeting government requirements.
    The U.S. citizen contractor personnel for DOD are accounted 
for in basically the same manner as military personnel. The 
military Services account for U.S. citizen contractor personnel 
and report aggregate contractor personnel numbers monthly to 
the Joint Staff and Office of the Secretary of Defense using 
the Joint Staff Personnel Status Report (JPERSTAT). Per the 
JPERSTAT, there are 14,371 DOD U.S. citizen contractor 
personnel (as of May 25, 2004) operating in the Central Command 
area of responsibility. Approximately 7,386 of these contractor 
personnel are operating in Iraq. The JPERSTAT only captures 
U.S. citizen contractor personnel that process through DOD 
entry points or are assigned to military units in theater. The 
JPERSTAT does not capture all contractor personnel in the 
theater. It does not capture contractor personnel hired under 
non-DOD federal government contracts (e.g., CPA, Central 
Intelligence Agency, State Department, United States Agency of 
International Development). It also does not capture foreign 
national contractor personnel or contractor personnel hired 
under sub-contracts since it is the responsibility of each 
prime contractor to determine the level and nature of manning 
required to meet contract requirements (e.g., the prime 
contractor may choose to outsource a portion of the effort 
through various tiers of subcontracting relationships with 
other U.S. civilians, third country nationals (TCN), or host 
country (HC) personnel).
    Although the JPERSTAT does not provide visibility of 
foreign national or sub-contractor personnel, the Army's 
Logistics Civil Augmentation Program (LOGCAP) contract, which 
is one of the largest contracts in theater, does offer some 
visibility on the magnitude of DOD contractor personnel outside 
of the JPERSTAT process. The LOGCAP contract currently has 
approximately 1,166 TCN, 2,039 HC, and 20,462 sub-contractor 
personnel (includes a combination of TCN, HC and U.S. 
personnel).
    Contractors in support of the CPA provide reconstruction 
and other support in Iraq and protection of CPA facilities and 
personnel. Contractors under CPA contracts have no specific 
reporting requirement to account for contractor personnel 
thereby providing greater flexibility as they organize as 
necessary to perform the contract. However, through the process 
for obtaining weapons permits, CPA reports that approximately 
60 private security companies consisting of about 20,000 
personnel are currently providing security in Iraq.
    There are also private enterprise personnel operating 
outside of the DOD and CPA contract efforts pursuing commerce 
opportunities. As the theater evolves from a contingency 
operation through stability operations to normal Iraqi 
commerce, the role of private enterprise personnel will 
increase. Like other mature countries, the accountability and 
visibility of these private enterprise U.S. citizen contractor 
personnel in the future will reside with the U.S. Department of 
State working in coordination with the appropriate Iraqi 
ministry through the visa process.

    Senator Stevens. I'll now recognize Senator Bond.
    Senator Bond. Thank you very much, Mr. Chairman.
    First, I commend the Secretary and the chairman for your 
great work. I think these have been very difficult times. The 
leadership that you are providing is absolutely essential to 
support our troops and the private contractors who are engaged 
in a very important mission, and we are grateful for that.
    I will have a lengthy statement for the record that 
somebody may wish to read, but I will feel better for having 
submitted it, because I have some strong views that I will 
include in it.
    [The statement follows:]
           Prepared Statement of Senator Christopher S. Bond
    Secretary Rumsfeld, General Meyers, Mr. Lanzillotta, thank you for 
appearing before the committee this morning. We meet under challenging 
circumstances by any measure. Military operations in Iraq and 
Afghanistan coupled with the nation's ongoing global war on terror 
demand our constant attention and focus.
    The Abu Ghraib prison investigation that has demanded much 
attention recently has only added to the workload unfortunately. I have 
read Major General Antonia Taguba's report and concur with statements 
made by Major General Taguba; that the abuses at Abu Ghraib represented 
a total breakdown in supervision, training, discipline and leadership 
and were exacerbated by a shortage of trained personnel. The abuses at 
Abu Ghraib that have been documented so vividly are not reflective of 
the United States military that American's have come to revere and 
respect.
    As was viciously portrayed by yesterday's Al Qaeda video showing 
the beheading of an American civilian and non-combatant, Nick Berg; our 
enemy is the terrorist who targets innocent civilians and the terror 
organizations and regimes who support terror as a legitimate political 
tool. The beheading of Nick Berg is another wake-up call for all of us. 
I am getting this sense, particularly in the wake of the Berg killing, 
that we should be careful to manage the prison issue, and not overdo 
it. Berg's murder demonstrated the stark contrast between the 
wrongdoings at Abu Ghraib and the evil evident in the beheading of a 
non-combatant civilian. We are once again reminded of the true nature 
of the enemy and why we are fighting them. Unfortunately I fear the 
continued political rhetoric here at home will have a detrimental 
impact on troop moral. We need to focus our energies on the war on 
terror, which we cannot afford to lose.
    Recently, I received the United States Department of State's annual 
report, Patterns of Global Terrorism for 2003. The report reveals that 
the year 2003 saw the lowest annual level of terrorist attacks since 
1969 which indicates that much progress has been made in combating 
terrorism. Almost 70 percent of the senior al-Qaeda leadership, and 
more than 3,400 operatives or associates, have been detained or killed 
in over 100 countries. The global war on terror is not over, nor will 
it be anytime soon. That is why we must focus our energies on winning 
this battle. As was stated so clearly by a DefenseNews article, 
Repercussions of Failure, April 19, 2004,

    ``A successful campaign by insurgents to drive coalition forces 
from Iraq would constitute a shattering blow to the U.S.-led global war 
on terrorism and jeopardize governments that have cast their lot with 
Washington, according to U.S. officials and Arab analysts. `The price 
of failure in Iraq would be catastrophic,' one senior U.S. State 
Department official said. `Anything that defeats the expression of U.S. 
and allied power against terrorism will create the impression of 
weakness that terrorists worldwide will exploit.' ''

    The Administration has indicated that it will forward a $25 billion 
supplemental request for the incremental costs associated with ongoing 
operations in Iraq and Afghanistan. I understand the defense 
appropriations subcommittee will hold a separate hearing on the 
supplemental. I look forward to reviewing the administration's request, 
and will work with Chairman Stevens and Senator Inouye in providing 
whatever funds and resources are necessary to support our warfighters 
and the global war on terror.
    The reliance on our National Guard and Reserve forces to prosecute 
the war on terror is increasing. I understand Secretary Rumsfeld is 
working with Lieutenant General Blum, Chief of the National Guard 
Bureau and the Reserve Chiefs, to improve the predictability of 
mobilizations for our nation's Reservists while re-balancing the active 
duty-reserve force mix so as to improve the overall capabilities of our 
military. As a co-chair of the Senate National Guard Caucus, along with 
my colleague Senator Patrick Leahy, I am committed to working with the 
Department of Defense to improve the capabilities of the National Guard 
and its ability to support the nation's military strategy. Were it not 
for congressional increases in accounts such as the National Guard and 
Reserve Equipment Account I am certain that the gap in capabilities 
between the active component and the Reserve component would widen.
    Additionally I am concerned about the rising cost of modern weapons 
systems as exemplified by aviation programs. Unconstrained cost growth 
in the F/A-22 has limited the number of platforms available to fully 
equip our aviation units under the current congressionally mandated 
cost caps. The troubling cost growth in the F-35 so early in the 
program threatens to duplicate the lesson of the F/A-22. The Army's 
decision to cancel the Comanche light attack helicopter program further 
illustrates what awaits a program that is unable to control costs. We 
should not be held captive to rising and unconstrained development 
costs. This is why I support a competitive industrial base through the 
continued production of a limited number of F-15 aircraft so that the 
warfighter, and the taxpayer, will have an alternative should the 
desires of the U.S. Air Force not be met because of limited resources.
    The need to transform the force while executing the global war on 
terror is not an enviable task. It has been acknowledged that the 
Department of Defense has an inordinate tail to tooth logistical load. 
Unless we reverse this, our ability to field an efficient fighting 
force will suffer. If segments of the bureaucracy within the Department 
of Defense are not responsive to the needs of the warfighter then they 
should be replaced, disbanded or its functions transferred to the 
civilian sector. In my effort to improve military mail operations and 
Voting Assistance Programs I have come to understand how a sluggish and 
unresponsive bureaucracy can impact negatively support to our forces. 
That is why I recently wrote to Secretary Rumsfeld to ascertain why the 
recommendations of the Military Postal Service Task Force to out-source 
some, or all, of MPS functions were not carried out.
    Secretary Rumsfeld, General Meyers, our forces rely on your 
leadership for their welfare and on the Congress for the resources 
necessary to sustain a vibrant and effective fighting force. This is a 
partnership that must flourish if our forces are to have the optimum 
tools necessary to carry out their mission. We have the best fighting 
force in the world. Our military forces deserve leaders and policy 
makers who will put their welfare ahead of political or personal gain.

                 REBALANCING ACTIVE AND RESERVES FORCES

    Senator Bond. Senator Cochran has already asked about the 
OPTEMPO and increasing reliance on the Guard. As co-chairman of 
the Guard Caucus, I'm very proud of the what the National Guard 
is doing in answering the call to duty.
    And I'd like to ask your comments on, How is the review on 
re-balancing the forces, adjusting the mission and the force 
structure--how is that progressing? And what is necessary from 
this committee and this Congress to support our troops--not 
just Guard and Reserve, but all of our troops--in seeing that 
they can win a war which, once again, yesterday, we were 
horribly reminded is a war against the forces that would 
destroy civilization, that depend upon and act with pure evil 
intent?
    Secretary Rumsfeld. Senator, I would characterize broadly 
the process of re-balancing the Guard and Reserve and the 
Active components with the Reserve components as progressing 
quite well. In fact, I've been quite impressed with the speed 
that the--particularly the Department of the Army has 
demonstrated in addressing it. And, of course, the Army is the 
biggest place that this needs to be done. And they've been 
addressing it with a good deal of, I thought, excellent work, 
and the process is underway. They're doing that, simultaneously 
with the task of increasing their combat capability from 33 
brigades to 43 brigades, and moving to a more modular approach, 
and all of that takes time.
    We've overused military police. We have overused certain 
civil affairs Reserves and Guard because of the way the total 
force was structured. That's being shifted, and it'll take, I'm 
going to guess--oh, goodness, it'll probably take 2, 3 years, 4 
years, to get it done. David Chu, is that about right?
    Dr. Chu. Yes, sir.
    Secretary Rumsfeld. But we've got a good start on it.
    Senator Bond. One of the things that pundits are raising is 
the problems that they see coming down the line with 
recruitment and retention. I've heard, anecdotally, some very 
good news on those subjects. What do you see, from the 
Department level, about recruiting and retention?
    Secretary Rumsfeld. Well, I look out there, and it's foggy, 
it's blurred. I'm worried. On the other hand, the data we get 
is very positive. We are clearly retaining and recruiting the 
skill sets we need in the Armed forces. And that is enormously 
encouraging. I have no idea how fast that could drop off. And 
we have to constantly try to refine our ability to look out 
there and to take steps in advance.
    For example, when we had to extend some Guard and Reserve 
people beyond the 365 days in Iraq to another 90 days because 
of the situation on the ground, we didn't want to do it. But 
General Abizaid said he needed an additional 20,000 forces. We 
said, ``Fair enough. What's the best way to do it?'' And that 
was the best way to do it. But we immediately stepped in and 
provided some compensation for those individuals, who served 
various portions of 3 months.

                              MAIL SERVICE

    Senator Bond. Mr. Secretary, I appreciate that. I know you 
wouldn't be satisfied if I didn't raise one issue that I 
brought to your attention before. It has to go to morale. It is 
the question of military mail delivery. We've discussed this on 
many occasions. I know you have many other issues of great 
importance, like protecting lives, feeding our troops and 
providing munitions. But I understand this is a very real 
concern to the men and women over there. And having some 
personal interest in that, as well, to which I confess, I 
wonder if you had looked at outsourcing some of the mail-clerk 
functions in working with the U.S. Postal Service to assure the 
mail delivery is improved.
    Secretary Rumsfeld. I have not looked at that. I know that 
the subject of mail delivery is, as you point out, an 
enormously important one, and that the services and the Central 
Command have all been working on it. I know they've even 
particularly looked at it from the standpoint of the 
difficulties they had with respect to all the elections that 
are taking place this year. And coming over in the car, David 
Chu briefed me that they have been working the--Department of 
Defense has been working with the Postal Service to try to find 
ways to improve that, and believe they've made progress.
    General Myers. The reports I've seen, Senator Bond--and 
I've seen--I get reports from time to time--shows that it's 
getting better. I don't think it's where it needs to be yet, 
and we have to continue to find ways to--but, you know, when I 
was commander of U.S. forces in Japan, a fairly mature theater, 
in the mid-1990s, we still had problems over there because of 
just handling procedures, where all the mail would go into 
Narita, and then it had to be brought to Yokota, and then it 
had to be--and so it was--we were constantly working that 
problem. It's obviously a worse situation in Iraq, and we've 
got to find ways to work around that. And it's critical to 
morale. We understand that.
    Secretary Rumsfeld. They also have tried to find locations 
where they could put phones and computers for e-mail access, 
which is a part of the problem, and that's been working well.
    Senator Bond. Thank you.
    Senator Stevens. You should revive the V-mail. We used to 
get V-mail. It would all go to one place, and then be sent by 
telegram, and then they'd package it up on the other end. Isn't 
that right, Dan?
    Our next----
    Senator Leahy. It's called the Internet now, Ted.
    Senator Stevens. Senator Durbin.
    No, it--e-mail is something different, because they would 
take your letter that your mother wrote you, and they'd put it 
into a telegram and send it over, and they kept the mother's 
letter. It was a different thing.
    Senator Durbin.
    By the way, you're not that old, anyway.
    We're going by seniority, then, Senator Feinstein, you're 
first, if you'd wish to yield to her, Senator Durbin.
    Senator Feinstein.
    Senator Feinstein. That's very generous. Thank you.
    Thank you very much, Mr. Chairman.
    I have just one quick question on Abu Ghraib for General 
Myers, if I might, because I think it needs to be cleared up. 
General Taguba testified yesterday, and let me just quote, 
``Failure in leadership from the brigade commander on down, 
lack of discipline, no training whatsoever, and no supervision 
were the root of the problem.'' My question to you is, What 
have you done to remedy this problem? If you could specifically 
speak to each of those--lack of discipline, no training, no 
supervision.
    General Myers. On the discipline issue, quite frankly, what 
was done was to replace the unit and put a unit in there that 
was a better unit. And I hate to get into more specifics, 
because it then starts to prejudice any action you may want to 
take against any of the----
    Senator Feinstein. I'm not asking you for that. I'm asking 
you for the remedy.
    General Myers. The remedy was another--the immediate remedy 
was another unit, to put another unit in charge. This was, as 
the Taguba report--now everybody has read it--this was a unit 
that had issues with just adhering to the Army's standards. 
Their uniform--they didn't have standardized uniforms, they 
were allowed to carry guns in their civilian clothes when they 
were off duty, they had things written on their cap, they 
didn't particularly want to salute. This was a unit that had 
those exact--so the first thing you do is, you replace the 
leadership of the unit. They have done that.
    Now, the Army Reserve and the Active Army, there are other 
investigations and looks going on. General Helmly, the Chief of 
the Army Reserve, is looking at other Reserve units to work the 
training issues and the discipline issues to make sure 
everybody's compliant with Army standards. So that process is 
underway. We have not seen that review. We should get a 
midcourse report on that here fairly shortly, and we'll be 
happy to share that, because that's part of it. And that will 
deal with both the training and the discipline part.
    And then the last part you said was--you had----
    Senator Feinstein. Supervision.

                                 ABUSE

    General Myers. Supervision, right. And there are a couple 
of things going on in that regard. I think the General Helmly 
Report will help. There's also the General Fay look at the role 
that military intelligence played in this whole business, and 
in detainee affairs. General Fay is looking at that. He's been 
in Iraq. He's now in Germany. Part of the issue is that the 
folks that he wants to talk to are now scattered. They're no 
longer in Iraq. They're either in Germany or they're back in 
the United States, or perhaps other places. So it'll take him 
some time to go through that. We'll be getting an interim 
report from him, as well. I'm sure the Secretary will make that 
available if required. But that's what we're doing to remedy 
those problems.
    Senator Feinstein. And do you personally look at autopsy 
reports of detainees who die in custody?
    General Myers. No, I do not. What I look at is--I am--I 
look at the allegations of abuse, and I look at what is being 
done to investigate and correct the situation. I do do that.
    Senator Feinstein. Just a suggestion, it might be a good 
idea.
    General Myers. Well, I do--I see--I mean, I see the 
reports. I wouldn't call them autopsy reports. I see the 
allegations of abuse. Usually in there is a description of the 
abuse. I wouldn't call them autopsy reports, but I see the 
words that talk about the type of abuse and the effect it had 
on the individual.
    Senator Feinstein. Right. I'd like to ask you--because 
we've talked about this privately--I'd like to ask you a 
question about the heroin--or the opium poppy production in 
Afghanistan. And you've been very kind, you've reported back to 
me, and I appreciate that. But I want to indicate my very deep 
concern about the fact that tens or even hundreds of millions 
of dollars have flowed from illegal heroin trade directly into 
the hands of terrorist organizations, like al Qaeda. And today 
Afghanistan is producing more poppy than ever. About 75 percent 
of all of the heroin sold in the world is being produced today 
in Afghanistan, $2.3 billion. It's my understanding that an 
early harvest has produced as much as a 50 to 100 percent 
increase in production from the 2003 estimates.
    Now, here's my question. Are we protecting warlords in 
Afghanistan who are growing poppy or producing heroin? Are we 
holding back on eradicating crops for political reasons? So 
what is the reason for the absence of military force to 
eradicate the opium poppy in Afghanistan?
    General Myers. Senator Feinstein, as we've discussed, and I 
think you're focused on a very important issue--and I traveled 
to Afghanistan--and now it's about 3 weeks ago, I guess. When I 
talked to our Ambassador there, Ambassador Khalilzad, and our 
military personnel, and the Ambassador's staff, they described 
this issue as one of the big strategic issues for the future of 
Afghanistan. As you know, the United Kingdom has the lead, 
and--overall, for the international community, to deal with 
this. The State Department has the U.S. Government lead for 
this. I think what needs to be done is, we need to hear from 
the Ambassador what kind of plan he would put in place to deal 
with this effectively, and then we have to resource it. It's 
going to require additional resources to what we have in 
Afghanistan today. And I'm not talking now just with military 
resources, but my understanding is we're going to need a lot 
more of the type of resources that deal with drug issues, Drug 
Enforcement Administration (DEA) and others. And I think we'll 
be hearing from the Ambassador on that, if they haven't 
already, because we had a long talk about that when I was 
there, based partly on our conversations, because that was--it 
is a critical issue.
    On the issue of warlords, I don't know that you can say one 
way or the other. You'd have to guess, though, that probably a 
lot of the warlords, or some of the people they support, are 
involved in this. And that's why it's going to take more 
resources to work this issue and come up with policies to work 
this issue. That's a guess on my part. I have not--I'd have to 
go back and research the intelligence. I'm sure there are some 
that have to be involved. That's a way of life for some of 
them, and you just have to assume it is.
    Senator Feinstein. Thank you.
    Mr. Secretary, could I ask you a quick question? Last----
    Senator Stevens. This will be the Senator's last question.

                    ROBUST NUCLEAR EARTH PENETRATOR

    Senator Feinstein. Is my time--last question, I'll be fast. 
Last year, I asked you, at this hearing, about the robust 
nuclear earth penetrator, and you told me it was just a study. 
Since that time, it's changed rather dramatically. The 
Congressional Research Service (CRS) reports that the 
administration's budget calls for spending $485 million over 
the next 5 years just on the robust nuclear earth penetrator. 
And the report says, and I quote, ``The study is examining 
feasibility and cost, yet the 2005 request seems to cast 
serious doubt on assertions that the robust nuclear earth 
penetrator is only a study,'' end quote.
    In light of this, are you still going to say to us that 
this is just a study, or is the administration intent on the 
development of a nuclear earth penetrator?
    Secretary Rumsfeld. A decision to go forward with a earth 
penetrator has not been made. A decision to determine whether 
it's possible to have one that could help solve some potential 
problems has been made. So that work is going forward, and the 
money has been requested of Congress.
    I don't--what I can do is--I don't believe the studies have 
produced the kind of information that would enable one to say, 
at this stage, that the development should go forward. But, 
clearly, with the amount of underground activity that exists in 
the world--and it's pervasive in country after country, that 
people have tunneled underground--North Korea is a perfect 
example, certainly Iran is, we have found this in country after 
country. And the question is, If that is a problem, what might 
be done about it? Your first choice would be to find some 
obviously conventional way to do it. They've looked and looked 
and looked, and this additional way is, at least in my view, 
worth studying. And at that point where it migrates over into a 
program, clearly the Congress would know and would have to make 
a decision on it.
    Senator Feinstein. Would you permit me just one quick 
comment? Since we got into this, I've done my own study and 
talked with physicists, and what they tell me is, there is no 
known casing that can get a device deep enough--which would 
have to be between 800 and 1,000 feet--to prevent huge nuclear 
fallout. I'll just leave you with that.
    Secretary Rumsfeld. Maybe we ought to hire them.
    Senator Feinstein. Sidney Drell, physicist, Stanford 
University.
    Secretary Rumsfeld. Right, I know who he is. Right.
    General Myers. Mr. Chairman, Senator Feinstein, if I may, 
just one more comment. There is a lot more that Central 
Command--I talked about the general problem--there's a lot more 
that Central Command is doing, in terms of funding and in 
instructions to the troops in Afghanistan that I'd like to 
provide you for the record, if I may.
    Senator Feinstein. I would appreciate that.
    [The information follows:]

    [Deleted].

    Senator Stevens. Thank you very much, General.
    I'm going to go out of order and recognize Senator 
Hutchison. I understand she has a problem.
    Senator Hutchison, you're recognized for 5 minutes.
    Senator Hutchison. Oh, thank you, Mr. Chairman.
    Mr. Chairman, I want to add a story to the one that General 
Myers told at the beginning of this hearing, and it is one 
about which I know personally.
    Senator Stevens. Pull your mic up, please, Senator. Just 
pull it toward you.
    Senator Hutchison. Okay.
    Senator Stevens. They're all live.
    Senator Hutchison. I want to----
    Senator Stevens. All these mics are live.
    Senator Hutchison. Okay. I want to add to your story, 
General Myers. I went to college with a friend who was a great 
football star at the University of Texas. He had one son. We 
all thought he would follow his father's footsteps to the 
University of Texas. But he only had one dream. The son wanted 
to go to the U.S. Naval Academy. And because he was so 
qualified, I was proud to give him my appointment.
    That young man, a marine, participated in the march to 
Baghdad, came home. He is now back in Iraq, somewhere around 
the Fallujah area, doing his job, and wrote me a note saying, 
``Thank you, Senator, for giving me the opportunity to do 
this.'' So I do hope that we can put those and the stories of 
Pat Tillman out there when we are going through this very hard 
and difficult time.
    The second thing I want to point out, that has been stated 
in the media and by others, there continue to be questions 
about whether al Qaeda and the war on terrorism are really 
connected to Iraq. Well, I think we found out yesterday--and 
something you added to today, General Myer--that an al Qaeda-
connected animal perpetrated a heinous crime on videotape in 
Baghdad, because the body was found there, unfortunately. 
Similar atrocity in Pakistan to a journalist named Danny Pearl, 
videotaped. That reporter was reporting on al Qaeda at the 
time.
    So I think if anyone is going to question whether the war 
in Iraq or Afghanistan, either one, are connected to the war on 
terrorism and all these loosely affiliated organizations, that 
they're answering that question for us as we speak.
    I wanted to ask a question, and Senator Feinstein made 
several of these points, but there was one other, and that is 
regarding the prisons. One of the other reasons, or allegations 
made, was that there weren't enough guards to guard the number 
of people who were in those prisons. You, Secretary Rumsfeld 
and General Myers, and others in this administration, started 
looking at this situation apparently the very day you heard, 
which I think you should be commended for doing. So you have 
had the investigations, which started in January. Have you 
determined that there are enough guards now? Has that situation 
changed in any way? Or if that's not appropriate to answer 
whether it's changed, do you feel that you have the funding or 
the facilities and the number of guards needed to meet our 
standards in the treatment of prisoners in Iraq, Afghanistan, 
Guantanamo Bay, or anywhere else that we may be needing to 
hire--to watch, guard, and interrogate, properly, prisoners?

                          TROOPS IN ABU GHRAIB

    General Myers. To go back to the beginning, we were in a 
closed hearing yesterday in front of the House Appropriations 
Committee, Subcommittee on Defense, and General Taguba was with 
us, and the question was asked, Did the--you know, how many 
troops did we have in Abu Ghraib, at that time, providing 
security in detainee operations? And he said, ``Well, they 
didn't have enough at the time, but the brigade could have 
reallocated some of their forces to that situation, which was 
not done.''
    From what I know today--and I'll probably have to get you 
an answer for the record--but from what I know today, that 
situation has been corrected. We have made a lot of corrections 
over time, over the last couple of months, to ensure that the 
folks that are responsible for detention operations have the 
people they need to do the job. But I'll double-check, and I'll 
give you an answer for the record on that.
    [The information follows:]

    As of May 28, the number of MP guards vice detainees in Abu 
Ghraib prison was 450 to 4,561 or approximately a 1:10 guard to 
detainee ration.
    As of June 22, the number of MP guards remains the same 
with 450 guards, but the number of detainees is now 2,262 or 
approximately a 1:5 guard to detainee ratio.

                       MANAGING DETAINEES IN IRAQ

    Senator Hutchison. And do you have the facilities that you 
need at this time for the number of prisoners we have----
    General Myers. I think----
    Senator Hutchison [continuing]. And the number of guards?
    General Myers [continuing]. I think, for the most part, we 
do. Now, we have--I think--yes, ma'am, we do. We have--right 
now. But, you know, these are--this is a continuing issue, 
where we get reports from the International Committee of the 
Red Cross, of our own commanders looking at the situation, so 
it's a matter of continuing improvement, which is appropriate, 
and would have to change over time. But the situation that was 
described in the Taguba report that he saw in the January/
February timeframe, those have been corrected.
    Secretary Rumsfeld. May I just add that over the period of 
time in Iraq, some 43,600 people have been captured and 
detained for some period of time. Of those, 31,800 have been 
released. And the remainder currently detained is about 11,800. 
That is not a fixed population. It's constantly changing. There 
isn't a week that goes by that our forces don't scoop up, you 
know, 4, 5, 6, 8, 10 a day and move them into one of the 
detention centers. And, simultaneously, there's a process, as 
you can imagine--if we've already released 31,800 out of 
43,000--our goal is to get as many out of there as fast as we 
can, as soon as we believe that's the appropriate thing to do. 
There's no one in the United States Government who wants to be 
a jailer and hold people that we don't need to hold.
    So there's constantly a group coming in, and constantly a 
group going out. And currently the population is about 11,000.
    Senator Hutchison. Thank you.
    Thank you, Mr. Chairman, for----
    Senator Stevens. Thank you very much.
    Senator Dorgan is recognized for 5 minutes.
    Senator Dorgan. Mr. Chairman, thank you very much.
    I regret I was not here at the first part of this hearing. 
But I welcome the Secretary and General.

                     FISCAL YEAR 2005 RESERVE FUND

    Let me ask a question, if I might, about the $25 billion. 
And I understand that you've been asked some questions about 
that. There was a piece in the newspaper today, here on the 
Hill, that said that the Senate majority leader's senior staff 
was saying that there's a school of thought that Congress 
should double the administration's request to amend its 2005 
budget request by $25 billion, and so talking about increasing 
it from $25 to $50 billion. I understand the request has not 
even yet been made. So what I'm trying to understand a bit here 
is, the $25 billion that has been discussed that I think the 
chairman will ultimately hold a hearing on, is that money that 
relates to this current fiscal year, or is that a reserve fund 
for the next fiscal year?
    Secretary Rumsfeld. The answer, sir, is that the White 
House, the Office of Management and Budget, the leadership in 
Congress in the House and Senate, and in the Appropriations 
Committees are currently debating that. What they're doing is, 
they're, at the moment, calling it a reserve, and the number 
is--that the President proposed was $25 billion. And that was a 
judgement that that would be appropriate to move us until such 
time as a full 2005 supplemental could be passed by Congress 
sometime next year, after Congress gets back, reorganizes, and 
acts on it, probably sometime in the April period.
    You want to say--I can't read your writing, I'm sorry.
    Mr. Lanzillotta. Yes, Senator. It was based on what we 
thought to alleviate the risk, or reduce the risk, in cash-
flowing the service operation and maintenance (O&M) accounts 
for that period of time that the Secretary talked about.
    Senator Dorgan. For what period of time, now?
    Mr. Lanzillotta. Well, from the period of time from October 
1 until the Congress could act on a supplemental request. So we 
looked at our spend rates, decided that this reserve account 
would help us reduce our risk of cash-flowing those accounts, 
to have the services avoid reducing training or other type 
activities.
    Senator Dorgan. If I might ask, the $60 billion that we 
previously appropriated was expected to last until a request 
would come in next January, so that would have been money that 
would have been available through this fiscal year, into the 
next fiscal year, is that correct?
    Mr. Lanzillotta. No, Senator. The money--the $65 billion 
that was appropriated, that was for fiscal year 2004. That 
money was never intended to last past October 1.
    Senator Dorgan. So money for the costs of the prosecution 
of the war in Iraq, and also activities in Afghanistan, would 
have come from the regular Pentagon budget from October 1 until 
some subsequent date, when the Congress would pass another 
emergency supplemental, is that the case?
    Mr. Lanzillotta. What the intent was--that we would cash 
flow the accounts and put a supplement request in to cover 
those costs.
    Secretary Rumsfeld. The way I think of it is this, that we 
were, in effect, asked by the Congress not to try to guess what 
the war would cost and put it in the regular budget, which, of 
course, the regular budget for 2005 was prepared last year, and 
then submitted to the President in December, and then to the 
Congress in February, and now we're into May, and it's for the 
period starting October 1 for a whole 'nother year. So there's 
no way to look into that future well, or precisely. And so the 
judgement was made not to budget for it, but to come in with a 
supplemental.
    From a management standpoint, it is very tough on the 
Department of Defense. When the world changes, as it has, we 
have the higher level of forces there, it's a more difficult 
situation, and, therefore, the amount of cash flowing that 
would have to take, taking money out of money account, sticking 
it into another account, has grown. And we looked at it, and 
the President did not want to go up and ask for a $25 billion 
reserve, but I went to him, as I have to, and told him the 
truth, and the truth is, we need the money if we want to reduce 
the amount of cash flow, robbing Peter to pay Paul and then 
trying to correct it at the end.

                  BUDGETING FOR CONTINUING OPERATIONS

    Senator Dorgan. Well, I would expect everyone on this 
committee would feel that we don't want to withhold $1 that is 
necessary for the safety of the troops that we've put in harm's 
way. Whatever is necessary to protect them and provide for 
them, that which we think is important for them, we want to 
provide. But you indicated that you felt that the Congress had 
asked that you not include these funds in the regular 
appropriations request. I mean, my own feeling is, it's been a 
bit frustrating, because we get the budget, and the budget for 
the Department of Defense has zero in its request for Iraq and 
Afghanistan. We know that there are ramped-up, continued 
operations that----
    Secretary Rumsfeld. Right.
    Senator Dorgan [continuing]. Will be there for some long 
while. And I understand there is a need, and will be a need, 
for emergency supplementals, but I would--I think it would make 
more sense, at least in the regular budget process, as well, to 
recognize we're at a different level here, and these routine 
and--not routine; I shouldn't say--the continuing operations in 
Iraq and Afghanistan ought to be at least accounted for, in 
some measure, in the regular budget process.
    Secretary Rumsfeld. It's a fair comment. And I felt that 
way, as well, 2 years ago, and tried to do it. And we were in 
Afghanistan at that time, and it was clear that it was going to 
cost some money, so we proposed $10 billion, and the Congress 
rejected it all, 100 percent of it, and said--now, here's the 
tension, the dilemma. The earlier you ask for the supplemental, 
the less you know, and the less precise you can be. And, 
properly, Senators that have the responsibility for managing 
the taxpayers' money look at it and say, ``Well, it's not very 
precise.'' And that's true. And the later you wait for a 
supplemental, the greater knowledge you have, the more precise 
it is, but the longer you've passed the time when you have to 
begin doing this cash flowing and taking money out of here and 
putting it in there. So the cycle is so long--the budget 
cycle--when we have to prepare this last year, get it to the 
President, get it up here, for a year that doesn't start until 
October 1, it's just a difficult problem.
    Senator Dorgan. Well----
    Secretary Rumsfeld. I could do it either way, myself.
    Senator Dorgan. Yeah, at least speaking for myself, I would 
prefer that we try to recognize we're ramping up to a different 
level and it's going to be continuing for some while, and see 
at least a part of that, to the best extent we can estimate it, 
in the regular process.
    Just one final question. Do I have time for an additional 
question, Mr. Chairman?
    Senator Stevens. No, you don't. Sorry.
    Senator Dorgan. Okay, thank you.
    Senator Stevens. Our next Senator is Senator Specter, by 
seniority.
    Senator Specter. Thank you, Mr. Chairman.

                     ASSASSINATION OF NICHOLAS BERG

    Mr. Secretary, Mr. Nicholas Berg, who was the victim of a 
brutal assassination, as we all know, was a Pennsylvanian. And 
in talking to his lawyer yesterday, I tried to get some of the 
particulars about what happened to him when he was held in 
detention--reportedly initially by Iraqis, and then later by 
U.S. military--and a lawsuit was filed in the Federal court in 
Philadelphia; and shortly thereafter, Mr. Nicholas Berg was 
released. I would appreciate it if you would give your personal 
attention to assist in answering some of the questions which 
the family is now posing as to exactly what happened to him 
during the detention period, why he was detained, and the 
circumstances of his release. The case was never litigated, but 
it was filed.
    Secretary Rumsfeld. Senator, we will be happy to ask 
someone in the Department of the Army probably, and, if not, 
the General Counsel's Office, to focus in on this and be in 
touch with you.
    [The information follows:]

    Due to the fact that a number of different entities, including the 
Iraqi police, had contact with Mr. Berg during his detention in Mosul, 
it is not possible to provide a definitive account of his detention and 
release. Nonetheless, the following is a summary of the facts as we now 
understand them.
    On March 25, the Iraqi police in Mosul detained Mr. Berg for 
``suspicious activity'' and for his personal safety. He was taken to a 
police office and placed in a spare break room typically used for 
eating and resting, rather than a jail cell. He was placed in this room 
because it was private and cleaner than the cells and because he had 
expressed concern about being in a cell with Arab inmates and guards 
due to the fact that he was Jewish. This break room is located in the 
same building as the Iraqi police office, which is connected to the 
Digala Police Station. Coalition forces, who were present in the Iraqi 
police office to provide assistance to the police, provided Mr. Berg 
with a cot, blanket, and food. The FBI interviewed him later that day 
and took his fingerprints. The FBI interviewed him again on March 26.
    On March 28, Mr. Berg was moved to a cell in Digala Police Station, 
one that the Iraqi police had cleared specifically for him, because it 
was no longer practical to keep him in the spare break room. After he 
was moved to Digala, the Coalition forces' involvement with Mr. Berg 
was minimal, although they did interpret directives to Mr. Berg.
    On April 1, an officer of the Coalition Provisional Authority (CPA) 
informed the U.S. Consular Officer in Baghdad that Mr. Berg was being 
detained by the U.S. military. We note that this information, which the 
U.S. Consular Officer provided to Mr. Berg's family at that time, 
appears now to have been incorrect; it is our understanding that Mr. 
Berg was, in fact, being detained by the Iraqi police. The U.S. 
Consular Officer in Baghdad also notified Mr. Berg's parents that all 
questions about Mr. Berg should be directed to the FBI.
    On April 3, the FBI interviewed Mr. Berg for a third time. In 
addition, the Iraqi police obtained his possessions from his hotel room 
at his request, paid his hotel bill with his money, and stored his 
possessions at the police station.
    By April 4, the Iraqi police were prepared to release Mr. Berg, and 
the FBI had finished interviewing him. FBI, U.S. military, and CPA 
personnel were concerned, however, for his safety in Iraq if he were to 
be released and remain there. On April 6, a CPA officer in Mosul, along 
with a Public Administration Officer of the 416th Civil Affairs 
Battalion posted with CPA-Mosul, met with Mr. Berg and did the 
following:
  --offered to provide him with financial assistance (which he 
        refused);
  --asked him to sign a Privacy Act Waiver so that the CPA could 
        respond to his parents and his Member of Congress (he refused);
  --counseled him to leave Iraq for his own safety and offered him 
        transportation assistance (he said he would go to Baghdad in a 
        few days because he wanted to spend more time in Mosul, and the 
        assistance we offered would have taken him out of Mosul on the 
        next MILAIR [military] flight and then to Jordan in the next 
        few days);
  --asked him to check in with the U.S. Consular Officer in Baghdad (he 
        agreed);
  --watched him inventory his possessions, taking account of his 
        concern that some money was missing; and
  --had him sign a paper confirming that he received the above 
        information.
    At that point, Mr. Berg was released from Iraqi police custody. Mr. 
Berg indicated that he would not be leaving Iraq right away because the 
road to Amman had been closed indefinitely.
    At some point between April 8 and April 10, the U.S. Consular 
Officer spoke by telephone with Mr. Berg and offered to assist him in 
obtaining a seat on a charted Royal Jordanian Airlines flight from Iraq 
to Jordan. We understand that he declined that offer and stated that he 
would be traveling to Kuwait with a convoy of journalists. The U.S. 
Consular Officer reminded him of the security risks of traveling in 
Iraq and asked him to call his mother upon arrival in Kuwait. We 
believe that this was the last contact the U.S. Consular Officer had 
with Mr. Berg.

    Senator Specter. I would appreciate it. And there's one 
other request which the family has made. Mr. Berg's body is 
being returned to Dover, and the family would like to meet the 
body on arrival, and they have made a request to be with their 
deceased son. But they are not permitted to come onto the base, 
as I am told, unless there is a waiver. And I would appreciate 
it if you'd take a look at that and see if we couldn't 
accommodate their request.
    General Myers. You bet.
    Secretary Rumsfeld. Be happy to.

                   ASSISTANCE TO IRAQ: GRANT OR LOAN?

    Senator Specter. Mr. Secretary, on the issue of the funding 
in Iraq, when the $87 billion was requested some time ago an 
issue arose as to whether some $10 billion ought to be in the 
form of a loan to Iraq, on the consideration that Iraq has 
enormous oil reserves and enormous potential resources. And it 
is obviously a difficult matter to draw the line on what would 
be appropriate for Iraq to pay for--rebuilding the country, for 
example, or rebuilding their infrastructure. Where we have 
costs of the military operation, that is something different. 
But I think it would be very useful to this committee and the 
Congress if we had an idea, with some particularization, as to 
what money is being spent, and for what purpose, so that we 
could try to make a judgment as to what would be appropriate to 
have paid for by Iraqi resources which are obtained at some 
later date, sort of on the analogy of a trustee in bankruptcy. 
We're a trustee, and there are international aspects of it with 
the United Nations and the World Bank and the International 
Monetary Fund. So it would not be something that we would make 
a judgment on, but at least if we knew what the accounts were, 
we would then be in a position to try to make some 
determination as to where we would like to see some of the 
money in a loan form.
    The President was very insistent on having it in the form 
of a grant, and he met with a number of us, and ultimately we 
made a decision--I did, personally--to honor what the President 
wanted to do, to try to get it done faster in a critical 
period, trying to get other countries to make loans. But as the 
matter progresses and evolves, I think it is something we ought 
to revisit.
    Can you see any of those expenditures at this moment which 
you think ought to be paid for by Iraq, as opposed to the 
American taxpayers? We're getting a lot of comment as we--the 
taxpayers are concerned, as we face a very tight domestic 
budget--as to why those expenses are not being borne by Iraqi 
resources.
    Secretary Rumsfeld. Senator, I recall the debate, and it 
was a perfectly appropriate thing to debate and discuss and 
weigh. The President concluded that ``an amount'' ought to be a 
grant, as opposed to a loan. There were complications, as 
you'll recall, with debt forgiveness and other debts and 
reparation requests from Kuwait for the 1991 war, and the like. 
And he felt that it would be appropriate to take a single 
amount, make it a grant, and use that to help jumpstart Iraq on 
a path towards democracy and recovery.
    No one believes that any additional money should go from 
United States to Iraq for that purpose. For security, yes, for 
the other things that we're doing, to be sure--governance, 
assistance, and so forth. The United States also went out and 
tin-cupped the world and raised additional funds to try to 
assist the Iraqi people, and other countries have been giving 
money, as well as assistance, humanitarian assistance, to Iraq.
    The situation, I'm told--why don't you do it, Larry? Just 
chime in.

                          USE OF IRAQI ASSETS

    Mr. Lanzillotta. If I may, Senator, on Iraqi money, we have 
an account that's called the Developmental Fund for Iraq. It 
was $18.2 billion that's been in that account so far, basically 
from oil revenues. And we've taken out $8 billion, so far, to 
pay for Iraqi needs. And so that leaves a balance of $10 
billion that will be continued to be used to pay for those type 
of expenses.
    Secretary Rumsfeld. But Iraqi oil revenues are paying for a 
part of what's being spent today. Frozen assets that were found 
around the world from the Saddam Hussein regime have been 
retrieved, in some measure, and they are being used. Assets 
that were discovered in the country, caches of money--there 
were hundreds of thousands of dollars with Saddam Hussein when 
he was pulled out of the hole--in that neighborhood, I should 
say. So all of that is going toward this problem.
    Senator Specter. Mr. Chairman, if I may, I want to submit, 
for the record, questions on the Comanche helicopter, the base 
closing issues, as they affect Pennsylvania, the V-22, future 
combat systems, Bradleys, and the M1A1 tank.
    Senator Stevens. We welcome those questions. We do not 
welcome questions----
    Senator Specter. I thank you, Mr. Secretary----
    Senator Stevens [continuing]. Concerning other than----
    Senator Specter [continuing]. And I thank you----
    Senator Stevens [continuing]. Appropriations.
    Senator Specter [continuing]. Mr. Chairman.
    Senator Stevens. Senator Durbin, you're recognized for 5 
minutes.
    Senator Durbin. Thank you, Mr. Chairman.
    Thank you, Mr. Chairman, and thank you, Mr. Secretary and 
General.
    It is unfortunate that a million acts of kindness and 
goodwill and bravery by our troops have been overshadowed by 
the shameful acts at the prison in Iraq.
    I'd like to read to you an excerpt from an e-mail. This 
comes from a career officer in Iraq, and it was received 
yesterday. He wrote, ``I think that any soldier over here with 
any moral clarity is appalled and ashamed by what has occurred. 
Personally, I'm also ashamed of those that attempt to mitigate 
what's happened by saying,' It's not as bad as what others have 
done.' If we're not better than that, then I simply want no 
part in what we're doing. Take away the Weapons of Mass 
Destruction (WMD), the links to al Qaeda, and the singular 
reason for being here was the prospect of disposing of a 
ruthless dictator and bringing democracy to Iraq. And now we 
are all left to simply wonder: At what cost? It seems to become 
clearer every day that this is simply the beginning of the end 
to any chance we may have had to achieve anything of substance. 
June 30 looms, and most of us can see no achievable goal in 
sight. Two-thirds of the Iraqis simply want us to leave as of 
yesterday, and every battlefield success appears to be nothing 
more than a Pyrrhic victory. Nobody wants to compare this to 
Vietnam, but it's starting to feel that way on the ground. 
Everybody just wants to finish their year, get the hell out, 
and forget they were ever here. Finally, I would just simply 
say that the issue here really is moral clarity. As soldiers in 
the Army, it just seems a little implausible to a lot of us 
that 7 to 12 people simply perpetrated unthinkable and 
unconscionable acts over a period of several months without 
knowledge of their superiors. These people will likely be 
punished, and rightfully so. But the question is, Did they let 
us down, or did the Army and their leaders let them down? 
Because everyone knows that the entire chain of command, to the 
very top, holds some level of responsibility for what has 
occurred.''
    Mr. Secretary, I voted against this war believing that we 
needed a broader coalition and better preparation. The decision 
was made to move forward and move quickly without the United 
Nations' support, without giving time for inspection, without, 
I'm afraid, the necessary calculation of the real cost of this 
war. We are now being asked to consider a supplemental at a 
later time here. We have appropriated some $90 billion for the 
execution of this war. And I am told--at least you've 
testified, or General Myers has testified--that force 
protection will be one of the highest priorities.
    But as we look back to the last 14 months, on the issue of 
force protection, there are some very, very unsettling facts. 
Nine months after our invasion, in December of last year, 
nearly 1 year after the forces were deployed to the region, 
more than one-third of our forces still lacked interceptor body 
armor. A friend of mine with a son in a military police (MP) 
unit, he and his wife went out and bought the appropriate armor 
to send to their son to protect him. When we lost a Chinook 
helicopter last year from the Illinois/Iowa Guard Unit, I came 
to learn that the helicopters were deployed in Iraq without 
necessary defensive equipment. And now we learn that perhaps 3 
or 4 months from now, when they're supposed to be returning 
home, they will finally be equipped as they should be.
    And I suppose the worst part of it was the armoring of 
Humvees. It's been estimated that one-fourth of the American 
lives lost were lost because of lack of armor for these 
Humvees, and we still are uncertain as to whether an adequate 
number will be protected in the near future.
    My question is this. Having appropriated all of this money, 
and myself having voted for every penny of it, how can we 
explain that we didn't meet the most basic requirement when it 
came to body armor, helicopter equipment, and armored Humvees 
to protect our troops?

                         DETAINEE ABUSE IN IRAQ

    Secretary Rumsfeld. Let me comment, first, Senator, on the 
statement you made, and then General Myers will discuss the 
force protection issues, because they're very important.
    With respect to what took place at Abu Ghraib, we will get 
to the bottom of it. There are six or seven investigations 
taking place, criminal prosecutions taking place, and people 
will be punished at every level, I can assure you. I know 
there's a--the Uniform Code of Military Justice works, and it's 
operating, and I am confident that the facts will become known, 
and people who did things that were illegal will be dealt with, 
and those that--in the administrative chain that did things 
that were seen to be inappropriate will also be dealt with in 
non-criminal administrative ways.
    Second, the e-mail you read is--I guess it's disturbing, 
but it's not surprising, that an individual feels that way.
    Senator Durbin. A career officer.
    Secretary Rumsfeld. I understand. An individual. Doesn't 
matter to me whether he's an officer or an enlisted person, but 
he feels that way. And I can understand that. And we all go 
through strong emotions when something like this occurs. We see 
it, and we're shocked, and we're stunned, and we're disgusted, 
and we know, in our hearts, we're better than that, and yet 
that is what's being seen in the world as representing our 
country. I know it doesn't represent our country. That isn't 
America. We've got--we're a lot better than that. And it's been 
true over many decades, and it'll be true over decades ahead. 
And the conclusion that that young person came to, that we're 
at the beginning of the end, I submit, will prove to be wrong. 
And, the good Lord willing, I'll be right, and his 
understandable concern and comment and emotional reaction, I 
hope and pray, will be wrong.
    Senator Durbin. Will you address the force protection 
issues?
    General Myers. You bet. I want to start with interceptor 
body armor. The small arms protective insert (SAPI) plates were 
relatively new technology. The Army had decided, earlier in 
this century, in 2001/2002, to provide only to dismounted 
infantry. As we got into 2002, it was clear that was not 
sufficient, so they started to ramp up the production from 1600 
sets per month to now 25,000 sets per month. Currently, 
everybody in theater--military, civilian, contractors, anybody 
who needs that kind of vest with the SAPI plates--has been 
provided that.
    Senator Durbin. General, excuse me.
    General Myers. Yeah.
    Senator Durbin. Fourteen months after the invasions?
    Senator Stevens. The Senator's time for asking questions is 
expired, but we permit General Myers----

                                HUMVEES

    General Myers. Well, I'm just saying that it was new 
technology, so it took time to ramp it up. I mean, we just--we 
couldn't--as much as we wanted to wish it true and have it 
ready immediately, that just wasn't technically or from a 
manufacturing standpoint feasible. What we're looking at now--
--
    Senator Durbin. But you weren't prepared, General.
    General Myers. What we're looking----
    Senator Stevens. General----
    General Myers [continuing]. What we're looking at now is, 
the SAPI plates are good, and you know they fit front and back. 
We're looking for other protection now, on the sides and the 
armpits, because there is technology there, and we're starting 
to produce that, to provide those vests, as well.
    Up-armored Humvees, that requirement was set by Central 
Command and by the field commanders. It has consistently gone 
up. We've tried to meet that with lots of different things and 
ways. Currently, they need 4,454 up-armored Humvees. They're 
currently on hand, 3,134. We're producing--we're ramping up 
to--production rate up to 300--in fact, I think we're, this 
month, at 220 to 225 per month. We've gathered all the up-
armored Humvees from all the services around the world, pushing 
them into theater, only saving a few back here for the nuclear 
security mission, and I mean just a handful. And we also have 
some bolt-on armor that we've made for that, those Humvees and 
the trucks, as well.
    So we've tried to stay up with the demand as the 
requirements come in from the field, and I think we're doing a 
reasonably good job. I would like to have done all of that, 
certainly, if we could have; if it had been physically possible 
to do it all faster, we would have. I will say this, that the 
support we got from the Congress on the funding has not been an 
issue. The funding has been there when we've needed it.
    Senator Stevens. I apologize to the Senator. We still have 
several Senators to go on the first round.
    Senator McConnell is next. You're recognized for 5 minutes.
    General Myers. If I could just follow up that, you also 
asked about helos. The information you provided on the 
helicopters does not correlate with the information I've been 
given on those helicopters--to include, you know, the 
helicopter that was shot down where we lost so many people. My 
information was that it did have countermeasures onboard, and 
that nobody----
    Senator Durbin. That one helicopter was properly equipped, 
but the Army acknowledged that there is a new level ALE-47 that 
was needed. Only five of the 13 helicopters in the unit are 
currently equipped with it. It is said that they will receive 
the equipment in 4 months, which is the time when they're 
supposed to be leaving the country.

                           ACTIVE AND RESERVE

    General Myers. It was--but it's true of Active duty and 
Reserve helicopters, because there was a move at that time, and 
I'll just make sure. I'll check my records, the facts here. 
But, as I recall, that the Army was in the middle of upgrading 
all that Active and Reserve, and that's what they were in the 
middle of, so there are some units that have the newer 
technology, or some that have the older technology.
    Senator Stevens. Okay, Senator.
    Senator McConnell is recognized for 5 minutes.
    Senator McConnell. Thank you, Mr. Chairman.
    After the prisoner abuse revelations over the last few 
weeks, it's easy to lose perspective, and I'd like to begin by 
congratulating you, Mr. Secretary and General Myers and your 
entire operation, for the liberation of 50 million people over 
the last 2\1/2\ years and for extraordinary success in the war 
on terrorism.
    It is no accident that we have not been successfully 
attacked again here at home since 9/11. The reason for that is 
clearly that we've been on offense, at the President's 
direction. And you and the people that you command have done an 
extraordinary job, and it's important to remember that when 
things do go wrong, as they do occasionally in any complicated, 
difficult task.

                            PAYING WAR COSTS

    Now, we're going to have, Mr. Secretary, the Defense 
authorization bill on the floor next week, and one of the 
things I fear is that an awful lot of amendments are going to 
be offered to try to take money away from arguably very 
important tasks that you need to carry out, and direct them to 
Iraq.
    For example, we expect numerous amendments to cut important 
programs such as missile defense in that bill. Over the last 
decade, proliferators such as Iran and North Korea have made 
dramatic and unexpected progress in their nuclear programs. If 
we do not improve our ability to defend America and our troops 
against ballistic missiles, and deter rogue regimes from using 
them against us, by modernizing our weapons systems to hold 
their deeply-buried nuclear or command and control facilities 
at risk, we're likely to face a far greater danger than that 
which reared its head on September 11. So I have a couple of 
questions in that regard.
    Would it be appropriate to reduce funding for important 
programs in your fiscal year 2005 bill in order to pay for 
operations and maintenance costs that the Department plans to 
fund in an upcoming request for a contingency reserve fund?
    Secretary Rumsfeld. We've made a judgment, Senator, that 
the cash flowing for a long period is a bad management 
practice, and that to the extent the amount is large it becomes 
a very bad management practice.
    In terms of the separate--therefore, we came up--despite 
the fact the President didn't want to--when I went in and told 
him I believed we needed $25 billion, he has made that proposal 
as a reserve to reduce the damage, reduce the difficulties, the 
management difficulties, that otherwise would have occurred.
    The second question, as to whether we should simply take 
money from one important account and put it in another and 
change our priorities, my strong recommendation is that the 
Congress not do that. The idea that we were asked not to fund 
for the war in the budget, we allocated the budget, we're now 
at a point where we believe that the priorities that have been 
established in that budget are sound, they enable our country 
to address the global war on terror, to see that the Armed 
Forces of the United States are the most capable and most 
deployable and best equipped on the face of the Earth, and I 
don't think we ought to try to fund the war out of the 
priorities that help rearrange our military for the 21st 
century.
    Senator McConnell. When I was in Iraq in October, I was 
meeting, it won't surprise you to know, with General Petreas in 
101st, since they're headquartered in my home State. And he 
indicated that the reconstruction funds, which you and, I 
think, Senator Specter were talking about earlier, were 
extremely important to the success. And one of the things I 
fear next week is that we may have amendments transferring 
money out of the reconstruction fund, which we fought very hard 
to make sure was a grant and not a loan, to help pay for the 
military side of this. Do you share my view that the 
reconstruction is extremely important in allowing us to 
ultimately exit the country?
    Secretary Rumsfeld. I do.

                     TRAINING IRAQI SECURITY FORCES

    Senator McConnell. And, also, I'm curious--I know you've 
sent General Petreas back to be in charge of the upgrading of 
the Iraqi military. I want to commend you for that decision. I 
don't think you could have picked a better person to do it. But 
I would like to kind of get a report on how that's going and 
this whole challenge of getting the Iraqi military up to speed, 
which we all know is the best way to ensure our exit at some 
time in the future.
    Secretary Rumsfeld. Indeed. From the beginning, we've 
focused on strengthening the Iraqi security forces. They, for 
all practical purpose, had dissipated and didn't exist. The 
police that were there were not the kind of police we have in 
our country; they're the kind of people that went and arrested 
people at night and threw them into prison. The military was a 
mixture of some, I don't know, how many thousand generals, 
mostly Sunni generals, and the large mass of Shia conscripts, 
that just dissipated into the villages and towns of the 
country. So we had to start pretty much from scratch.
    We're up to about 206,000. You see reports in the press 
that, in some cases, they didn't do a great job. They, some of 
them, didn't engage the enemy in certain circumstances. Well, 
my goodness, if a group of people had been trained for a few 
weeks, and they're poorly equipped, and they're going up 
against people with AK-47s and rocket-propelled grenades, 
they're smart not to. And they're doing pretty darn well. And 
General Petreas is the right person to go in there and work 
this problem.
    And we're going to go from 206,000 to 265,000, we're going 
to continue to improve their equipment, we're going to continue 
to improve their training and their chain of command, and that 
is, as you say, who we have to pass off security responsibility 
for that country too. We've got to make that work, and then 
we've got to pass it off, and we don't have to stay and do that 
job for the Iraqis. The Iraqis have to do that job.
    General Myers. If I may, Senator? Let me just----
    Senator McConnell. Yeah. General?
    General Myers [continuing]. Just add something. When I was 
in Iraq 3 weeks ago, approximately, I looked at the line items 
of the types of equipment needed by Iraqi security forces. I 
think it's the first time that we've had specifically the types 
of equipment needed, on contract, starting to deliver--this 
month, matter of fact--to make up for that equipment problem 
that we talked about, that, for a variety of reasons, to 
include challenged contracts and, in fact, people just not 
writing down the requirement, that is fixed, and we should see 
these Iraqi security forces, from the police to the new Iraqi 
army now, begin to receive the type of equipment that will 
allow the things that the Secretary said needs to happen, 
happen.
    And, if I may, let me go back to your previous question, 
where you talked about using other accounts to pay for the 
operations and maintenance. As you know better than anybody, 
one of our traditions--and all of us--I'd put all of us in this 
group--is that we raid procurement accounts when we're short on 
operations and maintenance, and readiness, and so forth. We 
have had procurement holidays. We do not need to do that. We 
have a chance to transform our military, and the thought of 
raiding particularly the procurement accounts to make up for 
maybe shortfalls in other places, I would think, would be a 
very, very bad idea for the future of our Armed Forces.
    Senator McConnell. One final question, if I have time, Mr. 
Chairman.
    Senator Stevens. You don't have the time, Senator. I'm 
sorry.
    Senator McConnell. Okay, I don't have time. Thank you.
    Senator Stevens. Senator Shelby.
    Senator Shelby. Thank you.
    First of all, Mr. Secretary, I want to thank you, as others 
have, for your service, and also General Myers, for your 
leadership. And I want you to continue doing that, and I 
believe you will. I have confidence in you.
    I've got a couple of questions, and I'd like to get into 
dealing with the budget.
    I believe, first of all, Mr. Secretary, that the Army is 
underfunded, given the overwhelming role that they're playing 
in Iraq and Afghanistan. The issue that causes me some concern 
here today is reset. The Army is struggling to sustain and 
maintain its equipment. The 2005 budget, according to the 
Army's own documents, only includes 72 percent of the regular 
depot maintenance funding requirement. The 2005 shortfall is 
compounded by the severe toll that Operation Iraqi Freedom 
(OIF) and Operation Enduring Freedom (OEF) are taking on the 
Army's equipment.
    Mr. Secretary, first to you, and then to General Myers, Do 
you support the Army's reset plan, and do you believe it's 
properly resourced?

                         RESTRUCTURING THE ARMY

    Secretary Rumsfeld. We're told by the Army that they 
believe it is properly resourced. What it will require is that, 
over the supplementals this year and next year and possibly 1 
year into the future, the funds need to be made available to 
allow the Army to have a higher level of forces so that they 
can rearrange it and pull division capabilities down into the 
brigades, so that they can multiply the number of brigades from 
33 to 43, and that they can develop this greater modularity. 
And it's, I think, a very innovative approach, it's exactly the 
right thing to do. That, coupled with balancing the active 
force with the Guard and Reserve, I think, will make us have a 
vastly improved Army.

                               EQUIPMENT

    General Myers. There is no doubt the Army is using their 
equipment up at a very, very fast rate, whether it's tracks on 
Bradleys or helicopter blades or parts. This is a very serious 
issue for the Army.
    Senator Shelby. Tanks, too.
    General Myers. Tanks, the whole thing. I mean, it's every 
piece of gear they have, they are using up at a much faster 
rate than anticipated. In my view, this should be dealt with in 
the supplemental as we look at a----
    Senator Shelby. Okay.
    General Myers [continuing]. A possible 2005 supplemental. 
We just need to make sure that this kind of money is in there 
to make them well. And, otherwise, we're going to have a 
problem out there in the not-too-distant future if we don't 
make them well.
    Senator Shelby. Reset's important, isn't it?
    General Myers. Reset is extremely important.
    Senator Shelby. Thank you.

                    PERFORMANCE OF STRYKER VEHICLES

    Mr. Secretary, would you comment on the Stryker vehicle 
performance in Iraq? Have you spoken with the troops about the 
Stryker performance during your visits? And what are they 
reporting? We've been hearing a lot of good things, but I'd 
like to hear your comments, and then General Myers.
    Secretary Rumsfeld. I've heard a lot more good than not 
good.
    Senator Shelby. Yeah.
    Secretary Rumsfeld. There are those not in those Stryker 
units that raise questions.
    Senator Shelby. Sure.
    Secretary Rumsfeld. But--and it's early.
    Senator Shelby. Well, we've always----
    Secretary Rumsfeld. This is the first deployment.
    Senator Shelby. Sure.
    Secretary Rumsfeld. It's the first deployment. But my sense 
is, net, that they're valuable, they provide mobility, they 
provide--nothing provides the kind of armored protection that--
even a tank, they--you've seen pictures of tanks smoldering, 
with their turrets off. I mean, there's no way to prevent 
something from being badly damaged. But as a midrange leading 
edge of what may very well evolve as the future combat systems, 
I think this Stryker is doing well.
    Senator Shelby. They've got a lot of fire power, too, 
haven't they?
    General Myers. They've got fire power, and they have good 
battlespace awareness when they get there because they can be 
connected to all sorts of other information sources, which is 
powerful.
    One thing, when I was--again, when I was in Iraq not too 
long ago, a couple of weeks ago, one of the things that I heard 
that I had not thought of, even though I've been around Stryker 
and I've driven a Stryker and spent some time at Fort Lewis 
looking them over, is that it's quiet. And quiet's important, 
because they can arrive on the scene without a lot of notice, 
and sometimes take adversaries by surprise. And they said that 
happened on more than one occasion. So I think the report card 
on the Stryker, so far, is A-plus.
    Senator Shelby. Mr. Chairman, thank you.
    Senator Stevens. Thank you very much.
    Senator Burns, you're recognized for 5 minutes.
    Senator Burns. Thank you, Mr. Chairman. And I want to thank 
the Secretary and the Chairman of the Joint Chiefs for this 
appearance today.
    I want to bring up a couple of things. Back in 1993 and 
1994, it was obvious to me that, with the new plans of the 
military, the force structure, and how it would appear, the 
military complex was in for change. And knowing that, we've 
seen more of our responsibilities moved into the Reserve and 
the National Guard sectors. And I looked at the infrastructure 
in my State of Montana, and we began rebuilding the 
infrastructure there to train and to prepare our people for an 
enemy and a mission that was quite different than anything they 
had ever faced before. We were operating out of old World War 
II structures, as you well know, using outdated material to 
train for an enemy that had passed.
    And I would suggest to my colleagues that we attend to our 
facilities and infrastructure, and also how we train our 
citizen soldiers, marines, sailors, and airmen for an enemy 
that is consistent with what we are seeing now, and the needs 
that they're going to have to have in distance learning and 
electronics and everything that we can gather to prepare our 
people for a possible call up.
    The Army has begun converting some Reserve component 
artillery forces to military police, for instance. This has 
been done to meet the high demand for MPs, which I think we can 
expect to increase in the future.

                          CONVERSION OF FORCES

    Can you give me an idea as to the number to be converted to 
this type of duty? And do you have adequate resources to 
continue this process and provide necessary training and 
equipment that will meet this need, considering we might be 
working with personnel who lack this type of training 
experience.
    Secretary Rumsfeld. It's an important question, and it's 
one that has to be reviewed continuously as circumstances 
change. But, at the moment, we believe that, with the budget 
and the additional requests that have been made, and with the 
restructuring that's taking place, that, at least for the 
foreseeable future, we're on the right track.
    Senator Burns. Well, we have started our rebuilding in 
Montana, and now we have the ability to retrain a four of five 
State area. They're bringing them into Helena, Montana. Fort 
Harrison now, for training on these new missions. General 
Myers, we have something else to offer in Montana right now, in 
terms of training and research and that's airspace. And we're 
running out of airspace in which to train our pilots and even 
some of our ground forces. And I would like to visit with you 
on that someday, about our capabilities up there. We've got two 
Air Force Bases now that are doing little, but could offer a 
lot more, as far as our training's concerned.
    And my next question is, the weapons caches that you've 
discovered in Iraq, are we finding them, are we securing them, 
and are we destroying their holdings?

                             WEAPONS CACHES

    General Myers. Senator Burns, all the information I get 
says yes to those questions on weapons caches. We continue to 
find them. We find--we're up over 8,700 now, and tens are found 
every week, so we keep adding to that number. The last number I 
saw, none are unsecured. Some of the sites are secured 24 hours 
a day, 7 days a week, continuously, when they have the sorts of 
things that are being used by the bomb-makers for the 
improvised explosive devices, or if the have the man-portable 
surface-to-air missiles, or if they have mortars and grenades 
and those sorts of--and small arms. Others, which have--can be 
secured by bulldozing dirt up against bunkers that have 1,000-
pound bombs in them that have not been pilfered are maybe not 
24 and 7, but secured with locks, with berms, with patrols.
    I'm not satisfied. We know--I mean, this is a country that 
we estimate has 660 shore tons of weapons in it. We've 
destroyed under 130 shore tons. We've got 6,000 people, to 
include contractors and Armed Forces personnel, on this all the 
time, trying to do away with these arms caches. I'm not sure 
that--I mean, I can't sit here and say that we know of every 
one. But as we find them, we try to deal with them. And it's a 
personal thing of mine to--because I get asked this question a 
lot. Again, from what I'm told, we deal with them just like I 
described. I think we need to be very curious about that and 
continue to probe.
    Senator Burns. Well, I'm concerned about that, because we 
know that's the base of making these----
    General Myers. You bet.
    Senator Burns [continuing]. Individual weapons----
    General Myers. You bet.
    Senator Burns [continuing]. Used in roadside----
    General Myers. The soldiers know that, you bet.
    Senator Burns. And the quicker we eliminate that supply, I 
think, the safer we will be in our----
    General Myers. It's going to be--yes, sir--it'll be a long-
term job, but we've got to be at it with as much capability as 
we need to put against it.
    Senator Burns. Mr. Chairman, I have more questions, but I 
will submit them in private, and thank you very much.
    Senator Stevens. Thank you very much.
    We'll now--Senator Inouye has not asked questions in the 
first round, so, Senator Inouye, do you have any questions?
    Senator Inouye. Yes.

                         AIR FORCE TANKER LEASE

    Mr. Secretary, we were advised that last week the Defense 
Science Board was supposed to release a report on the Air Force 
tanker lease deal. Has that been released?
    Secretary Rumsfeld. I have been briefed, and I'm sure we 
can brief you. Whether they have formally released it, I just 
don't know.
    Senator Inouye. Can you provide us with----
    Secretary Rumsfeld. In fact, here it is, they're briefing 
staff directors here on your committee today.
    Senator Inouye. Thank you very much.

                        RECRUITING AND RETENTION

    Second, has the events of the past 2 weeks had any impact 
upon recruiting and retention of Active, Reserve, and National 
Guard?
    Secretary Rumsfeld. Senator, I'm afraid that the systems we 
use to track recruiting and retention may not be sophisticated 
enough to give us good data that fast. Last month's worth that 
I heard about, we were doing fine in both recruiting and 
retention. What it'll be when the next data comes out remains 
to be seen.

                  QUANTITY OF MILITARY INVESTIGATIONS

    Senator Inouye. Last week on talk shows and at the hearing, 
I believe three witnesses, including you, Mr. Secretary, 
mentioned 18,000 military crimes being processed. And I believe 
you indicated that about 3,000 resulted in court-martial. Can 
you provide us--not at this moment, but--the nature and the 
severity of these crimes, where they occurred and in what 
services? We've tried to get some information, but no one seems 
to know 18,000. So----
    Secretary Rumsfeld. Of course, this kind of information is 
not centralized in the Department. Each service manages itself. 
The data I have is, as you suggested, that there were something 
in--it's 17,000-plus criminal investigations opened. There were 
about 72,000 non-judicial punishments that took place. In terms 
of Article 32, we don't have the information from the Army--
it's not tracked--but the other services have about 400. In 
terms of total court-martials, as you said, it's about 3,000. 
And in terms of general court-martials, it's about 1,100. And 
that was all 2003 data. So you can imagine the scope of that 
all across the services. There's always--with the number of 
people we have, there's always going to be these types of 
things that occur, I'm afraid.
    Senator Inouye. Of that number, about how many occurred in 
Iraq?
    Secretary Rumsfeld. Oh, I have--am not able to provide that 
answer.
    Senator Inouye. Can you provide us with those?
    Secretary Rumsfeld. We certainly will. Yes, sir.
    [The information follows:]

                                          SERVICES INVESTIGATIONS DATA
----------------------------------------------------------------------------------------------------------------
                                     Criminal                                                          Total
                                  Investigations     Criminal        Criminal          Total      Investigations
                                      Opened      Investigations  Investigations  Investigations     Opened in
                                     Worldwide     Opened Fiscal   Opened Fiscal  Opened in Iraq    Afghanistan
                                    Fiscal Year   Year 2003 Iraq     Year 2003      Since March        Since
                                       2003                         Afghanistan        2003       September 2001
----------------------------------------------------------------------------------------------------------------
Army............................     \1\ 10,915             969             216           1,362          \2\ 59
Navy............................      \3\ 4,260              35   ..............             56               1
Air Force.......................      \4\ 2,531   ..............  ..............             16   ..............
----------------------------------------------------------------------------------------------------------------
\1\ CID ROI only.
\2\ Estimate.
\3\ NCIS only.
\4\ OSI only.


                                     SERVICES JUSTICE DATA FISCAL YEAR 2003
----------------------------------------------------------------------------------------------------------------
                                                              Total
                                                General      Courts-                                 Criminal
                                                Courts-      martial    Article 32s  Nonjudicial  Investigations
                                                martial      (GCM and       Held      Punishment      Opened
                                                              SPCM)
----------------------------------------------------------------------------------------------------------------
Army........................................          688        1,329      ( \1\ )       43,084     \2\ 10,915
Navy........................................          183          835          173       19,770      \3\ 4,260
Air Force...................................          351          935          248        9,164      \4\ 2,531
----------------------------------------------------------------------------------------------------------------
\1\ Unknown. Information is not tracked.
\2\ CID ROI only.
\3\ NIS only.
\4\ OSI only.

    Senator Inouye. Following up Senator Domenici's question, 
in 7 weeks, when we have this transition, when do you consider 
would be the time when we may be able to consider a Status of 
Forces Agreement? When can we count upon the new government to 
take over the water and sewer responsibilities?
    Secretary Rumsfeld. The which responsibilities?
    Senator Inouye. Water and sewer.
    Secretary Rumsfeld. Ah.

                       STATUS OF FORCES AGREEMENT

    Senator Inouye. And I'd like to know when you think would 
be appropriate for them to take over the prison system.
    Secretary Rumsfeld. First on the Status of Forces and our 
arrangement with the current government, the lawyers for the 
United States have concluded that the U.N. resolution that 
exists already provides appropriate protection for U.S. 
forces--coalition forces, I should say--between the time--
certainly now, and the time, going forward, between June 30, 
when the sovereignty responsibilities are assumed by the 
Iraqis, and the next government takes over. There are people 
who debate that and discuss it, but my guess is that the Iraqis 
are going to have to decide whether or not they want the 
interim government or the permanent government to make those 
arrangements. The permanent government, of course, would only 
result after elections some time next year, in 2005. We, 
needless to say, have to have confidence that our forces are--
have the right kinds of protections in that country. And I 
believe that the current conviction is that we do and we will, 
and that those detailed discussions were probably not 
appropriate for the Iraqi Governing Council to engage in, nor 
would they necessarily have been viewed as sufficient or final 
for the other governments, so that that task is going to be 
left for the government to come, which is after June 30, or 
after the final Iraqi government is elected next year.

                   RESPONSIBILITY FOR PRISONS IN IRAQ

    General Myers. On the prison system, the----
    Secretary Rumsfeld. Oh, yes, I'm sorry.
    General Myers [continuing]. Iraqis are currently 
responsible for those picked up on criminal charges, so, at Abu 
Ghraib, the Iraqis maintain the criminals in their part of that 
prison. The U.S. forces have what we call our security 
detainees, folks that are picked up that either have shot at 
the Coalition or are involved in other operations that we think 
are security related. So the Iraqis are in charge of their 
operation. I would think, as times goes on, and as we become 
more of a partnership, you can see this--more and more, this 
burden probably shifting to the Iraqis, but it'll be over time.
    Senator Inouye. So this prison, Abu Ghraib, was jointly 
operated?
    General Myers. Yes. Yes, sir. That's the information I 
have.
    Senator Stevens. We now approach the second round, and I am 
told that the Secretary needs to be through with us, or we'd be 
through with him, at noon. So what I propose to do is to ask 
two questions I want to ask, primarily for the record, and then 
we will recognize the balance of the five of you over the 25 
minutes that's left.
    Mr. Secretary, I've got to say that I--and General--I had 
to--I didn't have to, but I did apologize to Senator Feinstein 
because last year she raised a question of those munition 
dumps, and I sort of downplayed it, because I said that that 
had been taken care of. We later found, as we went over there, 
that not only--they're still being found, which is an 
interesting comment. In April, I was told there were--munitions 
that we recovered were--is that on tons? In shore tons, 
154,000-plus recovered, 124,000 destroyed. They found 8,756 
caches, cleared 8,684. The remaining were either secured or 
partially secured. I'm really concerned about the partially 
secured.
    So what I would like to ask you, for the record, if you 
could update that chart that was given us on April 1 and to 
assure Senator Feinstein we will pursue making sure that you 
have adequate money to deal with those munitions, because one 
of the contractors told me that when they wanted equipment just 
to protect their convoy, they just went to one of those dumps 
and picked them up--handheld weapons, et cetera. So if they can 
pick' em up, anyone can pick' em up.
    [The information follows:]
                          Weapons Cache Update
Purpose
    To provide information on Weapon Caches in Iraq.
Bottom Line
    Since September 11, 2003, (current as of June 18, 2004).
    Short Tons destroyed--195,141.
    Short Tons on-hand at depots--149,861.
    Caches found--9,693.
    Caches cleared--9,631.
    Caches remaining--62.
    Caches secured (24-hour presence)--21 of 62.
    Caches partially secured (Periodic patrols, reconnaissance, 
surveillance)--41 of 62.
    Caches unsecured (No security)--0.
Background
    There are over 6,000 soldiers and contractors dedicated to 
securing, transporting, guarding, and destroying captured enemy 
munitions.
    The captured enemy ammunitions are evaluated to determine the best 
disposal methods or reutilization potential.
    The most dangerous munitions, such as rocket-propelled grenades, 
mortar and artillery rounds (for IED making materials) and surface-to-
air missiles, are transported to six depots for safe, secure storage 
and eventual destruction. There is one depot per divisional sector.
    Partially secured sites contain ammunition that would be extremely 
difficult to remove quickly, such as aircraft ordnance and large 
caliber ammunition or missiles.

    Senator Stevens. Second, I would like to ask a question 
about--for the record--concerning the F-22. According to the 
current plans, current--the procurement funding will increase 
by 50 percent from fiscal year 2005 to 2009. That's required 
for full-rate production of the F-22, and the continued 
development of the Joint Strike Fighter fielding a future 
combat system. We have additional commitments in Defense to 
space surveillance and access. I worry about whether we can 
afford these programs. Could you give us a projection out to 
that same number, 2009, for all of the systems that are going 
to be competing with the money here starting in 2006? We know 
what the competition is in 2005--this is just for the record, 
now.
    [The information follows:]

    There will be several procurement requirements competing 
for valuable resources within the Air Force as we approach 
2009. The larger programs include the Joint Strike Fighter, C-
17, C-130J, KC-135 Tanker Replacement, and Airborne Laser. All 
of these programs, as well as the F/A-22, are currently covered 
within the Air Force topline. In addition, funding is provided 
for modification upgrades to the C-5, E-3, F-16, Predator and 
Global Hawk aircraft.

                                  IRAQ

    Senator Stevens. And, based on that, I will call on Senator 
Byrd for the second round for 5 minutes.
    Senator Byrd. Thank you, Mr. Chairman.
    General Myers, earlier you stated that there is no way that 
we can militarily win or lose in Iraq. Does that mean that 
there's no military solution possible?
    General Myers. Senator Byrd, what I was saying is the same 
thing the Secretary has said, that we need to win on the 
security front, which has a strong military component; but not 
just U.S. military. Iraqis have to be part of that, the 
international community has to be part of that. We have to win 
on the political or governance front. That has to go hand in 
hand. And we have to win on the economic front. And the sub-
tick under that would be the infrastructure. So, I mean, we 
could flood the country with U.S. Armed Forces and have a 
soldier next to every house and every Iraqi, but we wouldn't 
achieve our end objective, which is a free and democratic Iraq. 
So these other pieces have to go with it.
    Senator Byrd. Well, do we have an exit strategy?
    General Myers. Senator Byrd, I believe we do, and it's 
bound up in the things the Secretary has already talked about. 
We've got the United Nations, and they're working the 
governance piece, and that first piece, we should see here on 
June 30. That is only a temporary piece until we get to 
elections, in December or January--January 2005. And then 
there's a further piece after that for the constitution. Then 
there's further elections and a government. We've got our 
security piece pretty well figured out. If we get--we're 
working hard on a United Nations Security Council resolution, 
and if that is successful, I think more of the international 
community will be willing to be part of this.
    I was just in NATO. I can tell you, at least among most of 
my NATO military colleagues, that they feel there is a role for 
NATO in Iraq. Whether there's political will in NATO, we won't 
know yet, but we do have the Istanbul summit coming up, and I'm 
sure that'll be one of the issues that's discussed. As the 
Secretary said, there is already big NATO involvement, just not 
a NATO mission. The NATO involvement is supporting the Polish-
led division with forces and equipment.
    Senator Byrd. When do you think we can see the end of the 
tunnel and our troops can come home?
    General Myers. I think the next time we'll have a pretty 
good picture will be in--and this is something I've talked to 
General Abizaid about--is sometime this fall, maybe even early 
winter, but after Iraqis are in charge, after June 30, see what 
traction the political process gets, see if, in fact, it has 
the effect of, for those that are opposed to progress in Iraq, 
saying, ``Okay, it looks like we might as well join the team.'' 
And I think we can make that judgment this fall, and look at 
the way forward. I think that's the next place where we'll have 
a pretty good lens into what the way forward is.
    Senator Byrd. This fall?

                              SOVEREIGNTY

    General Myers. This fall. I think through elections--I 
mean, we've provided testimony before--General Abizaid's, I 
think, provided testimony on this subject--that certainly 
through the transfer of sovereignty here on June 30, it's going 
to get--it's going get worse before it gets better, and we're 
seeing that. After June 30, it remains to be seen.
    Senator Byrd. Mr. Secretary, you said that the, quote, 
``Congress,'' close quote, asked you not to request the Iraq 
supplemental in the President's February budget. I don't know 
who, quote, ``the Congress'' is.
    Senator Stevens. Senator, I can confess.
    Senator Byrd. I beg your pardon?
    Senator Stevens. I will confess. I made that request 
because of the delay that's caused by the loss of 2, almost 3, 
weeks for conventions, and I said we did not have time to do 13 
bills and a supplemental before September 30 of this year.
    Senator Byrd. Well, when the Senate passed the fiscal year 
2004 appropriations bill last summer, we approved an 
amendment--I believe it was my amendment--with over 80 votes 
expressing the sense of the Senate that you should budget for 
the war--that you should budget for the war in Iraq in the 
President's request for the annual budget. Let me read the 
exact language. Section 8139, ``It is the sense of the Senate 
that, one, any request for funds for a fiscal year for an 
ongoing overseas military operation, including operations in 
Afghanistan and Iraq, should be included in the annual budget 
of the President for such fiscal year as submitted to Congress 
under section 1105(a) of title 31, United States Code; and, 
two, any funds provided for such fiscal year for such a 
military operation should be provided in appropriations acts 
for such fiscal year through appropriations to specific 
accounts set forth in such acts.''
    So we've asked that that be done, and I hope it will be 
done. That was my amendment. Do I have time for any further----
    Senator Stevens. I'm sorry, Senator, your time's expired.
    Senator Byrd. I thank the chairman. I thank the Secretary.
    Senator Stevens. Senator Domenici is recognized for 5 
minutes.
    Senator Domenici. What was the time?
    Senator Stevens. Five--well, 4 minutes.
    Senator Domenici. All right.
    First, let me say, Mr. Secretary and General Myers, in my 
first round of questions, typically I got excited and I didn't 
tell you both that I congratulate you. I do.

                  IRAQI DEBT AND OIL FOR FOOD PROGRAM

    Mr. Secretary, there's been a series of questions, not as 
much as I would have hoped, about how we're going to 
reconstruct the country, and whether we had a plan, and I want 
to thank you both for at least telling the American people that 
you have the plan. And in particular, General Myers, I think 
what you described, in terms of the merging, the command 
structure, of the Iraqi military with ours is tremendous. I 
hope you proceed with dispatch.
    General Myers. Yes, sir, we will.
    Senator Domenici. I have also determined that there is not 
very much Iraqi oil money that is currently available for the 
payment of infrastructure. The reason is that Iraq owes a huge 
amount of money to countries that they borrowed from, led by 
Russia, France, and others. Now, Mr. Secretary, we have asked 
Jim Baker to go around and see what can be done to minimize the 
payment of those so we can get on with reconstruction. Is that 
not correct?
    Secretary Rumsfeld. It is correct.
    Senator Domenici. Now, second, we know that France and 
Russia, two of the biggest creditors, have cheated immensely 
with hundreds of millions, if not billions, of dollars in the 
Oil for Food Program. Now, frankly, it disturbs me that we're 
working on making sure that their debt is paid, when, as a 
matter of fact, they've taken money from the Oil for Food 
Program and allocated it to themselves in what might be a giant 
fraud. Now, I ask you, who is responsible for seeing that 
something's done about that? Is that Jim Baker's job, or is 
that the Secretary of State's job, or is that your job? Because 
I think we ought not to be recognizing those debts if, in fact, 
we have reason to believe that that program was pilfered the 
way we understand it. Mr. Secretary and General, either one of 
you.
    Secretary Rumsfeld. Senator, there are several 
investigations--at least two that I know of--of the Oil for 
Food Program, and a lot of charges have been made. The 
investigations are not complete.
    With respect to the responsibility for dealing with Iraqi 
debt, the President asked former Secretary of State Baker, as 
you pointed out, to address that, and those are matters that 
are being handled by the Department of State--the United States 
Department of State, by the United States Department of 
Treasury, not by the Department of Defense.
    Senator Domenici. I thank you.
    I have four or five questions that are more parochial and 
don't fit this meeting, but I will submit them.
    And, General, there's one--and that is on the border of the 
United States, we have a very serious problem of the 
infiltration of potential terrorists. Those borders have been 
guarded by Reserve and National Guard people, and I am 
concerned that--in our desire to solve Iraq, that we don't 
minimize the protection of our borders by our military to 
prevent terrorists. Can you just either address it now or 
address it later?
    General Myers. I'll say a couple of things. One is that the 
stand-up of Northern Command was exactly the right thing to do, 
because they, along with Department of Homeland Security, worry 
very much about that. So I think it's good that we have a 
military command that worries about that, as well, and works 
with our neighbors to the north and to the south to help stem 
that flow.
    I am not aware, right now, of military augmentees that 
other than on--occasionally we have reconnaissance forces that 
help, but not like we did right after 9/11, where we had 
military people, generally from the National Guard, augmenting 
some of our border organizations.
    Senator Stevens. General, I've got to--if I'm going to let 
you go, I've got to----
    Senator Domenici. Thank you.
    Senator Stevens [continuing]. Stop you right there.
    General Myers. Stop it.
    Senator Stevens. Senator Leahy, you're recognized for 4 
minutes.
    Senator Leahy. Thank you, Mr. Chairman.
    I was going to raise a question on the ammo dumps, but--
following up Senator Feinstein--but I appreciate what you said, 
and I'll wait to see what we hear from that.
    I was glad to hear the comment made about the value of 
TRICARE for the National Guard. When I and several other 
Senators on both sides of the aisle were trying to push through 
TRICARE last year, we received a letter from the Secretary 
saying the President would veto a bill that might have TRICARE 
in it. So I'm glad that you have come around to our side, and I 
compliment you on that.
    So that Secretary Rumsfeld does not have to spend a great 
deal of time checking his databanks, I want to make sure you 
understand what I was saying earlier about the letters I have 
written to you. I was not saying I didn't get an answer. I 
meant a letter came back. The answer was questionable. For 
example, one on June 25 of last year regarding treatment of the 
Baghram Air Base; and, after what's been reported there, Abu 
Ghraib, and Guantanamo, I suspected the answer was incomplete. 
I will give you compliments, however. The Central Intelligence 
Agency (CIA), when we asked them such questions, they never 
responded. And, of course, as he usually does, Attorney General 
Ashcroft didn't respond to my letters, or letters from 
Republican Senators, or others.
    I was going to bring up, and I will submit it for the 
record, some of the specific funding questions.

                        PRISONER ABUSES IN IRAQ

    But just because of some of the things said here today 
about the concern that the prison abuses in Iraq are just the 
work of a few bad apples, I look at this report that we have 
had----
    Secretary Rumsfeld. Who were you quoting that said 
``they're just the work of a few bad apples''? Certainly not 
me.
    Senator Leahy. No, I'm not quoting you. I said for those 
who have said this--suggested this at the hearing today. But if 
I might get on with my point----
    Secretary Rumsfeld. I didn't hear anyone say that.
    Senator Leahy. Fine. Your recollection will be yours; 
mine's mine.
    If I might, let me go back--to those who have suggested 
it's only a few people involved that were, sort of, out of the 
chain of command, I have a copy of a March 2004 report by Human 
Rights Watch--has corroborated such things as interrogation 
techniques employed by U.S. personnel--sleep deprivation, 
prisoners stripped naked and kept in freezing cells, 
humiliating taunts by women, hoods placed over detainees' heads 
during interrogations, forced standing/kneeling for hours, and 
so on. Incidentally, Mr. Secretary, the reason I even raise 
this, and to refute some who have suggested that it's only a 
few, is that this report, of course, is about Afghanistan, not 
about Iraq. But it appears to be exactly the same techniques 
used in Afghanistan as were used in Iraq. Now, I don't think 
they're getting techniques over the Internet. There is 
obviously some systematic training.
    And so I would suggest, especially about the report by 
Major General Ryder, that we find out whether there is a 
coordination between all of these so that nobody will have the 
assumption that it may be just a few bad apples. Because I know 
that the vast majority of our American men and women follow 
orders, do it very professionally, and make every single Member 
of the United States Senate proud, as they do you and General 
Myers.
    Secretary Rumsfeld. Senator Leahy, first on the ammunition 
dumps, we are discovering more every day. The country is filled 
with them. Any number we give you--and we'll give you weekly 
reports if you want--changes because of the number that are 
found and the numbers we deal with.
    Second, I know I don't know the extent of the abuse 
problem. We've got, I believe, six investigations underway. I 
am absolutely certain that there are more revelations to come. 
The question as to whether or not there is something systemic, 
as I believe you said is obvious, is not obvious to me. I'm 
anxious to learn whether that's true. And the investigations 
that are taking place, we hope and pray, will tell us whether 
there is that.

                             TAGUBA REPORT

    I do not recall, General Myers, anything in the Taguba 
report that said that there is obviously systematic training to 
do those things. Indeed, I am reasonably confident there isn't 
anything in General Taguba's report that suggests that there 
was training to do those things. Is that your----
    General Myers. I think that's----
    Secretary Rumsfeld [continuing]. Recollection?
    General Myers [continuing]. That's my recollection.
    Secretary Rumsfeld. But the----
    Senator Leahy. I think I was talking about General Ryder's 
report, but that's okay.
    Secretary Rumsfeld. I see.
    Senator Stevens. Senator, could we move on to the other two 
Senators----
    Senator Leahy. Sure.
    Senator Stevens [continuing]. So we can--we have--matter of 
fact, we have three Senators. Do we?
    Senator Leahy. Thank you, Mr. Chairman.
    Incidentally, Mr. Chairman, you have run this hearing very, 
very fairly, as you always do, and I appreciate that.
    Senator Stevens. I'm trying.
    Senator Durbin, you're recognized for 4 minutes.
    Senator Durbin. I'd like to ask two questions, if I can 
briefly. And the first follows up on this whole question of the 
interrogation techniques. We have, I understand, one soldier 
who has been captured--is it--a soldier, last name Maupin, if 
I'm not mistaken----
    General Myers. Right, Maupin.
    Senator Durbin [continuing]. And we're uncertain of his 
whereabouts.
    General Myers. That's correct.

                    FOLLOWING THE GENEVA CONVENTIONS

    Senator Durbin. And we certainly hope he is safe. I'd like 
to ask, Mr. Secretary, wouldn't it help if there was clarity 
from you and from this administration that we would abide by 
the Geneva Conventions when it comes to civilian and military 
detainees, unequivocally? Wouldn't that help to put to rest 
concerns about our interrogation techniques in Guantanamo, at 
Baghram, in Iraq? And wouldn't it also serve to protect any 
Americans who become prisoners?
    As I look at the interrogation rules of engagement, which 
have been issued, there are, frankly, many of those which are 
violative of the Geneva Convention standard, and these are 
rules which have been issued by our Government. Wouldn't it be 
good for us, at this moment in time, to clearly and 
unequivocally state that we will follow the Geneva Convention 
with civilian and military detainees?
    Secretary Rumsfeld. Senator, that is a question that's 
being discussed widely in the press and editorial comment in 
newspapers, and certainly that's a fair thing. Regrettably, the 
discussion and the dialog and the editorials tend to be, in 
many instances, inaccurate.
    There is no ambiguity about whether or not the Geneva 
Conventions apply in Iraq. There never has been any ambiguity. 
From the outset, Iraq is a country, the United States is a 
country. The Geneva Conventions apply to parties, nations. They 
don't apply to terrorist networks. They do apply to nations. 
Iraq's a nation, the United States is a nation. The Geneva 
Conventions applied. They have applied every single day, from 
the outset.
    Now, where the confusion comes in--and it's understandable 
to some extent--is this. And I'm very glad you raised it, 
because it's something that's concerned me, and I have been 
disappointed to see the lack of research that's taken place on 
this subject. The Geneva Conventions apply to conflicts between 
states, parties to the conventions. In the case of Afghanistan, 
it is a state; and, therefore, the Geneva Convention applied to 
Afghanistan as a state. It did not apply to the al Qaeda that 
was using that state.
    And a judgment was made by the President of the United 
States, very simply, that to protect the Geneva Conventions and 
to protect U.S. Armed Forces, it would be wrong to state that 
the Taliban were--merited the benefits of the Geneva 
Conventions; the reason being, that the Geneva Conventions 
apply to people, and they get prisoner of war (POW) status only 
if they satisfy certain criteria: Do they operate in the chain 
of command? Do they wear uniforms? Do they carry arms openly? 
Do they comply with the laws of war?
    Terrorists don't comply with the laws of war. They go 
around killing innocent men, women, and children.
    Senator Durbin. Mr. Secretary, I----
    Secretary Rumsfeld. Just a minute. Just a minute, Senator.
    Senator Durbin. I want to have----
    Secretary Rumsfeld. I'll stay late.
    Senator Durbin [continuing]. A chance to follow up.
    Secretary Rumsfeld. I'll stay. Listen, I'd like a chance to 
follow up.
    The situation is that the President not only said it should 
not apply--the Geneva Conventions--under the law, to the 
Taliban or the al Qaeda, although it does to Afghanistan, and 
it always has to Iraq; but he said, notwithstanding that fact, 
they would be treated as though those conventions applied.
    Now, that's not a decision we made. That's a decision the 
President made. In my view, the conventions are there to 
protect people who obey the laws of war. To have--to do what 
you're suggesting, simply regardless of what the convention 
says, apply the conventions to anybody--terrorist, Taliban, you 
name it--doesn't strengthen the Geneva Conventions, it weakens 
them.

          DOD INSTRUCTIONS CONSISTENT WITH GENEVA CONVENTIONS

    Senator Durbin. Let me go specifically to Iraq, and let me 
talk about the detainees that were held at Abu Ghraib and other 
prisons. And let me tell you, your interrogation rules of 
engagement, the ones that are published, go far beyond the 
Geneva Convention. The things that we allow, with CJ's approval 
here--stress positions, sleep management, dietary 
manipulation--all of these things go far beyond a standard 
which says, ``There will be no physical or mental torture, nor 
any other form of coercion or that the people involved will be 
exposed to unpleasant or disadvantageous treatment of any 
kind.'' That's the Geneva Convention. These rules of engagement 
for interrogation issued by your Department are inconsistent 
with those. And I'm not talking about the terrorists, al Qaeda 
or the Taliban. We're talking about Iraq.
    Secretary Rumsfeld. General Myers, correct me if I'm wrong, 
but my recollection is that any instructions that have been 
issued, or anything that's been authorized by the Department, 
was checked by the lawyers in your shop, in the Department, in 
the Office of the Secretary of Defense, and deemed to be 
consistent with the Geneva Conventions.
    General Myers. Absolutely. And you could read any one of 
those--stress positions--you could read any of those--stress 
positions for an excessive amount of time, or that would hurt 
somebody, is not approved. I don't know if you--I don't have 
that with me; I had it for the last hearing--I think, at the 
bottom, it says, ``In all cases, they will be treated 
humanely.'' I don't know if it's on that chart. Is it at the 
bottom? What's it say at the bottom?
    Senator Stevens. Well, gentlemen, this is a very 
interesting conversation----
    General Myers. We'll be happy to come brief you on this, 
but that is not illegal according to the Geneva Convention or 
the ways they were applied. Every time we have an 
interrogation, we have an interrogation plan. Those are 
appropriate, and that's what we're told by legal authorities 
and by anybody that believes in humane treatment.
    Senator Durbin. I will just conclude by saying I don't 
believe what you have issued is consistent with the Geneva 
Convention. And I think, now more than ever, in light of what 
happened in that prison, in light of the fact that an American 
serviceman is being held, we should be clear and unequivocal--
--
    Senator Stevens. Senator, we've got to terminate this 
sometime. I'm late for appointments myself.
    Now, we have two other members who have 4 minutes each. One 
of them is Senator Dorgan, for 4 minutes.
    Senator Dorgan. Mr. Chairman, thank you very much.

                       CAPTURING OSAMA BIN LADEN

    It seems to me that one of the major goals with respect to 
our security here in this country is the apprehension of Osama 
bin Laden. I'd like to ask you about that briefly. It has been 
2\1/2\ years since Osama bin Laden perpetrated the attack 
against our country. He communicates to us and to the world 
through videotapes sent to al Jazeera and other outlets. It 
seems to me, I'm sure in your mind and in the mind of all 
Americans, that it is urgent that we find Osama bin Laden and 
apprehend him. I'd like to know what is happening on that 
front. What can you say publicly about it? What is new? What 
should we understand about any progress that might or might not 
be being made with respect to finding Osama bin Laden?
    Secretary Rumsfeld. The Department of Justice, the Federal 
Bureau of Investigation (FBI), Department of State, working 
with other countries, the Department of Defense, with military 
intelligence, spends an enormous amount of time attempting to 
develop information, frequently from detainees, that can lead 
to information that conceivably might produce actionable 
intelligence to capture him. We have not been successful. It's 
the kind of thing where people ask me, ``Well, are you close?'' 
There is no ``close'' in this business. Either you have him or 
you don't. And they are well financed, they're clever, they go 
to school on us and watch what we do. And, thus far, we have 
been successful in capturing a large number of the top al 
Qaeda, we've been successful in capturing a large number of 
Taliban, we have been successful in capturing a number--many of 
the top 55 in Iraq, including Saddam Hussein, and attacking his 
sons, but we haven't got Osama bin Laden.
    Senator Dorgan. But, Mr. Secretary, you know, I understand 
you and General Myers and others, all of us, have our hands 
full with Iraq. We pray that that gets resolved. But would you 
agree that another significant goal must be the apprehension of 
Osama bin Laden? My expectation is if there is a terrorist 
event, God forbid, in this country in the future, it----
    Secretary Rumsfeld. I think that's a good----
    Senator Dorgan [continuing]. Will be directed by----
    Secretary Rumsfeld [continuing]. Reasonable----
    Senator Dorgan [continuing]. Osama bin Laden.
    Secretary Rumsfeld. That's a reasonable expectation. We see 
threats to that effect consistently, for this country and for 
other countries. And they're not just by Osama bin Laden. I 
mean, as General Myers pointed out, Zawahiri is--he hasn't 
sworn allegiance to Osama bin Laden, but he's running his own 
network--but he's the next best thing. He's as close to Osama 
bin Laden as you can get without having decided that he wants 
to give up his own independence and swear allegiance to him.
    General Myers. Zarqawi.
    Secretary Rumsfeld. I mean Zarqawi. And----
    General Myers. We have--this is something that we review 
all the time, and let me just assure you that we have a great 
deal of capability and resources put to this problem, and we're 
trying to do it the best we can. I mean, we are--there is no 
lack of resources. Nobody's asking for anything we don't have. 
We're trying to, in a very difficult part of the world, where 
the terrain is not only tough, but the people's allegiances to 
any government are essentially nonexistent, that it's a very 
tough place to operate. And there are other considerations, as 
well, we can go into in a classified session. But we certainly 
are putting a lot of resources to this issue.
    Senator Dorgan. So you're saying, ``We're on the hunt, on 
the move, we have resources directed.'' I know that, at one 
point, substantial resources were directed to that goal. Is 
that not----
    General Myers. I would say we have substantial resources 
directed to that goal. I would say it's correct.
    Senator Dorgan. There were others who predicted that--
within this year, for example--we were getting close enough to 
expect that within this year, that Osama bin Laden would be 
apprehended.
    Secretary Rumsfeld. I think predictions like that are 
difficult. It's like predicting what a war's going to cost, or 
how long it's going to last, or how many people are going to be 
killed. Anyone who does that ends up being embarrassed.
    Senator Dorgan. All right. I'd just, finally, say, whatever 
resources you need to do that job, I think this committee is 
very interested in making those resources available if the 
resources aren't, at this point, sufficient.
    General Myers. You bet, sir.
    Secretary Rumsfeld. Thank you.
    Senator Stevens. Yes, Senator Feinstein.
    Senator Feinstein. Thanks very much.

                    DETAINEES AND GENEVA CONVENTIONS

    If I may, Mr. Secretary, I just want to venture an opinion 
on the Geneva Convention. I think we always have to apply the 
Geneva Convention, because, with our Nation, regardless of 
whether it is state or non-state, we have a certain moral 
imperative that we cannot escape, and that's everything that a 
just nation believes in, and there's no escape from it. And so 
my very strong view is that this nation should always observe 
the protocols of the Geneva Conventions.
    Now, a question, if I might.
    Secretary Rumsfeld. May I comment on that?
    Senator Feinstein. Surely.
    Secretary Rumsfeld. That sounds so plausible and so 
reasonable, and I'm told, by people who study these things, 
that there's a danger to doing that. And the danger is that the 
Geneva Conventions were put in place to try to protect innocent 
civilians. And to the extent people behave in a way that's 
inconsistent with the conventions, that is to say they attack 
innocent civilians, they operate--they don't wear uniforms, 
they don't carry arms openly, they carry them in concealed 
basis, they mix themselves among civilian populations, putting 
civilian populations at risk, as we see happening in Iraq 
today, putting people in front of them, children and the like--
to the extent you say, ``That's okay. Let's give everybody the 
benefits of Geneva Convention,'' then the worry was, when the 
convention was developed--and I'm not expert on this, but I'm 
told this--the worry was that it would lead people to put more 
innocent people in jeopardy.
    Do you want comment on that?
    General Myers. Well, I think that's exactly right. And I 
think the next point is, then, having said that, that the 
Geneva Convention--that we will apply it in all cases, and we 
have, faithfully, and, I think, to include our interrogation 
techniques.
    Senator Feinstein. Let me make my point. A large number of 
detainees are innocent. They're in the wrong place at the wrong 
time.
    Secretary Rumsfeld. Sure.
    Senator Feinstein. You just acknowledged, earlier, that 
31,000 detainees were released, presumably because they were 
innocent. And, you know, and you also said, General, a very 
profound thing this morning. You said, ``There is no way we can 
lose this war militarily, and there is no way we can win it 
militarily,'' which I think makes the exact point of why this 
nation's adherence to the Geneva Conventions, protocols--the 
fourth, the fifth, and others--are so very important.
    Now, let me just ask one other question. You also said that 
your hope would be that, within a few months after the 
transition, we would be able to withdraw. And we talked about 
planning ahead----
    Secretary Rumsfeld. I didn't say that.
    Senator Feinstein. The General, I think----
    General Myers. No, I said that we would--that the next time 
we'd have a lens on what the requirement would be. We'd have to 
see how the political track--that was what I hoped to----
    Secretary Rumsfeld. Absolutely not. That would be a 
terrible----
    General Myers. Right.
    Secretary Rumsfeld [continuing]. Misunderstanding.
    Senator Feinstein. All right----
    Secretary Rumsfeld. There's no one I know who believes 
that.
    Senator Feinstein. So you're saying the next time to view 
that would be within----
    General Myers. Senator, because now--between now and June 
30, we know it's going to get worse. We've said that for 
months. And then we're going to have to see afterwards how the 
Iraqi citizens behave once they have a government. And so 
sometime this fall, I think, General Abizaid will feel 
comfortable to say, ``Okay, here's the track we're on now.''
    Senator Feinstein. Could I ask for your assessment, both of 
your assessment, if I might, on another subject? What is your 
assessment of the probability of civil war following a 
transition, largely Sunni/Shi'ite?

                    PROBABILITY OF CIVIL WAR IN IRAQ

    Secretary Rumsfeld. It's been a problem we've worried about 
from day one. It's a problem we worried about on entering the 
country, that it could happen. It hasn't happened. We do know 
that terrorists and foreign people and former regime elements 
and some other elements in the country have consciously 
developed a plan to try to incite that and to attack various 
elements and lead people to believe it was another element in 
the country, in the hope that that could create anarchy and 
chaos and cause the Coalition to leave. So it's a risk. It's a 
risk.
    The goal would be for us to stay there as long as we have 
to, to have the Iraqi security forces sufficiently developed 
that they would be able to deal with the overwhelming majority 
of the kinds of problems that could occur--normal law 
enforcement and the like.
    Our role, one would think, would diminish as the government 
stands up next year--this year and next year, in some way, as 
soon as it's possible, but to, for a good period of time, be 
available to be of assistance in the event it's necessary. And 
the last thing in the world anyone wants to see is a civil war 
in that country.
    Senator Stevens. Thank you very much.
    Senator Feinstein. I thank you both very much.
    Thank you, Mr. Chairman.
    Senator Stevens. Mr. Secretary, I think--I'm not sure about 
history, but I know you've served this Department of Defense as 
Secretary before, and I certainly congratulate you for the way 
you're handling these terrible days right now. And, General 
Myers, we have worked with a number of chairmen of the Joint 
Chiefs of Staff, and you're the finest, and I really believe we 
are very fortunate to have you where you are. We appreciate 
your testimony today.
    Secretary Rumsfeld. Could I make one last comment?
    Senator Stevens. Yes, sir.

                            CLOSING COMMENTS

    Secretary Rumsfeld. Mr. Chairman and members, these 
events--these abuses, have been a body blow for the country. 
I've heard a lot of comments today, and one citation that it's 
the beginning of the end, and that kind of a feeling. I must 
say, I don't believe that. I think that these abuses that took 
place are terrible, they're inhumane, and they're inexcusable, 
and they'll be punished, but they don't represent America. They 
certainly don't represent Americans or the American military.
    Iraq has made enormous progress, and it's getting ignored. 
The schools are open, the hospitals are open, the oil is 
pumping, they've got a new currency, the ministries have been 
formed, there are governing councils for the provinces, there 
are city councils for the cities, 80 to 90 percent of the 
people in that country are being governed by local councils 
over them. And all we hear about are the problems. And there 
are problems.
    And I've got to tell you, there are going to be more 
revelations of abuse that'll come out in the days and weeks 
ahead, because we've got six investigations looking into all of 
this. And they will not come out because of the media being so 
wonderful and investigating everything; they'll come out 
because the United States military investigations will let them 
out, and they'll announce them, and that's a good thing, and 
that tells a whale of a lot about our country.
    I've kind of stopped reading the press, frankly. I'm sure 
you can understand why. I've been reading a book about the 
Civil War and Ulysses Grant, and I think about the--and I'm not 
going to compare the two, don't get me wrong, and don't 
somebody rush off and say, ``He doesn't get the difference 
between Iraq and the Civil War''--the fact of the matter is 
that casualties were high, the same kinds of concerns that were 
expressed here were expressed then. They weren't in e-mails, 
they weren't in digital cameras; they were in diaries and 
letters. They were by families, they were by soldiers, 
politicians. And they were all across the spectrum. They were 
despairing, they were hopeful, they were concerned, they were 
combative. And, in the end, they were losing 1,000, 1,500, 
2,000 casualties in a 3-day war. The carnage was horrendous. 
And it was worth it.
    And I understand concern. By golly, I've got it. But I look 
at Afghanistan, 25 million people liberated, women voting, able 
to go to a doctor. And I look at Iraq, and I--all I can say is, 
I hope it comes out well. And I believe it will. And we're 
going to keep at it.
    Thank you.
    Senator Stevens. Well, thank you very much, and we 
appreciate your comments. And, God willing, we hope you're 
right. We certainly pray you're right, as a matter of fact.
    This hearing concludes our planned hearings on the fiscal 
year 2005 Defense budget. I have stated that the subcommittee 
will schedule a hearing on the forthcoming request when more 
details are available. We will have to do that before we mark-
up.

                     ADDITIONAL COMMITTEE QUESTIONS

    We thank you all for what you've done for us. We do have a 
series of questions that have been submitted for the record, as 
you heard. We appreciate if you'd submit those. We're in no 
rush. We actually won't close this record until sometime the 
end of the month.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
             Questions Submitted to Hon. Donald H. Rumsfeld
               Questions Submitted by Senator Ted Stevens
                          procurement bow wave
    Question. The Department projects that military personnel costs 
will grow from $104.8 to $120.4 billion during the same period absent 
an increase in end strength. That may be optimistic given that basic 
pay increased 29 percent from fiscal year 2000 to 2004. None of the 
projected costs described above capture funding for on-going operations 
in Iraq and Afghanistan.
    According to current plans, procurement funding will increase by 
fifty percent from fiscal year 2005 to 2009. This level of funding is 
required if the nation is to fund full rate production of the F-22, 
continued development of the Joint Strike Fighter, fielding of the 
Future Combat System, our commitment to space surveillance and access, 
and meet minimum levels of investment in the shipbuilding industrial 
base. I worry that we can afford all of these programs while fighting a 
war in Iraq and manning the force. Do you consider this level of 
investment to be sustainable?
    Answer. Yes, I believe the defense investment projected in the 
President's budget for fiscal year 2005-09 is sustainable. Total 
defense funding for these years includes only moderate real growth--
about 2.5 percent per year. Admittedly, we do not know the future costs 
of possible military operations in Iraq and Afghanistan, or for other 
contingency operations. But we would not want to allow those possible 
costs keep us from prudent investments in the future--especially 
investments to develop and field new capabilities most suited to 21st 
century threats, most notably terrorism.
                   captured enemy ammunition in iraq
    Question. The Committee provided an additional $165 million in the 
fiscal year 2004 supplemental for the disposal effort. In total, the 
Defense Department has awarded $285 million in fiscal year 2004 
contracts for the demilitarization of captured enemy ammunition in 
Iraq.
    On my recent trip to Iraq, I was shocked to learn about the number 
and size of munitions dumps in the country. I am especially concerned 
about the sites that are partially secured. Could you please give us an 
update on efforts to secure these sites and dispose of captured enemy 
ammunition?
    Answer. There are an estimated 600,000 short tons (ST) of munitions 
from the Saddam era in Iraq. We have over 6,000 soldiers and 
contractors dedicated to securing, transporting, guarding, and 
destroying captured enemy munitions. As of June 18, we have located 
9,693 weapons caches. Of those, 9,631 weapons caches have been cleared 
and 195,141 ST of munitions have been destroyed. There are an 
additional 149,861 ST on hand being evaluated to determine the best 
disposal methods or their reutilization potential. There are 62 weapons 
caches remaining to be cleared, of those 21 are classified as secured 
and the remaining 41 are classified as partially secured. Secured 
caches have 24 hour coverage by armed guards. Partially secured sites 
contain ammunition that is extremely difficult to remove quickly, such 
as aircraft ordnance and large caliber ammunition or missiles and are 
monitored by periodic patrols, reconnaissance and surveillance.
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici
                              rdt&e budget
    Question. I believe superior technologies can be applied to better 
protect our forces.
    To what extent does this budget fund high-energy laser solutions to 
problems such as artillery and rocket attack?
    Answer. As part of the on-going evaluation of high energy laser 
technology for a range of potential missions, the Department of Defense 
supports efforts to establish the technical feasibility and demonstrate 
the military effectiveness of high energy laser systems in tactical 
applications. Specific to the threat posed by artillery and rocket 
attack, these efforts include both focused programs and more general 
tactical high energy laser technology investigations that are also 
relevant to this threat.
    The Army continues to support field testing and evaluation of the 
ground-based Tactical High Energy Laser (THEL), which is a deuterium 
fluoride chemical laser-based high energy laser system jointly 
developed and funded with Israel. The THEL system is located at the 
High Energy Laser Systems Test Facility at White Sands Missile Range, 
NM, and continues to be useful in assessing potential benefits of high-
energy laser systems on the tactical battlefield. Most recently, the 
laser successfully detected, acquired, tracked, engaged and destroyed 
155 mm artillery rounds fired from a howitzer.
    On May 29, 2001, Israel requested the Department of Defense to 
support the development of a complete Mobile Tactical High Energy Laser 
(MTHEL) prototype by fiscal year 2007. The Army has committed $340.4 
million in fiscal year 2004-09 to support the combined MTHEL prototype 
development and testing effort. Israel is expected to match the United 
States' research and development investment for the laser. The program 
objective is to design, develop, fabricate, and test a working 
prototype weapon system by fiscal year 2007 based on demonstrated high 
energy deuterium fluoride (DF) chemical laser technology. MTHEL will be 
the first mobile, integrated Directed Energy Weapon (DEW) system 
capable of acquiring, tracking, engaging and destroying rocket, 
artillery, and mortar (RAM) projectiles, unmanned aerial vehicles 
(UAVs), cruise missiles, and theater ballistic missiles. No fielded 
capability currently exists to counter the RAM threat. This prototype, 
as the HEL pathfinder system, will enable the Army to develop an 
operational understanding of the tactics, techniques and procedures 
(TTPs) necessary to effectively employ this new weapon class. Results 
of the prototype testing in fiscal year 2008 and fiscal year 2009 will 
be used to develop the pathway for future HEL weapon systems' evolution 
into the Army's emerging Enhanced Area Air Defense System (EAADS).
    Army, Air Force, and HEL Joint Technology Office S&T funding 
supports the development and demonstration of enabling technologies to 
provide options for improved performance, better efficiency, lighter 
weight, lower costs, and improved operational suitability for future 
tactical HEL systems. A significant initiative ($39.4 million in fiscal 
year 2004-05) is the on-going Joint High Power Solid-State Laser 
Program (jointly funded by the HEL Joint Technology Office, the Air 
Force, and the Army), which has a goal to demonstrate laser power 
scaling to 25 kW for three different technical approaches within the 
next year and longer-term scaling to the 100 kW level. Development and 
demonstration efforts are also addressing critical technologies for 
tactical beam control, HEL optical components, and tactical target 
effects and vulnerability assessment.
    Question. What resources does this budget provide for new 
technologies to help detect improvised explosive devices that have 
killed and maimed too many of our troops?
    Answer. Most of our efforts to date in developing technologies to 
detect improvised explosive devices (IEDs) have resulted from internal 
reprogramming actions and requests for supplemental funding. To date we 
have invested about $10 million in technologies intended for IED 
detection, with most of the efforts targeted to detecting changes in 
the ground where IEDs are buried or in detecting concealed weapons such 
as suicide bombers or vehicle-borne explosives. Specific project 
details are classified and have been presented in closed forums. 
Organizationally, the Force Protection Working Group and the Combating 
Terrorism Technology Task Force are working directly with 
representatives from the Central Command and Special Operations Command 
to examine technology alternatives to address immediate operational 
needs to support the Global War on Terrorism.
    Within the Military Services, the Army's Rapid Equipment Force 
(REP) and Army IED Task Force are helping focus Army investments in 
detecting IEDs. Specifically, the IED Task Force focuses on counter IED 
Tactics, Techniques, and Procedures, and compiles and disseminates 
``Blue'' counter-IED TTPs and corresponding ``Red'' TTPs through their 
cell at the Center For Army Lessons Learned. This TF maintains an 
extensive classified website of TTPs and has recently produced an IED 
training module. In addition, the Army continues to investigate 
improved methods for Airborne IED/Mine Detection, with funding to 
improve change detection software, cueing algorithms, and 
identification of sensors that provide high resolution imagery at 
typical aircraft (manned and unmanned) altitudes.
    In deploying the 1MEF to Iraq, the Navy and Marine Corps are 
currently reprogramming funds to deal with detection and defeat of 
IEDs. In addition, the Navy is initiating a network-centric effort to 
provide forces the means to detect, classify, and locate IEDs and other 
tactical threats; and an initiative to exploit the properties of the 
terahertz band for detection of IEDs. The goal is to achieve sufficient 
precision, low false-alarm rate, and stand-off distance to permit 
deployment of tactically useful countermeasures to IEDs and related 
threats.
    The Counter Bomb/Counter Bomber (CB\2\) Advanced Concept Technology 
Demonstration (ACTD) program will develop and assesses technologies 
that can be deployed in a layered system of countermeasures that 
assess, detect, identify, and mitigate the terrorist threat from an 
IED. The threat operations of interest for this ACTD include human-
carried, vehicle-delivered, and leave-behind explosives.
    Question. Finally, the urban environment of Iraq exposes our 
personnel to the danger of snipers. Do you agree that new anti-sniper 
systems that take advantage of high-energy laser and other cutting-edge 
technologies should be a high priority?
    Answer. There are a number of counter-sniper technologies being 
assessed within the Department, including acoustic, infrared (IR), and 
laser capabilities. Experience indicates the effectiveness of these 
systems is driven by terrain and environmental conditions, with 
fielding options based on operational scenarios. For example:
  --The Naval Research Laboratory VIPER system detects the unique IR 
        signature of a muzzle blast and permits the precision location 
        of the source of gunfire. The gun may be fired on or off axis 
        with respect to the sensor. Gun firings within closed 
        structures having windows and in partially obscured 
        environments can also be detected. Detection and location is 
        limited to line of sight. A directed video sensor permits 
        zooming in on the firing location.
  --The Overwatch Advanced Concept Technology Demonstration will 
        demonstrate an operational sensor and targeting system's 
        capability to detect, classify and accurately locate direct 
        fire weapons in real-time and transmit that information to a 
        command and control element in support of ground forces 
        operating in urban and complex terrain. The sensor targeting 
        system will provide a capability to ground forces to improve 
        target acquisition, detect multiple types of weapons firing, 
        locate snipers in real time, and decrease counterfire reaction 
        time.
  --The Air Force Research Laboratory's Battlefield Optical 
        Surveillance System, or BOSS, is a grouping of lasers, optics, 
        sensors and communications equipment mounted on a High Mobility 
        Multi-purpose Wheeled Vehicle. While initially envisioned as a 
        mobile counter sniper platform, BOSS has evolved into a working 
        concept of a covert surveillance/detection system with the 
        ability to visibly--or invisibly--designate a battlefield 
        threat. BOSS utilizes forward looking infrared, an IR camera 
        illuminator to light up an area of interest, a visible laser to 
        designate a threatening individual, and a microwave relay to 
        transmit data to a command post.
  --The Joint Non-Lethal Weapons Directorate is developing a new 
        concept that uses pulsed electromagnetic energy in the optical 
        spectrum to distract, deter and dissuade an adversary from 
        extended range. The object of the Pulsed Energy Projectile 
        (PEP) program is to develop and demonstrate the technology 
        necessary to produce a crew served, counter personnel non-
        lethal directed energy weapon providing controllable bio-
        effects to deter, disable, and distract individuals. The device 
        directs an invisible induced plasma pulse at a target that will 
        create a flash-bang near the intended target.
                       status of forces agreement
    Question. Questions remain about the role of U.S. military forces 
that will still be in Iraq after the transfer of sovereignty.
    Can you describe status of forces agreement that will dictate how 
our troops will be able to operate in Iraq after June 30th?
    Answer. During the period of the Iraqi Interim Government (June 30, 
2004 until the election of a Transitional National Assembly no later 
than January 31, 2005), U.S. forces will operate under current 
authorities, i.e., U.N. Security Council Resolution 1511 and Coalition 
Provisional Authority Order 17. After the election of the Assembly, we 
expect to negotiate the role and status of United States and other 
multinational forces with the Iraqi Transitional Government that will 
be formed by the Assembly.
    In addition to these authorities, the new Interim Government has 
already stated its understanding that multinational forces must remain 
in Iraq until Iraqi security forces can assume their full 
responsibilities.
    Question. Does the agreement provide adequate protections for our 
service personnel should disputes arise over the propriety of their 
actions?
    Answer. The current authorities, under which United States and 
other multinational forces will operate until early 2005, provide 
adequate protection. We will require the same level of protection in 
the agreement we will negotiate with the Iraqi Transitional Government.
                       chemical demilitarization
    Question. I believe the Department must increase the top-line 
funding for chemical demilitarization in order to keep its commitment 
to the citizens who reside near America's chemical weapons stockpiles. 
Neither my constituents nor I will tolerate continued mismanagement and 
under funding of the efforts to get rid of these chemical stockpiles.
    Please explain why the Department of Defense cut funding for 
chemical demilitarization despite the Department's directive, signed by 
Under Secretary of Defense for Acquisition, Logistics and Technology 
Pete Aldridge, for acceleration of demilitarization of chemical 
weapons. Is the Aldridge directive in effect, and where does the 
Department stand on maintaining its schedule for destruction of 
chemical stockpiles?
    Answer. The Department realigned funds in its fiscal year 2005 
request to help ensure we meet the Chemical Weapons Convention extended 
45 percent destruction deadline of December 2007. When the previous 
Under Secretary of Defense for Acquisition, Technology and Logistics, 
USD (AT&L), directed the Program Manager for Assembled Chemical Weapons 
Alternatives (PM ACWA) to accelerate the destruction of the Pueblo, 
Colorado, chemical weapons stockpile, this was based on PM ACWA 
pursuing four recommended acceleration options: (1) an accelerated 
contract award; (2) an expedited permitting approach; (3) enhanced 
reconfiguration of the assembled chemical munitions; and (4) offsite 
treatment of secondary wastes. The first two acceleration options were 
fully implemented and have reduced time and generated a cost avoidance 
during this phase of the project. However, Colorado state regulators 
indicated they require a separate permit for enhanced reconfiguration, 
therefore eliminating the acceleration benefits of option (3). 
Additionally, the Colorado Citizens Advisory Committee, in its capacity 
as the voice for the Pueblo community, for the most part rejected 
option (4). PM ACWA is therefore no longer pursuing these two 
acceleration options. Regardless, the USD (AT&L) direction remains in 
effect. Other acceleration options are always welcome for 
consideration; however any option which requires additional resources, 
such as major design changes, must also be validated by the Department. 
The Department will continue to make every effort to comply with the 
Chemical Weapons Convention destruction deadline requirements.
    Question. The Department's cuts to the ACWA program have the 
potential to slow demilitarization at certain sites by roughly a year. 
How can the Department claim to support accelerate clean up while at 
the same time cannibalizing the ACWA budget to pay for mismanagement 
and cost overruns at incineration sites?
    Answer. The Department realigned funds in its fiscal year 2005 
request to help ensure we meet the Chemical Weapons Convention extended 
45 percent destruction deadline of December 2007. Meanwhile, the full 
effects of this internal realignment on the Pueblo Chemical Agent-
Destruction Pilot Plant (PCAPP) project have yet to be quantified. 
While design and construction of the process building may be delayed, 
efforts are underway to begin construction of the support buildings. 
Additionally, a recent analysis has found there are viable design 
concept options less costly than the current design concept that can 
complete destruction of the Pueblo chemical weapons stockpile by the 
same time.
    Question. Please explain why the Department cut the budget for 
chemical demilitarization between the fiscal year 2005 estimate and the 
submission of the fiscal year 2005 budget to Congress.
    Answer. The Department did not cut the fiscal year 2005 budget. The 
Chemical Demilitarization Program fiscal year 2005 estimate was 
$1,456,876,000, and the overall fiscal year 2005 submission was 
$1,453,876,000. Due to the concerns of the House and Senate 
Authorization Committees that all funds for the Chemical 
Demilitarization Program should be appropriated in a Defense-wide 
account, the Department realigned the Military Construction request to 
a separate DOD-wide account. Accordingly, $81.9 million was submitted 
in the Chem Demil Construction, Defense account. Also, $3 million was 
decremented in the fiscal year 2005 submission due to non-pay inflation 
adjustments. Therefore, the difference between the two submissions was 
$3 million.
    Question. Please explain why the department transferred $147 
million in funding from the ACWA program to fund cost overruns at the 
Office of Elimination of Chemical Weapons' incineration sites?
    Answer. While preparing the fiscal year 2005 President's Budget, 
the Department moved $147 million of unexecutable funds from the ACWA 
Program research and development budget activity to cover shortfalls in 
other areas of the Chemical Demilitarization Program to help ensure we 
meet the Chemical Weapons Convention extended 45 percent destruction 
deadline of December 2007. This was not a punitive action and not 
intended or expected to slow down our demilitarization actions at 
Pueblo. Sufficient funds will be available in fiscal year 2005 to 
proceed with the Pueblo effort, to include $45 million for Military 
Construction projects.
    Question. One of the great successes of the ACWA program has been 
the robust involvement of the local community. ACWA's efforts to reach 
out to local leaders and citizens have invested them in the project at 
BGAD and help to build an unprecedented amount of trust in the Chemical 
Demilitarization program. Why, then, am I hearing talk of cutting 
funding to the citizen involvement programs underway at stockpile 
communities such as the Chemical Destruction Community Advisory Board 
in Kentucky?
    Answer. The Department has no intention of cutting funding to the 
Citizens Advisory Commissions (CACs) in any of the eight states 
possessing chemical weapons stockpiles. The Department is required to 
provide this funding under section 172(g) of Public law 102-484, and 
fully intends to continue to comply.
                                 ______
                                 
              Questions Submitted by Senator Conrad Burns
    Question. It is more important now than ever that Iraqis see other 
Iraqis in military positions and other areas of law enforcement. Would 
you provide this subcommittee with an update on progress in training 
the Iraqi Police Force, the Iraqi Civil Defense Corps and the Iraqi 
Army? Are you finding that you have adequate facilities, equipment and 
resources to precede with this training and then transition them into 
operational forces?
    Answer. The Multi-National Security Transition Command-Iraq (MNSTC-
I), commanded by LTG Dave Petraeus, in coordination with the Iraqi MOI 
and MOD, is responsible for manning, training, equipping, mentoring and 
certifying the Iraqi Security Forces. Training, equipping and mentoring 
programs are being aggressively implemented to develop internal and 
external Iraqi security force capability.
    As of July 25, 2004, the Iraq Security Forces (ISF) is gradually 
and steadily developing increased capability to assume internal 
security responsibility. Forces under the Minister of Interior include 
the Iraqi Police Service (IPS) and the Department of Border Enforcement 
(DBE). Thirty percent of the 89,000 man IPS have completed either an 8 
week basic course for new recruits, at the Jordan International Police 
Training Center or the Baghdad Police Service Academy, or the three 
week Transition Integration Program (TIP) for veteran officers, 
accomplished in provincial training facilities. Advanced training being 
accomplished at the IPS Adnon Training Facility in Baghdad includes 
Leadership and Criminal Investigation as well as specialty courses for 
the Emergency Response Unit and Counter-Terrorism Unit. Equipment, 
including weapons, body armor, communications and vehicles is being 
delivered at a steady pace.
    The Department of Border Enforcement is manned at 85 percent of the 
desired end state. Equipment and training similar to the IPS programs 
is being provided to the Iraqi Border Patrol (IBP) of the DBE. 
Infrastructure improvements to border forts are also progressing with 
contracts let to rebuild Class A and B entry and denial points along 
the Syrian, Saudi and Iranian borders.
    Under the current plan, 100 percent of the training required to man 
the MOI forces will be completed by June 2005. Equipment deliveries 
should be completed by April 2005.
    Under the Ministry of Defense (MOD), the Iraqi Civil Defense Force 
has been renamed as the Iraqi National Guard (ING). There are 45 ING 
Battalions operational, with 40 manned at over 75 percent of personnel 
requirements. As with the MOI forces, ING equipment is flowing 
steadily. All 45 Battalions will be fully operational by December 2005.
    Five of 27 Brigades of the Iraqi Army (IA) are operational or in 
training, including the 1st Brigade of the Iraqi Intervention Force 
(IIF) currently operating in Baghdad. The IIF was created to conduct 
internal security tasking after the events of April and May 2004 in 
Fallujah and the Center South. Equipment is delivered to the IA 
battalions as they complete training. Under the current schedule, 27 
Battalions of the IA will be operational by February 2005.
    The Iraqi Coastal Defense Force (ICDF) has recruited 71 percent of 
the required manning and is equipped with 5 patrol boats and 10 Rigid 
Hull Inflatable Boats (RHIBs). They are currently conducting supervised 
daytime operations. They are on track for full operational capability 
by October 2005.
    The Iraqi Air Force will consist of a reconnaissance squadron, a C-
130 transport squadron and a UH-1 Huey helicopter squadron. Training is 
underway or completed for 23 percent of the pilots and mechanics. Two 
Seeker reconnaissance aircraft have been purchased and will be 
operational by September 2004.
    MNSTC-I is aggressively ensuring that Iraqis take responsibility 
for developing the capability of their own forces. MNSTC-I, in 
coordination with the Chief of Mission, provides mentoring to the 
staffs of the Iraqi Joint Headquarters (JHQ), the MOD and the MOI to 
develop command and control capability and implement Iraqi policy for 
employment of the ISF. As C\2\ capability grows, combined with the 
ongoing ISF training and equipping programs, the Interim Iraqi 
Government (IIG) will be able to assume control of security 
responsibilities at the local, then provincial, then national level 
supported in the background by the Coalition. Finally, NATO has agreed 
to provide additional training resources to the IIG. MNFI is 
coordinating with NATO to determine the breadth and scope of that 
assistance.
    Question. Last year, the Air Force proposed a $21 billion lease of 
100 Boeing 767's, which would be converted to KC-767 tankers. The Air 
Force and conference reached a compromise last year, included in the 
Fiscal Year 2004 Defense Authorization Act, allowing the Air Force to 
lease 20 tankers from Boeing and buy 80 under a traditional procurement 
program. However, negotiations for a final contract were put on hold at 
the end of 2003, pending the outcome of the DOD Inspector General 
investigation. Exactly where are we now in respect to the KC-767 tanker 
issue and what is the plan moving forward?
    Answer. In response to the tasking of the Deputy Secretary of 
Defense, and associated with the hold on the proposed 767 Tanker Lease/
Buy, the results of three studies have been provided to the Department. 
The studies are: The Aerial Refueling Defense Science Board (DSB) Task 
Force Study; the Analysis of Lessons Learned from the United States Air 
Force Tanker Lease Program (TLP)-Industrial College of the Armed 
Forces/National Defense University (ICAF/NDU); and the DOD Inspector 
General Audit Report, ``Acquisition of the Boeing KC-767A Tanker 
Aircraft.'' All three studies recommended that the Department readdress 
how it implements and controls innovative acquisition processes, 
including leasing. In light of this, the Acting USD(AT&L) directed the 
President, DAU chair a working group to formulate recommendations based 
on the results of these three studies that will result in changes to 
the DOD 5000 Series, Federal Acquisition Regulation (FAR)/Defense 
Federal Acquisition Regulation (DFAR), and other acquisition related 
documents. Recommendations are due to USD(AT&L) not later than 
September 1, 2004. In addition, an Analysis of Alternatives for Tanker 
Recapitalization and the ongoing Mobility Capabilities Study have been 
accelerated. The overall goal of these efforts is to more fully 
understand the tanker requirements and options for meeting those 
requirements, before recapitalizing the tanker fleet.
    Question. This year, eight active duty, eight Air Force Reserve, 
and 18 Air National Guard units provided 1,300 tanker sorties 
offloading more than 32 million pounds of fuel for missions related to 
Operation Noble Eagle (ONE). Last year, the Air Force brought personnel 
and materiel into Iraq and Afghanistan via 7,410 sorties. Over 4,100 
passengers and 487 tons of cargo were moved by airmen operating at 
various Tanker Airlift Control elements in and around Afghanistan. Are 
you finding that you're tactical and strategic airlift capabilities 
adequate? Are tactical and strategic airlift funded adequately in the 
fiscal year 2005 budget?
    Answer. Tactical airlift capabilities as a whole are adequate to 
prosecute the national defense strategy. Moderate areas of concern 
still exist such as aircraft survivability in current and future 
dynamic environments. However, fleet capability is currently adequate.
    Strategic airlift capabilities present a different picture. The Air 
Force can provide enough capability to meet the limited requirements 
mentioned in your question, but lacks the capacity to fully prosecute 
the national defense strategy. Given fiscal realities, the fiscal year 
2005 budget adequately addresses the capability shortfall and a roadmap 
is in place to improve. Finally, the Mobility Capabilities Study (MCS) 
due for release in fiscal year 2005 will update the airlift 
requirements.
    Question. Can you give me an idea of when the Strategic 
Capabilities Assessment (SCA) will be completed?
    Answer. The term ``Strategic Capabilities Assessment'' refers to a 
planned, periodic review of progress in implementing the findings of 
the December 2001 Nuclear Posture Review. The first of the planned 
reviews was completed earlier this spring. The draft results are still 
being reviewed by senior DOD officials.
                                 ______
                                 
            Questions Submitted to General Richard B. Myers
               Question Submitted by Senator Ted Stevens
                   captured enemy ammunition in iraq
    Question. Over 770,000 short tons of enemy ammunition have been 
discovered in Iraq. Continued finds could increase the total number to 
over 1 million short tons.
    The captured ammunition is stored at 72 sites throughout the 
country. Of these sites, there are 23 secured sites and 49 partially 
secured sites. A secured site is defined as having a 24/7 Coalition 
presence. Partially secured is defined as periodic patrolling/
surveillance and either fenced or bermed.
    It has been reported and confirmed that weapons, ammunition and 
explosives at many partially secured ammo dumps are easily available to 
enemy combatants that has the means to load and transport them.
    The Army Corps of Engineers is responsible for processing and 
demilitarizing captured ammunition in Iraq. Security is their top 
priority. They plan to have all ammo secured by the end of September. 
The Corps of Engineers is safely disposing of approximately 600 tons 
per day. Under the best case scenario, it will take three years to 
complete the disposal process.
    The Committee provided an additional $165 million in the fiscal 
year 2004 supplemental for the disposal effort. In total, the Defense 
Department has awarded $285 million in fiscal year 2004 contracts for 
the demilitarization of captured enemy ammunition in Iraq.
    Soldiers and Marines are uncovering new weapons caches on almost a 
daily basis. How are you securing and disposing of these recently 
captured munitions?
    Answer. Since January 1, 2004, we have found 2,281 weapons caches. 
Those weapons caches are evaluated based on the type and quantity of 
munitions. The most dangerous munitions, such as rocket-propelled 
grenades, mortar and artillery rounds (used for making improvised 
explosive devices) and surface to air missiles are transported to six 
depots for safe secure storage and eventual destruction. There is one 
depot per divisional sector. Munitions that are deemed unsafe or 
potentially booby trapped are destroyed at the site of discovery.
                                 ______
                                 
            Questions Submitted by Senator Pete V. Domenici
                           homeland security
    Question. Since the attacks of September 11, 2001, the National 
Guard and Reserves have played an integral role in securing the 
homeland. This has been particularly important to border states like 
New Mexico where terrorist infiltration is a constant concern.
    General Myers, do you expect that the National Guard will maintain 
significant border protection responsibilities?
    Answer. No. Our National Guard troops were only used in the 
aftermath of the 9/11 attacks as a stopgap measure. There is no long-
term plan to engage them in border security operations. Border security 
is not the primary responsibility of the military.
    Question. What new roles and missions (such as UAV operations) will 
they be assuming to enhance border protection?
    Answer. The National Guard will not be engaged in border protection 
operations.

                         CONCLUSION OF HEARINGS

    Senator Stevens. We appreciate your concern. And, again, we 
generally thank you. I mean, you've taken a lot of time with us 
today. Did you know that every member of this subcommittee was 
here and asked questions of you? And that's probably a record 
for this subcommittee on these wrap-up hearings that we have.
    Yes, as Senator Inouye says, it's the first time they all 
came for the wrap-up.
    Thank you very much.
    General Myers. Thank you, Chairman. Thank you, Senator 
Inouye.
    Secretary Rumsfeld. Thank you very much.
    [Whereupon, at 12:20 p.m., Wednesday, May 12, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

</pre></body></html>
